August 14, 2003
Audit Report No. 03-036


Material Loss Review of the Failure of
Southern Pacific Bank, Torrance, California
                                                 TABLE OF CONTENTS

BACKGROUND................................................................................................................................2

RESULTS OF AUDIT .......................................................................................................................8

FINDINGS AND RECOMMENDATIONS .................................................................................11

WHY THE BANK’S PROBLEMS RESULTED IN A MATERIAL LOSS ................................11

     Corporate Governance..................................................................................................................11
        Board of Directors ...................................................................................................................11
        Senior Management .................................................................................................................13
        Internal Review.........................................................................................................................17
        External Audit...........................................................................................................................19
           Recommendation.................................................................................................................22
     Failure to Diversify the Risk in the Bank’s Loan Portfolio ..............................................................25
        High-Risk Asset Portfolio .........................................................................................................25
        High Loan-Growth ..................................................................................................................37

ASSESSMENT OF THE FDIC’S SUPERVISION OF THE INSTITUTION ............................39

     Finding A: Examiners Need More Guidance on How to Evaluate High-Risk
                Commercial Loan Programs that Target Subprime Borrowers .........................39
                  Recommendations ..............................................................................................45

     Finding B: SPB’S Allowance for Loan and Lease Losses was Underfunded.......................46
                  Use of Peer Group Data Comparisons .................................................................47
                  Use of Historical Loan Loss Averages .................................................................54
                  Use and Quantification of Qualitative Risk Factors................................................60
                  Recommendations ..............................................................................................63

     Implementation of Prompt Corrective Action...........................................................................63

     Other Issue: Federal Oversight of ILC Parent Holding Companies......................................66
                     ILC History......................................................................................................66
                     FDIC’s Regulatory Authority ...........................................................................67
                     BHCA Inspections ...........................................................................................69
                     FDIC’s Visitations of Parent Holding Company ................................................71

CORPORATION AND STATE OF CALIFORNIA COMMENTS AND OIG
  EVALUATION ..........................................................................................................................74

                                                                        i
                                           TABLE OF CONTENTS

APPENDIX I:             OBJECTIVES, SCOPE, AND METHODOLOGY......................................... 77

APPENDIX II:            IMPERIAL CREDIT INDUSTRIES, INC.
                        ORGANIZATIONAL CHART ........................................................................ 79

APPENDIX III:           CHRONOLOGY OF SIGNIFICANT EVENTS ............................................. 80

APPENDIX IV:            ACCOUNTING PROBLEMS, INTERNAL CONTROL
                        WEAKNESSES, AND APPARENT VIOLATIONS OF LAW CITED
                        BY REGULATORS IN SPB’S REPORTS OF EXAMINATION ................. 84

APPENDIX V:             SPB’S PORTFOLIO COMPOSITION............................................................ 89

APPENDIX VI:            SUBPRIME LENDING POLICIES AND PROCEDURES........................... 91

APPENDIX VII: ALLOWANCE FOR LOAN AND LEASE LOSS REVIEW
              GUIDELINES.................................................................................................... 95

APPENDIX VIII: CORPORATION COMMENTS .................................................................... 97

APPENDIX IX:            MANAGEMENT RESPONSES TO RECOMMENDATIONS.................. 104

APPENDIX X:             GLOSSARY .................................................................................................... 105

APPENDIX XI:            PREVIOUSLY ISSUED MATERIAL LOSS REVIEW REPORTS ........... 120

TABLES
  Table 1:       FDIC and California DFI Supervisory Actions for SPB from 1992 to 2003 ...................... 7
  Table 2:       Examples of SPB and ICII Employee Salaries and Bonuses from 1994 to 2001.............. 15
  Table 3:       Sarbanes-Oxley Act Requirements for External Auditors................................................ 23
  Table 4:       Fees Paid to KPMG for Services Provided from 1999 to 2001...................................... 24
  Table 5:       Comparison of CBC’s Asset Size and Losses to Those of SPB from 1996 to 2002........ 26
  Table 6:       SPB Industry Concentrations from 2000 to 2002 ........................................................... 35
  Table 7:       SPB’s Historical Losses in Industry Concentrations ........................................................ 35
  Table 8:       SPB’s Ten Largest Losses in 2001 ................................................................................ 36
  Table 9:       SPB’s Ten Largest Asset Classifications in 2002............................................................ 36
  Table 10:      Additional Tier 1 Capital Based on a 20 Percent Equity Capital Allotment....................... 43
  Table 11:      Examination Coverage of High-Risk Assets at SPB........................................................ 44
  Table 12:      Informal and Formal Enforcement Actions – Capital and ALLL Provisions...................... 64
  Table 13:      Capital Infusions to SPB by Year................................................................................... 73

                                                                  ii
                                        TABLE OF CONTENTS

FIGURES
   Figure 1:    Change in Composition of ICII’s Loan Portfolio ............................................................ 5
   Figure 2:    Changes in SPB's Loan Portfolio Mix from 1987 to 2002 .............................................. 6
   Figure 3:    Breakdown of Fees Paid to KPMG from 1999 to 2001 .............................................. 24
   Figure 4:    Total Assets at SPB from 1987 through 2002 .............................................................. 38
   Figure 5:    Recomputation of Tier 1 Leverage Capital ................................................................... 43
   Figure 6:    SPB’s Ratio of Loan and Lease Allowances to
                Total Loans and Leases Compared to SPB’s Peer Group Average .............................. 48
   Figure 7:    SPB’s Ratio of Net Loss to Average Total
                Loans and Leases Compared to SPB’s Peer Group Average ....................................... 49
   Figure 8:    SPB’s Ratio of Loan and Lease Allowance
                to Net Losses Compared to SPB’s Peer Group Average ............................................. 49
   Figure 9:    SPB’s Ratio of Non-Current Loans and Leases to
                Gross Loans and Leases Compared to SPB’s Peer Group Average ............................. 50
   Figure 10:   SPB’s Ratio of Loan and Lease Allowance to Nonaccrual
                Loans and Leases Compared to SPB’s Peer Group Average ....................................... 50
   Figure 11:   Tier 1 Leverage Capital Ratio from 1993 to 2002 ........................................................ 51
   Figure 12:   Tier 1 Leverage Capital Ratio from 1993 to 1999 ........................................................ 51
   Figure 13:   Historical Loss Averages in Comparison to Reserve
                Percentages for Non-Adversely Classified Loans.......................................................... 56
   Figure 14:   CBC’s Historical Loss Averages in Comparison to
                Reserve Percentages for Non-Adversely Classified Loans ............................................ 57
   Figure 15:   Impact to the Tier 1 Leverage Capital Ratio ................................................................. 58
   Figure 16:   SPB and ICII Net Operating Income from 1997 to 2001 ............................................. 72




                                                              iii
Federal Deposit Insurance Corporation                                                                          Office of Audits
Washington, D.C. 20434                                                                            Office of Inspector General


DATE:                                August 14, 2003

MEMORANDUM TO:                       Michael J. Zamorski, Director
                                     Division of Supervision and Consumer Protection




FROM:                                Russell A. Rau
                                     Assistant Inspector General for Audits

SUBJECT:                             Material Loss Review of the Failure of Southern Pacific Bank,
                                     Torrance, California (Audit Report No. 03-036)

In accordance with section 38(k) of the Federal Deposit Insurance Act (FDI Act), 12 U.S.C. 1831o,
the Office of Inspector General (OIG) conducted a review of the failure of Southern Pacific Bank
(SPB), Torrance, California. On February 7, 2003, the California Commissioner of Financial
Institutions closed the institution and named FDIC as receiver. At the time of failure, SPB reported total
assets of approximately $1.1 billion. On February 14, 2003, FDIC’s Division of Finance notified the
OIG that the estimated cost of the failure to the Bank Insurance Fund (BIF) would be $134.5 million.
As of June 30, 2003, this estimated loss had declined to $100 million due to higher than expected
proceeds from asset sales.

As mandated by the FDI Act, the audit objectives were to: (1) ascertain why the bank’s problems
resulted in a material loss1 to the insurance fund and (2) assess the FDIC’s supervision of the bank,
including implementation of the Prompt Corrective Action (PCA)2 requirements of Section 38 of the
FDI Act. In this report, we address each of these objectives and discuss our findings as part of our
analysis of the bank’s failure and the regulators’ efforts to require SPB’s management to operate the
bank in a safe and sound manner. Appendix I contains additional information on our objectives, scope,
and methodology.




1
 A material loss is defined by section 38 of the FDI Act, in general, as a loss that exceeds the greater of $25 million or
2 percent of the institution’s total assets at the time the FDIC was appointed receiver.

2
 See the glossary (Appendix X) at the end of this report for an explanation of this and other terms and acronyms
used throughout this report.
BACKGROUND

SPB was chartered as an industrial loan company3 (ILC) by the State of California on March 1, 1982,
under the name of Southern Pacific Thrift & Loan.4 The institution received federal deposit insurance on
November 5, 1987. Initially, the institution originated residential mortgage loans and sold the loans and
servicing rights to its parent, Imperial Bank. SPB remained a direct subsidiary of Imperial Bank until
January 1992 when Imperial Bank formed Imperial Credit Industries, Inc. (ICII), and contributed all of
the outstanding stock of SPB to ICII.5 Appendix II contains an ICII organizational chart. SPB and
Imperial Bank were subject to regulation, supervision, and examination under both California and
federal law, by the California Department of Financial Institutions (DFI)6 and by the FDIC, respectively.
But by law, ICII was not subject to Bank Holding Company Act (BHCA) regulations. ICII annually
filed a Form 10-K, Annual Report Pursuant to Section 13 or 15(d) of the Securities Exchange Act
of 1934, with the Securities and Exchange Commission. Each year ICII’s 10-K stated that it was not
regulated or supervised by the DFI, FDIC, Federal Reserve Board or any other bank regulatory
authority, except with respect to:

    •    the general regulatory and enforcement authority of the DFI and the FDIC over transactions and
         dealings between ICII or any of its affiliates and SPB; and,
    •    the specific limitations regarding ownership of the capital stock of a parent company of any
         industrial bank and the payment of dividends.




3
  An industrial loan company, industrial bank, or other similar institution, which is an institution organized under the
laws of a state which, on March 5, 1987, had in effect or had under consideration in such state's legislature a statute
that required or would require such institution to obtain insurance under the FDI Act (12 U.S.C. 1811 et seq.) - ( I )
which does not accept demand deposits that the depositor may withdraw by check or similar means for payment to
third parties; ( II ) which has total assets of less than $100,000,000; or ( III ) the control of which is not acquired by
any company after August 10, 1987. The current California Financial Code (CA FC), section 1400, pertains to the
licensing and regulation of industrial banks and states that any reference to the term industrial loan company means
industrial bank. CA FC section 105.5 defines an industrial bank to mean a corporation organized for the purpose of
engaging in the industrial banking business, and section 105.7 defines industrial banking business to include the
making of loans and acceptance of deposits, including deposits evidenced by investment or thrift certificates, but
excluding demand deposits.

4
 The 1996 California legislation that created the California Division of Financial Institutions also authorized the use
of the word bank by thrift and loan companies, such as SPB, in their names. Effective October 8, 1997, Southern
Pacific Thrift & Loan changed its name to Southern Pacific Bank.

5
  ICII was SPB’s holding company. By March 31, 2002, ICII had a capital deficit of approximately $97 million. ICII was
publicly traded on the NASDAQ until it was delisted on May 15, 2002. In July 2003, ICII filed for protection from
creditors under Chapter 11 of the federal bankruptcy law. ICII listed $190 million in liabilities and $20 million in assets
in its filing in U.S. Bankruptcy Court in Los Angeles.

6
 The DFI was created on July 1, 1997. DFI was formed by consolidating the divisions of Credit Unions and Industrial
Loan Companies from the Department of Corporations into the former State Banking and Savings and Loan
Departments. Prior to July 1, 1997, SPB was supervised by the California Department of Corporations (DOC).


                                                             2
In the early 1990s, SPB grew rapidly from aggressive marketing for deposits and from bulk mortgage
loan purchases, mostly from affiliates.7 SPB warehoused8 mortgage loans, but also held a small
portfolio for investment purposes. The bank nearly tripled in asset size from $452 million at the
February FDIC 1993 examination to nearly $1.4 billion by year-end 1994. However, $1.1 billion of
total assets were mortgage loans held for sale (also known as pre-sold loans),9 which were generally on
the books for less than 90 days.

At the beginning of 1994, SPB’s total assets were greater than $500 million for the first time, crossing
the asset threshold of Section 36 of the FDI Act10 and thus requiring SPB management to prepare,
annually, reports that included the following:

     •   Financial statements prepared in conformity with generally accepted accounting principles
         (GAAP).
     •   A written assertion about the effectiveness at year-end of the institution’s internal controls over
         financial reporting.
     •   A written assertion about the institution’s compliance during the year with federal laws and
         regulations relative to (a) insider loans and (b) dividend restrictions and state laws and
         regulations relative to dividend restrictions.

In addition, Section 36 required SPB management to engage an independent accountant to provide the
following reports annually:

     •   An audit report on the GAAP-basis financial statements.
     •   An examination-level attestation report on management’s assertion about financial reporting
         controls.

The financial statement audit, performed in accordance with generally accepted auditing standards
(GAAS), and the examination of management’s assertion about financial reporting controls, performed
in accordance with the American Institute of Certified Public Accountants’ (AICPA) Statement on
Standards for Attestation Engagements (SSAE), were required to be filed with the FDIC and other
regulatory agencies within the 90 days following SPB’s fiscal year-end. SPB management was also

7
 Section 2(k) of the Bank Holding Company Act, 12 USC 1841et seq., defines the term ''affiliate'' to mean any
company that controls, is controlled by, or is under common control with another company.

8
 Loans originated through a line of credit are essentially warehoused until sold into the secondary market.
Warehousing allows a mortgage banker to leverage capital, thus permitting increased loan production.

9
 Held for sale, or pre-sold loans are loans purchased for subsequent sale in the market. These loans were generally
not permanent in nature and were typically on the bank's books for less than 90 days.

10
  The Federal Deposit Insurance Corporation Improvement Act (FDICIA) of 1991 added Section 36 to the Federal
Deposit Insurance Act (FDI Act), codified to 12 U.S.C. 1831m, and Part 363 of the FDIC Rules and Regulations,
codified to 12 C.F.R. Part 363 implements Section 36 of the FDI Act. FDICIA contained accounting, corporate
governance, and regulatory reforms designed to correct weaknesses in the deposit insurance system. Among other
measures, FDICIA’s early warning reforms provide for timely disclosure of internal control weaknesses. FDICIA also
established audit and reporting requirements for insured depository institutions with total assets of $500 million or
more and their independent public accountants.


                                                          3
required to file with the regulators any management letter, qualification, or other report within 15 days
following receipt from SPB’s independent accountant.

SPB’s parent, ICII, conducted its core business segments primarily through SPB where ICII originated
loans and leases. SPB historically obtained the liquidity necessary to fund its parent ICII’s former
residential mortgage banking operations and its own investing activities through deposits and, if
necessary, through borrowings under lines of credit and from the Federal Home Loan Bank (FHLB).

In 1995, ICII began to reposition, transform and diversify its core business activities from the traditional
mortgage banking operations of originating and selling conforming residential mortgage loans to offering
higher margin loan, lease, investment, and financial services products. ICII diversified its loan and lease
products by focusing on the creation and acquisition of additional finance businesses as described
below:

     •   Non-Conforming Residential Lending – Non-conforming residential lending was conducted
         through ICII's subsidiary, Southern Pacific Funding Corporation (SPFC)11, a mortgage banking
         company that originated, purchased, and sold high-yielding, single family non-conforming
         mortgage loans. SPFC commenced operations in January 1993 as a division of SPB and after
         April 1995, operated as a subsidiary of ICII before completing an initial public offering of its
         common stock in June 1996.

     •   Business Finance Lending – Business finance lending was conducted through Imperial Business
         Credit, Inc. (IBC), an ICII wholly-owned commercial leasing company specializing in lending to
         small businesses and three divisions of SPB: Coast Business Credit (CBC), the Loan
         Participation and Investment Group (LPIG) and the Auto Lend Group (Auto Lend).

     •   Commercial Mortgage Lending – ICII conducted its commercial mortgage lending operations
         through the Income Property Lending Division (IPLD) of SPB. IPLD was formed in February
         1994 to expand ICII’s apartment and commercial property lending business and focused on the
         small loan market for apartments and commercial loans consisting of loans less than $2.5 million.

     •   Consumer Lending – ICII conducted consumer lending operations through the Auto Lending
         Division (ALD) and Consumer Credit Division (CCD) of SPB. ICII eventually closed ALD
         operations in February 1999 because of the significant losses incurred from this business. ICII
         also closed its CCD operations in December 1998 because they did not generate returns that
         met profitability expectations.



11
  SPFC was a specialty finance company engaged in the business of originating, purchasing, and selling non-
conforming mortgage loans secured primarily by one-to-four family residences. The majority of the Company's loans
were made to owners of single family residences who used the loan proceeds for purposes such as mortgage
refinancing, home purchase, debt consolidation, home improvements, and educational exp enditures. SPFC focused
primarily on lending to individuals who had significant equity in the value of their homes but had impaired or limited
credit histories. As a result, SPFC's customers were less likely to qualify for loans from conventional mortgage
lenders and generally paid higher interest rates than interest rates charged by conventional mortgage lenders.


                                                          4
   •   Franchise Lending – Franchise lending was conducted through ICII's subsidiary, Franchise
       Mortgage Acceptance Corporation, LLC (FMAC), a full-service franchise finance company
       engaged in the business of originating loans and equipment leases to top-tier established
       franchisees of national and regional franchise concepts. ICII eventually divested itself of
       FMAC.

SPB historically obtained the liquidity necessary to fund ICII’s former residential mortgage banking
operations and SPB’s investing activities through deposits and, if necessary, through borrowings under
lines of credit and from the Federal Home Loan Bank (FHLB). By 1996, the bank’s business lines
were expanded to include commercial lending, franchise financing, and asset-based lending through the
bank’s acquisition of CBC from Coast Federal Savings and Loan. Business operations conducted
through divisions of SPB were primarily financed through deposits, capital contributions from ICII to
SPB, a warehouse line of credit and FHLB borrowings. CBC specialized in higher yield and higher risk
commercial loans to several major industries including airlines, telecommunications, technology, and
entertainment.

As part of the repositioning and diversification process, ICII's loan portfolio composition as a
percentage of total loans and leases outstanding at December 31, 1996, changed as shown in Figure 1
below.

 Figure 1: Change in Composition of ICII’s Loan Portfolio

                                          60                          December 31, 1996       December 31, 1995
                                                        58
                                          50
                   Percent of Portfolio




                                                                                              37         46
                                          40
                                                                                                                28
                                          30

                                          20
                                                                                 2   3               2
                                          10
                                                    8             7   9
                                           0
                                               Conforming    Commercial   Consumer        Business   Non-
                                               Residential    Mortgage      Loans        Loans andconforming
                                                Mortgage       Loans                       Leases Residential
                                                 Loans                                             Mortgage
                                                                                                    Loans
                                                   Loan Types by Escalating Risk (Lower to Higher Risk)


 Source: ICII’s 1996 Securities and Exchange Commission Form 10-K.


As noted above, ICII’s conforming residential mortgage loans, commercial mortgage loans, and
consumer loans decreased, while higher risk non-conforming residential mortgage loans and business
loans and leases increased as a percentage of total outstanding loans and leases.




                                                                             5
SPB’s parent, ICII, repositioned, transformed, and diversified its core business activities from the
traditional mortgage banking operations to offering higher-margin loan, lease, investment and financial
services products. The effect of this major change was reflected in SPB’s loan portfolios, most notably
in its lower-risk loans secured by one-to-four family residential properties and higher-risk commercial
and industrial loan portfolio as shown in Figure 2.

  Figure 2: Change in SPB’s Loan Portfolio Mix from 1987 to 2002

                                    100
     Percentage of Loan Portfolio




                                    80


                                    60


                                    40


                                    20


                                     0
                                          1987

                                                 1988

                                                        1989

                                                               1990

                                                                        1991

                                                                               1992

                                                                                      1993

                                                                                             1994

                                                                                                    1995

                                                                                                           1996

                                                                                                                  1997

                                                                                                                         1998

                                                                                                                                1999

                                                                                                                                       2000

                                                                                                                                              2001

                                                                                                                                                     2002
                                                                      Loans Secured by 1-4 Family                   Commercial and
                                                                      Residential Properties                        Industrial Loans


 Source: SPB Call Reports.

From 1987 through 1999, SPB’s composite CAMELS 12 rating fluctuated between a 2 and a 3.
However, during the 1996 examination by FDIC and DFI, examiners had several concerns that
required SPB’s Board of Directors to oversee improvements in the bank’s compliance with laws,
regulations, and statutes; adherence to lending policies; quality of assets; and, internal controls,
practices, and policies over operations. Overall, for the first time, examiners concluded that the Board
and management had not been effective in managing, supervising, or administrating the growth of SPB.
These concerns persisted until the failure of SPB in 2003. Following the 1996 examination SPB
entered into a joint memorandum of understanding (MOU) with the FDIC and DFI on September 30,
1996. This was the first informal action against SPB. Table 1 summarizes SPB’s examination history
and supervisory actions from 1992 through 2003.

12
  Financial institution regulators use the Uniform Financial Institutions Rating System to evaluate a bank's
performance. Six areas of performance are evaluated and given a numerical rating of 1 through 5, with 1 representing
the least degree of concern and 5 the greatest degree of concern. The six performance areas are: Capital adequacy,
Asset quality, Management practices, Earnings performance, Liquidity position, and Sensitivity to market risk. A
composite CAMELS rating is an overall rating given to a bank based on the six performance areas. A rating of 1
through 5 is given. A rating of 1 indicates strong performance; 2 reflects satisfactory performance; 3 represents
below-average performance; 4 refers to marginal performance that could threaten the viability of the institution; and,
5 is considered critical, unsatisfactory performance that threatens the viability of the institution.


                                                                                             6
Table 1: FDIC and California DFI Supervisory Actions for SPB from 1992 to 2003
                       CAMEL(S) /            Supervisory Actions
   Examination          Composite         Recommended by FDIC and
  Date and Issuer        Ratings          California DFI Examiners                    Resulting Actions
10/31/1992, DFI       2-2-2-1-2 / 2     None                             None

02/04/1993, FDIC      1-2-2-2-2 / 2     None                             None

01/10/1994, FDIC      2-2-3-2-2 / 2     None                             None

12/15/1994, DFI       2-3-3-2-3 / 3     None                             None
01/16/1996, DFI                                                          Concurred / Signed-on to FDIC’s MOU
                      2-3-3-2-2 / 3     None
Concurrent w/FDIC                                                        Effective 9/26/96.
01/16/1996, FDIC
                      2-3-3-2-2 / 3     Recommended MOU                  MOU Effective 9/26/96.
Concurrent w/DFI
                                                                         Of the 6 provisions in FDIC’s 9/26/96
04/14/1997, DFI                                                          MOU, 5 satisfied. Board Resolution
                      2-3-3-2-2-2 / 3   None
Concurrent w/FDIC                                                        adopted on 10/29/97 to address 4/14/97
                                                                         exam deficiencies.
04/14/1997, FDIC
                      2-2-3-2-2-2 / 2   None                             Same as above.
Concurrent w/DFI
05/11/1998, Joint
                      3-3-4-2-2-2 / 3   Recommended MOU.                 MOU Effective 01/27/99
DFI and FDIC
                                                                         Significant progress on 1/27/99 MOU but it
06/21/1999, Joint                       MOU considered but not           but remains in effect. Board Resolution
                      3-3-3-3-2-3 / 3
DFI and FDIC                            recommended.                     adopted on 1/26/00 to address 1999
                                                                         examination deficiencies.
                                                                         Progress on 1/27/1999 MOU, but 2
                                                                         important provisions--maintenance of
06/26/2000, Joint
                      3-4-4-4-2-2 / 4   Recommended C&D Order.           capital and reserves--not fully satisfied.
DFI and FDIC
                                                                         - FDIC C&D Order issued 12/15/00.
                                                                         - DFI Final Order issued 01/03/01.
01/21/2001, DFI
                      4-5-4-5-4-4 / 4   None                             DFI Final Order in effect 01/03/01.
Concurrent w/FDIC
01/22/2001, FDIC
                      4-5-4-5-4-4 / 4   None                             C&D Order in effect since 12/15/00.
Concurrent w/DFI
                                                                         FDIC C&D and DFI Final Orders remain in
11/26/2001, Joint                       PCA to be pursued after year-
                      5-5-4-5-4-4 / 5                                    effect. FDIC PCA Notification of Capital
DFI and FDIC Visit                      end 2001 capital determined.
                                                                         Category issued 02/01/02
                                        SPB undercapitalized for PCA     FDIC C&D and DFI Final Orders remain in
02/03/2002, DFI
                      5-5-5-5-5-5 / 5   purposes as of December 31,      effect. PCA notification demanded capital
Concurrent w/FDIC
                                        2001.                            plan and included other restrictions.
02/04/2002, FDIC                                                         SPB in substantial non-compliance with
                      5-5-5-5-5-5 / 5   Same as above.
Concurrent w/DFI                                                         Orders and remains under PCA.
                                        FDIC & DFI recommend capital
                                                                          FDIC C&D Order, DFI Final Order, and
11/18/2002 FDIC       5-5-4-5-4-5 / 5   infusion of $55 and $54 million,
                                                                          PCA Demand for Capital remain in effect.
                                        respectively.
                                        DFI closes bank and FDIC is       Loss estimated by FDIC at $134.5 million as
02/07/2003, DFI       Bank Closed
                                        named receiver.                   of 02/14/03.
Source: FDIC and California DFI reports of examination and related correspondence.

SPB’s board of directors stipulated to an FDIC Cease and Desist Order (C&D) that became effective
on December 15, 2000. This was the first formal action against SPB by the FDIC. The Order
required SPB to retain qualified management, increase capital, reduce classified assets, restrict

                                                         7
dividends and bonuses, and improve other operations. On December 31, 2000, the bank was
considered significantly undercapitalized for PCA purposes, because the bank’s Total Risk-Based
Capital ratio decreased to 5.57 percent, Tier 1 Risk-Based Capital ratio decreased to 2.86 percent,
and Tier 1 Leverage Capital ratio decrease to 2.82 percent. On December 31, 2001, the bank was
considered undercapitalized for PCA purposes because its Total Risk-Based Capital ratio increased
only to 6.34 percent, Tier 1 Risk-Based Capital ratio increased only to 3.51 percent, and Tier 1
Leverage Capital ratio increased only to 3.03 percent. Although SPB’s capital improved, on
February 1, 2002, FDIC required SPB’s Board to prepare and submit a capital restoration plan by
March 1, 2002, and inform the board of the restrictions under Section 38 of the FDI Act. SPB
remained in substantial noncompliance with FDIC’s order as of December 2002. The DFI issued a
similar enforcement action, a Final Order, that became effective on January 3, 2001.

After several revisions, SPB’s capital plan was accepted on May 24, 2002. The plan required that
SPB increase Tier 1 capital by a minimum of $55 million by July 22, 2002, through capital injections
and/or through the sale of certain assets. SPB failed to meet the capital plan, and on July 25, 2002,
FDIC notified SPB that it was significantly undercapitalized for PCA purposes. A revised capital plan
was submitted on November 26, 2002, that called for one of ICII’s senior debt holders to acquire
approximately 80-percent ownership of SPB by directly purchasing $30 million in common stock. On
November 18, 2002, the senior debt holder filed a Notice of Change of Control with the FDIC, and it
was accepted for processing on December 11, 2002. Subsequently, in January 2003 and while FDIC
was reviewing the senior debt holder’s pending Notice, the senior debt holder decided to withdraw the
pending Notice and notified the FDIC and other interested parties of the decision on January 23, 2003.
Without another source of capital, the SPB was determined to be critically undercapitalized as of
December 31, 2002, and closed on February 7, 2003. Appendix III contains a chronology of
significant events in SPB’s history.


RESULTS OF AUDIT

SPB failed because of ineffective corporate governance, leading to a material loss to the Bank
Insurance Fund. Specifically, the individual who served both as the Chairman and President of the
bank’s holding company, ICII, and as the Chairman and interim President of SPB dominated the
operations of the bank, and the Board failed in its responsibilities. Under these circumstances, bank
management:

   •   pursued a strategy of high-growth, high-risk commercial lending without proper risk
       management processes;
   •   concentrated the bank’s lending in the telecommunications, technology, entertainment, and
       airline industries, without adequate underwriting;
   •   operated the bank and its largest commercial lending division under an incentive bonus program
       that rewarded key executives based on reported profits, without balancing performance
       measures related to the safety and soundness of the institution;
   •   frequently ignored examiner recommendations; and
   •   did not correct significant problems identified in internal reviews, allowing internal control and
       other problems at the bank to persist.
                                                   8
Additionally, SPB’s external auditor did not assure adequate disclosure of SPB’s financial condition,
results of operations, and internal control weaknesses. As a result, the bank experienced significant
losses in its commercial loan portfolio. Furthermore, the downturn in the telecommunications and
technology sectors in the early 2000s and the impact of the September 11th terrorist attacks on the
airline industry exacerbated the deterioration in the bank’s portfolio.

In addition to the estimated loss to the Bank Insurance Fund, SPB suffered losses of over
$325 million in the bank’s commercial and industrial portfolio from 1997 to 2002. In the mid- to
late 1990s, SPB dramatically shifted its business strategy from mortgage lending to high-risk commercial
lending. The bank changed its focus to higher-risk loans, with potentially higher yields, concentrating in
the telecommunications, technology, entertainment, and airline industries. Many of these new business
lines were pursued without an adequate loan review program and internal loan grading system. Inferior
underwriting and credit administration, combined with the rapid growth in these product lines without an
adequate provision for loan losses, led to increasing asset problems and adverse classifications. SPB’s
attempts to resolve these problems through loan workout strategies increased the bank’s exposure and
delayed the full recognition of losses. Although SPB’s holding company provided capital infusions of
$125 million and purchased SPB assets of $31 million from 1997 to 2002, the bank’s continuing losses
led to a depletion of the capital needed to sustain operations.

With respect to the supervision of SPB, the FDIC and state examiners conducted annual
examinations, consistently identifying and reporting deficiencies and taking various informal
and formal enforcement actions, but these actions were of limited effect in reducing the risk of
a material loss to the insurance fund. Examiner guidance is needed for assessing the capital
requirements and provision for losses associated with high-risk commercial loans . FDIC and
state examiners conducted annual examinations of SPB from 1993 until its closure. The examiners
repeatedly identified and reported on significant, yet uncorrected problems at the bank. The regulators
also required the bank to operate under two MOUs, in 1996-1997 and 1999-2000, and one C&D
Order from 2000 until SPB failed. However, we identified two areas where supervision could be
improved:

    •   examination guidance and assistance is needed for determining the appropriate amount of equity
        capital needed for high-risk commercial loans; and
    •   examination guidance is needed for assessing the provision for loan losses associated with high-
        risk commercial loans, including the use of peer group average ratios, historical loan loss
        averages, and adjustments for qualitative risk factors such as new areas of lending, new
        management, and high loan growth.

The FDIC implemented PCA in accordance with the requirements of Section 38 of the FDI
Act. However, PCA was not fully effective due to the inadequate provision for loan losses that
overstated SPB’s income and capital for several years and to the bank’s failure to execute its approved
capital plan.




                                                    9
Other Issue: Federal Oversight of ILC Parent Holding Companies

Of the 10 material loss reviews we have conducted, this is the second involving industrial loan
companies – the 1999 failure of Pacific Thrift and Loan was the other. In the case of SPB, its parent
holding company, ICII, was not subject to the regulatory oversight provided under the BHCA.
However, the FDIC was authorized by law to examine any affiliate of SPB, including its parent
company, to determine the relationship between SPB and its parent/affiliate and the effect of such a
relationship on the bank. Our report contrasts the oversight and authority provided under the BHCA
with that which is available by statute to FDIC for parent holding companies of industrial loan
companies such as ICII. We also intend to conduct an audit specifically focusing on non-bank bank
holding companies and the potential risks, if any, which may result from the reduced level of federal
oversight for holding companies not covered by the BHCA.

This report contains six recommendations designed to improve the bank supervision process and
promote the safety and soundness of FDIC-supervised institutions.




                                                  10
FINDINGS AND RECOMMENDATIONS

WHY THE BANK’S PROBLEMS RESULTED IN A MATERIAL LOSS

Corporate Governance

SPB’s Board of Directors (Board) and senior management 13 exhibited a pattern of mismanagement and
failed to provide an adequate system of corporate governance.14 The Board’s failure to provide
adequate oversight was a principal cause of the bank’s failure, which happened in large part because the
Chairman dominated the Board. The bank engaged in high-growth, high-risk strategies in the mid-late
1990s with liberal underwriting, but without proper risk management processes. The Board and senior
management disregarded various laws and banking regulations and frequently ignored examiner
recommendations and enforcement actions, which resulted in a large number of non-performing loans at
the bank’s asset-based lending division, Coast Business Credit (CBC); Auto Financing Division;
PrinCap Mortgage Warehouse Inc. (SPBs wholly-owned subsidiary); and its leveraged syndicated
credit division, Loan Participation Investment Group (LPIG). Adding to these problems was: the lack
of adequate internal control, such as segregation of duties; inadequate preparation of workpapers for
Call Reports; miscalculation of discounts on loans to facilitate the sale of other real estate; lost held-for-
sale loan files; poor accounting for specific reserves; lack of conformity with SPB’s policies and
procedures; and questionable opinions by the external auditor, who also performed internal review
services. To achieve an effective corporate governance environment, the Board (including the audit
committee), senior management, internal review, and external audit must all be in place and working
cohesively. As discussed below, this did not occur at SPB.

           Board of Directors

The Chairman of the Board (COB) of SPB also held the positions of President and COB at SPB’s
parent holding company, ICII. This individual was the one constant management figure through most of
the bank’s history. SPB’s Board meetings were held simultaneously with ICII’s Board meetings. Many
of the internal routine exceptions noted by examiners involved loan servicing performed by affiliated and
unaffiliated third parties without adequate oversight. Weak internal operations existed and continued
from examination to examination because the bank was so integrated with its parent holding company,
ICII. According to the April 14, 1997 examination, the “distinction was blurred between the bank and
its [parent] as a stand alone entity.” Examiners had stressed the importance of maintaining a separation
between the bank, ICII and its affiliates, and other third parties, but these concerns were repeatedly
ignored. The continued lack of adherence to Sections 23A and 23B of the Federal Reserve Act,
codified to 12 U.S.C. §§ 371c and 371c-1, and various California Financial Code regulations suggests

13
     Senior management refers to executive officers and excludes directors.

14
  For financial institutions, corporate governance is the manner in which their Board of Directors and senior
management govern their business and affairs. Corporate governance affects the way corporate objectives are set
and aligns corporate activities and behaviors to ensure safe and sound business operations and compliance with
laws and regulations. Effective corporate governance considers the interests of stakeholders and, ultimately,
protects depositors’ interests.


                                                            11
that the bank lacked the ability or willingness to comply with applicable requirements. Transactions with
affiliates were not monitored for compliance with federal regulations which subsequently led to
continued violations (see Appendix IV).

In an April 14, 1997 Report of Examination (ROE), FDIC examiners stated that the “Board and
management had not been effective in managing, supervising, or administering the growth of the bank.”
This difficulty was the result of the Board and management’s failure to properly manage and adapt to the
growth experienced in the early 1990s. During that time, the bank’s assets grew from less than
$100 million to over $1 billion. The significant growth was the result of increased transactions with its
parent company and affiliates. The Board and management lacked the knowledge of regulatory
requirements, effective management skills, and the ability to properly account for these transactions.

In a joint June 21, 1999 examination conducted by the FDIC and California Department of Financial
Institutions (DFI), the examiners determined that ICII had become more involved with the bank and had
expanded SPB’s Board to include five ICII directors. Significant losses in the CBC, Auto Lending
Division, and LPIG portfolios, as well as SPB’s wholly–owned subsidiary, PrinCap Mortgage
Warehouse, Inc., were due to a lack of adequate Board supervision. These losses are discussed
below.

    •   Auto Lending Division – Significant losses were attributable to a lack of SPB’s management
        oversight in the administration of the division. The thrift discontinued funding auto paper through
        this division in June 1999. The portfolio was reduced by sales, losses on sales and valuation
        write-downs.

    •   CBC – Adverse loan classifications dramatically increased. However, SPB’s management
        believed that the classifications were low and appropriate for an asset-based loan portfolio and
        typical for that industry. Credit managers were extending funds to very weak borrowers with
        the belief that the borrowers would recover financially. This practice had gone unsupervised by
        senior bank management.

    •   PrinCap Mortgage Warehouse, Inc. (PrinCap) – Significant losses were the result of
        fluctuations in the loan securitization market and ineffective servicing practices, which resulted in
        significant increases in classifications.

    •   LPIG – Significant losses occurred in the LPIG division as the result of concentration of
        syndicated credits in the airline, telecommunication, technology, and entertainment industries.

In the FDIC’s January 22, 2001 examination, examiners noted that, “… the Board of Directors had
failed to properly supervise the bank or to implement sound policies and objectives.” Some examples
of inadequate supervision by the Board and SPB management identified by examiners follow:




                                                     12
    •   Excessive management turnover – From 1997 through 2001 SPB had three presidents, two
        chief executive officers, and three chief financial officers.

    •   SPB experienced growth by sacrificing the quality of its activities – The bank operated with a
        decentralized entrepreneurial management structure in which business development dominated
        the corporate cultural at the expense of sound loan administration and prudent credit judgment.

    •   Numerous occurrences of alleged borrower frauds – Senior managers sacrificed prudent credit
        judgment because bonuses were paid based on corporate growth and profitability.

    •   Repeat transactions with affiliates – Board and management were consistently cited for apparent
        violations of Sections 23A and 23B of the Federal Reserve Act.

According to FDIC’s Manual of Examination Policies, the quality of management is probably the single
most important element in the successful operation of a bank. Management includes both the Board of
Directors, which is elected by the shareholders, and the executive officers, who are appointed to their
positions by the Board. Examiner guidance in DSC Examination Modules addresses various control
and performance standards in evaluating bank management. These standards include whether a bank's
board has established policies to maintain a system that effectively measures and monitors risk and to
implement corrective actions recommended by auditors and supervisory authorities. To determine
whether a bank's risks are adequately identified, measured, monitored, and controlled, the examiners
evaluate whether the Board has:

    •   identified and assessed major risks that influence the success or failure of the bank,
    •   established adequate policies and procedures given the size and complexity of the bank,
    •   implemented adequate controls to ensure adherence to bank policies and legal and regulatory
        requirements, and
    •   implemented appropriate systems to monitor the bank's activities.

The Board’s failure to provide adequate oversight of SPB resulted in concentrations of affiliate
transactions, concentrations of credit risk, high-risk lending, and a disregard for banking laws,
regulations, and examiner recommendations. FDIC and State of California ROEs from 1992 through
2002 identified numerous matters requiring Board attention pertaining to the lending function. These
areas included basic tenets of banking, such as affiliate transactions, risk management, asset quality, loan
policies, and loan administration.

        Senior Management

SPB senior management did not fulfill its responsibilities to operate the bank in a safe and sound
manner. Specifically, senior management allowed the agressive growth of concentrated high-risk assets.
Management did not ensure appropriate loan administration procedures or provide a sufficient
Allowance for Loan and Lease Losses (ALLL) which contributed to the collapse of SPB.



                                                    13
The bank’s poor condition had occurred, according to FDIC examiners, largely during the COB’s
stewardship. The Board had abdicated its management oversight role to the bank’s COB who also
served as the bank’s interim President from December 2000 to July 2001. The examiners stated that:
“The bank is characterized by a decentralized, entrepreneurial management structure in which individual
managers are given bonus incentives related to growth and profitability.” Examiners also stated: “The
entrepreneurial management philosophy has created a climate where business development has
dominated the bank’s corporate culture at the expense of sound loan administration and prudent credit
judgment.”

Bonus Incentives Drive Poor Loan Underwriting

Management focused on the quantity of loans as opposed to the quality of loans due to the lucrative
bonuses tied to performance incentives (see Table 2). This bonus structure encouraged the following
practices:

    •   initiating high-risk loans without commensurately higher reserves, and
    •   restructuring such loans to mask their non-current status or lack of payment.

Senior management allowed the aggressive growth of high-risk assets that eventually led to the bank’s
demise. During the joint June 26, 2000, examination, FDIC and DFI examiners reported that CBC
managers were continuing the risky practice of advancing additional funds to weak borrowers in the
hope they would recover financially. Such workout loans whose repayment was not predicated on
identifiable or historical sources of cash, or that may have had intangible collateral of questionable value,
tended to be highly speculative and exposed the bank to increased risk. The effect of keeping some of
these loans current, as opposed to charging them off, helped maintain higher profit margins for SPB’s
CBC division and increased bonuses based on performance.

Several executives had employment agreements that included bonus incentives based on overall pre-tax
profits, and in the case of CBC, the asset-based lending division of SPB, bonuses were based only on
the division’s profits even though the overall organization was losing money. During October 2000, a
former SPB president, who served from 1998 until 2000, met with FDIC management and stated that
while he was president of SPB, CBC had been allowed to operate independently from his oversight.
During that time, CBC’s portfolio represented from 32 to 42 percent of the bank’s total assets. He
indicated that CBC’s senior executive staff did not report to him, but reported directly to the
President/CEO of the bank’s parent holding company, ICII. He further stated that CBC’s executive
officers were under contract with ICII and received annual bonuses based solely on pre-tax profitability
at CBC as calculated from internally generated figures at CBC. These incentives appeared to have
resulted in the failure to report problem loans and a propensity to liberally restore credits. Internal risk
ratings of loans in the CBC portfolio failed to accurately reflect the high degree of risk inherent in the




                                                     14
loan portfolio, and management did not properly account for problem loans that should have been
placed on a nonaccrual status.15

The FDIC examiners identified two executive officers at CBC who received annual bonuses paid in an
amount equal to 1.5 percent of CBC’s annual pre-tax profit prior to the payment of bonuses provided
for in their employment contracts. The OIG examined SPB’s parent holding company records during
this review and obtained a list of bonuses paid to 58 CBC employees during 1998. Although the OIG
does not have the corresponding employment agreements, many of the bonuses paid to these executives
and non-executives were significant (see Table 2). CBC’s loan portfolio grew from $289 million in
1996 to $765 million in 2000. In addition, the individual who served as the ICII President/CEO and
SPB COB, and the individual who served as SPB’s president from 1994 -1998 and as vice-chairman
of SPB’s Board in 1999, received bonuses tied to a percentage of overall company pre-tax profits.
Table 2 shows examples of employee salaries and bonuses.

Table 2: Examples of SPB and ICII Employee Salaries and Bonuses from 1994 to 2001
   Name / Position         Fiscal Year              Salary                Bonus
                                           1994                                 $ 256,398                      $ 125,621
                                           1995                                   300,000                        252,603
                                           1996                                   300,000                        700,000
 ICII President and CEO                    1997                                   450,000                        700,000
   and SPB Chairman                        1998                                   502,114                              0
                                           1999                                   500,000                        500,000
                                           2000                                   500,000                        500,000
                                           2001                                   339,006                              0
                                           1994                                   166,500                         81,531
 SPB President
                                           1995                                   200,000                        166,027
 (resigned as SPB President
                                           1996                                   200,000                        400,000
 in December 1998 and as
                                           1997                                   250,000                        501,000
 Vice-Chairman of SPB in
 September 1999)                           1998                                   304,224                              0
                                           1999                                   334,615                              0
                                           1998                                   300,000                        471,404
 President, CBC Division
                                           1999                                   300,000                        391,000
                                           1998                                   300,000                        471,404
 CBC Chairman and CEO
                                           1999                                   300,000                        391,000
 CBC Employee #1                           1998                                    90,000                         45,000
 CBC Employee #2                           1998                                   110,000                         75,000
 CBC Employee #3                           1998                                    120,00                         70,000
 CBC Employee #4                           1998                                    85,000                         43,000
 CBC Employee #5                           1998                                   105,000                         55,000
 CBC Employee #6                           1998                                    95,000                         47,000
Source: SPB and ICII records.

During the June 26, 2000 examination, FDIC examiners suggested that management review the
calculations and compensation agreements for the two CBC executive officers and upon renewal or
extension of their contracts, consider adding other incentive criteria, such as asset quality and accuracy

15
  A nonaccrual loan is not earning the contractual rate of interest in the loan agreement as a result of financial
difficulties experienced by the borrower.


                                                           15
of loan grades. In the December 15, 2000 C&D Order issued by the FDIC, the bank was restricted
from paying bonuses to executive officers without the prior written consent of the FDIC Regional
Director. In addition, the bank was required to adopt a comprehensive employee compensation plan.

Lack of Response to Examination Recommendations

The FDIC and DFI cited SPB's Board and management for noncompliance with existing policies and
continuous violations of laws and regulations. Appendix IV shows accounting problems, internal control
weaknesses, and apparent violations of law cited by the regulators. Senior management's failure to
address these concerns led to an increase in the volume of adversely classified loans. Examiners
identified several problems:

   •   poor underwriting and overreliance on enterprise values,
   •   inadequate risk diversification,
   •   aggressive marketing of deposits and bulk mortgage loan purchases, mostly from affiliates,
   •   higher-yield and higher-risk commercial lending to major industries, including airlines,
       telecommunications, technology, and entertainment,
   •   participations in Shared National Credits (SNCs), several of which involved the same industries
       in which CBC had concentrated,
   •   subprime lending in commercial and multi-family real estate,
   •   asset-based lending to businesses showing signs of credit unworthiness,
   •   overadvances to businesses with anticipation of possible turnaround profits (CBC relied on
       borrower turnaround projections), and
   •   large provisions to allowances were needed to cover loan losses experienced by SPB and as a
       result of these large provisions, SPB experienced excessive operating losses.

Section 4.1 of FDIC’s Manual of Examination Policies provides the following:

       The primary responsibility of executive management is implementation of the Board's
       policies and objectives in the bank's day-to-day operations. A bank's performance
       with respect to asset quality and diversification, capital adequacy, earnings capacity and
       trends, and liquidity and funds management is, to a very significant extent, a result of
       decisions made by the bank's directors and officers. When significant problems exist in
       a bank's overall condition, consideration must be given to management's degree of
       responsibility. At a minimum, assessment of management by bank examiners should
       include the following considerations:

           •   Existing management's past record of performance in guiding the bank;
           •   Whether loan losses and other weaknesses are recognized in a timely manner;
           •   Past compliance with supervisory agreements, commitments, orders, etc.; and
           •   Capability of management to develop and implement acceptable plans for
               problem resolution.




                                                  16
In reports of examinations from 1995 until the bank’s failure in 2003, examiners identified violations of
Sections 23A and 23B of the Federal Reserve Act, Part 362 of the FDIC Rules and Regulations, and
various other California Financial Code regulations as shown in Appendix IV. The examinations also
contained references to the Board and management regarding the increase in classified
assets; deficiencies in accounting and control systems and risk management systems; and a lack of
centralized control in the volume of acquisitions made by the parent or the bank. Each affiliate and/or
subsidiary operated autonomously, without direct guidance or controls in place to properly govern the
unit. Inadequate due diligence or disregard of due diligence was evident with almost every business
acquisition. The May 11, 1998 joint examination by FDIC and DFI identified severe accounting and
internal control weaknesses that subsequently led management to overstate its year-end cash position by
$11 million. Significant unreconciled differences in general ledger accounts totaled approximately $2.5
billion. With the subsequent change in management (new SPB president as of December 1998), and
with the help of a contractor, the unreconciled differences were corrected. However, the ongoing
accounting and control deficiencies created concerns regarding the institution’s overall condition, its
management, capital levels, and asset quality. SPB’s earnings during this time were strong but were
adversely affected by the accounting and control deficiencies.

The FDIC examiners reported in 2002 that the bank had been operating with:

    •   inadequate capital,
    •   large operating losses,
    •   high management turnover over during the last four examinations,
    •   net loan losses in excess of $330 million for the last 3 years, and
    •   an excessive amount of adversely classified loans.

The deterioration in asset quality required large provisions to the ALLL and depleted capital
excessively, whereby SPB had reached the point of imminent failure without a substantial infusion of
capital. Loan classifications were further increased by 45 percent as the result of examination findings.
The volume of nonaccrual loans were determined to be at high levels, which represented 200 percent of
the ALLL. Although SPB made a $55.3 million provision for losses in the first 9 months of 2002, the
ALLL was still underfunded by $15.9 million as of December 31, 2002.

Inadequate Board and management supervision is evidenced by SPB’s poor loan administration
practices, lax collection policies and procedures, and an underfunded ALLL. The bank’s risk profile
increased, yet the Board failed to take significant actions to address this high risk-profile.

         Internal Review

SPB management and the Board did not correct all problems identified in internal reviews and,
therefore, did not fulfill their responsibility to ensure that the system of internal controls at SPB operated
effectively. SPB’s internal review contractor reported numerous accounting problems, internal control
weaknesses, and apparent violations of law and regulations to SPB's management and the Board.
However, they failed to take all necessary corrective actions to address these problems. As a result,
material deficiencies identified by regulators in subsequent examinations and internal control problems
were allowed to continue at SPB, increasing the risk of loss of assets. A list of accounting problems,
                                                      17
internal control weaknesses, and apparent violations cited by the regulators in their reports of
examination is in Appendix IV.

According to Financial Institution Letter (FIL) 133-1997, Interagency Policy Statement on the
Internal Audit Function and Its Outsourcing, issued December 22, 1997,16 by the four federal
banking agencies,17 effective internal control18 is a foundation for the safe and sound operation of a
banking institution or savings association. The Board and senior managers of an institution are
responsible for ensuring that the system of internal control operates effectively. Their responsibility
cannot be delegated to others within the institution or to outside parties. An important element of an
effective internal control system is an internal audit function. When properly structured and conducted,
internal audit provides directors and senior management with vital information about weaknesses in the
system of internal control so that management can take prompt, remedial action. The FIL also states
that to properly discharge their responsibility for internal control, directors and senior management
should foster forthright communications and critical examination of issues so that they will have
knowledge of the internal auditor's findings and operating management's solutions to identified internal
control weaknesses. Internal auditors should report internal control deficiencies to the appropriate level
of management as soon as they are identified. Significant matters should be promptly reported directly
to the Board (or its audit committee) and senior management. In periodic meetings with management
and the manager of internal audit, the audit committee should assess whether internal control
weaknesses or other exceptions are being resolved expeditiously by management.

Before November 1996, bank personnel performed internal reviews at SPB. However, the regulators
criticized SPB’s internal review function in several ROEs. For example, in 1993 no internal reviews
were conducted. In 1994, an SPB manager was designated internal auditor while retaining his
managerial responsibilities, resulting in a lack of segregation of duties. Finally, in 1995, the regulators
pointed out that SPB's internal review function reported deficiencies, but the deficiencies remained
uncorrected.




16
  FIL 133-1997 was replaced by FIL 133-2003, Interagency Policy Statement on the Internal Audit Function and Its
Outsourcing, on March 17, 2003. The new policy statement updated the agencies’ internal audit guidance as a result
of the Sarbanes-Oxley Act of 2002, reflected the agencies’ experience with the 1997 policy, and incorporated recent
developments in internal auditing. The sections cited above were not changed.

17
  There are four federal regulators of banks and savings and loan institutions: the Board of Governors of the Federal
Reserve System (Federal Reserve Board or FRB), the FDIC, the Office of the Comptroller of the Currency (OCC), and
the Office of Thrift Supervision (OTS). For more information, see Primary Federal Regulator in the Glossary.

18
  Internal control is a process, brought about by an institution's Board, management, and other personnel, designed
to provide reasonable assurance that the institution will achieve the following internal control objectives: efficient
and effective operations, including safeguarding of assets; reliable financial reporting; and, compliance with
applicable laws and regulations. Internal control consists of five components that are a part of the management
process: control environment, risk assessment, control activities, information and communication, and monitoring
activities. The effective functioning of these components is essential to achieving the internal control objectives.


                                                          18
In November 1996, ICII's Board and audit committee outsourced the internal review function for ICII
and its affiliates, including SPB, to KPMG Internal Audit Services, a division of KPMG LLP. This
arrangement continued until 2002. After KPMG took over internal review responsibilities, regulators
noted that SPB's internal control practices and procedures improved. Regulators also noted that the
frequency and extent of internal reviews were appropriate for the nature and complexity of the
institution. However, subsequent examinations continued to identify material deficiencies.

Our review of internal review reports, audit committee minutes, and other correspondence determined
that KPMG’s internal review services for SPB were adequate. The frequency and extent of review and
testing by KPMG were consistent with the nature, complexity, and risk found in SPB's on- and off-
balance sheet activities. In addition, KPMG reported numerous accounting problems, internal control
weaknesses, and apparent violations of law and regulations to SPB's Board. However, SPB
management and the Board failed to take all necessary corrective actions, resulting in repeat internal
review findings and the continuation of internal control problems at SPB.

           External Audit

In reports on SPB’s financial statements, KPMG LLP rendered unqualified opinions and unqualified
attestations on internal controls despite SPB’s numerous and repeated accounting problems, internal
control weaknesses, and apparent violations of laws and regulations (see Appendix IV). At a minimum,
KPMG should have added explanatory language to its reports. As a publicly traded company, ICII's
financial statements and KPMG's opinions on the statements were publicly available. However, by not
publicly disclosing SPB’s problems, KPMG defeated the purpose of accounting rules and public
disclosure, i.e., to fairly, accurately, and promptly inform the public of the actual financial performance
of SPB. At the same time, KPMG did not issue management letters to the bank and holding company's
Boards after the 2000 and 200119 audits to inform the Boards of the bank’s internal control problems in
writing. These management letters would have, in turn, been forwarded by the bank to the regulators
and could have been used to aid in supervising the bank. Furthermore, in addition to being SPB's
independent auditor for the purpose of expressing an opinion on the financial statements, KPMG also
provided non-audit services such as internal review, due diligence, and consulting to SPB and ICII.
Therefore, KPMG had an apparent conflict of interest that would now be prohibited by the Sarbanes-
Oxley Act of 2002, Public Law 107-204.

KPMG Did Not Assure Adequate Disclosure of SPB’s Condition

ICII’s Board engaged the accounting firm of KPMG LLP to audit the financial statements of both ICII
and its subsidiaries, including SPB. Altogether, KPMG was SPB’s external auditor from 1986 until it
was closed. During that period, KPMG issued unqualified opinions on SPB’s financial statements for




19
     SPB was closed before its 2002 audit was completed.


                                                           19
each of the years we reviewed – 1990 through 2001 – and did not add any explanatory language to its
opinions until 2001, when KPMG rendered a going concern opinion. 20

The AICPA’s Statement on Auditing Standards (SAS) 58, Reports on Audited Financial
Statements, as amended, provides guidance on financial statement audit reports. Such reports may
contain an unqualified opinion, an unqualified opinion with explanatory language, a qualified opinion, an
adverse opinion, or a disclaimer of opinion. SAS 58, paragraph 11, states that certain circumstances,
while not affecting the auditor’s unqualified opinion, may require the auditor to add an explanatory
paragraph or other explanatory language to the standard report. SAS 58, paragraph 11, provides
several examples in which explanatory language would be required, including: “The financial statements
are affected by uncertainties concerning future events, the outcome of which is not susceptible of
reasonable estimation at the date of the auditor’s report,” and: “There has been a material change
between periods in accounting principles or in the method of their application.” In addition, the auditor
may add an explanatory paragraph to emphasize a matter regarding the financial statements as
prescribed in SAS 58, paragraph 37: “In some circumstances, the auditor may wish to emphasize a
matter regarding the financial statements, but nevertheless intends to express an unqualified opinion. For
example, he may wish to emphasize that the entity is a component of a larger business enterprise or that
it has had significant transactions with related parties, or he may wish to emphasize an unusually
important subsequent event or an accounting matter affecting the comparability of the financial
statements with those of the preceding period.”

Our review of KPMG’s work papers and communications with SPB’s Board disclosed that KPMG
knew about SPB’s apparent violations of laws and regulations and internal control and accounting
problems through regulatory reports as well as its own audits and internal reviews. Appendix IV
contains a list of the problems identified by examiners. Nevertheless, KPMG issued unqualified
opinions without adding explanatory language about these problems. KPMG did not issue an opinion
with explanatory language regarding SPB’s ability to continue as a going concern until after the
regulators’ November 2001 report – when regulators rated SPB a composite 5 and issued a Prompt
Corrective Action Directive because the bank was undercapitalized.

To comply with paragraph 11 of SAS 58, KPMG should have added explanatory language to several
of its reports. KPMG should have disclosed that SPB's financial statements could have been affected
by the uncertainty of the future resolution of large reconciling items, that there had been a material
change between periods in application of accounting principles resulting in the reconciliation problems,
and that there could be other recurring accounting problems. For example, the 1998 ROE states that,
as a result of a systems conversion that began in August 1997 and other accounting problems, SPB had
nearly $2.5 billion in unreconciled items in its loan control account and $900 million in unreconciled
items in its cash accounts. From 1993 through 1998, KPMG reported account reconciliations as a
problem in its management letters to SPB. Total assets at the bank were about $1.5 billion at the end of
1997 and $1.9 billion at the end of 1998. Therefore, therefore the financial statements could have been
materially misstated, and KPMG should have acknowledged that the bank had an amount about twice

20
  There was substantial doubt that the bank had the resources needed to continue t o operate. For more information,
see Going Concern Determination in the Glossary.


                                                        20
its total assets in suspense accounts waiting to be properly classified. If even a small percentage of the
unreconciled items were written off, the amount could have been material. Furthermore, the 1998 ROE
also contained numerous references to accounting problems at SPB and stated several times that SPB
management's failure to properly control accounts made the integrity and validity of financial statements
questionable and caused the filing of incorrect Call Reports.21

Further, in accordance with paragraph 37 of SAS 58, KPMG should have added explanatory language
to some of its reports regarding the comparability of financial statements. Because of the unreconciled
cash and loan accounts, large unreconciled balances would have existed at the end of 1997 and 1998,
making it impossible to accurately determine the balance of the cash and loan accounts at SPB. Thus,
the financial statements may not have reflected the true financial condition of the bank and could not
have been comparable with those of the preceding period.

KPMG Did Not Provide a Written Report of SPB’s Internal Control Weaknesses to SPB’s Audit
Committee and Regulators

KPMG did not issue management letters after its 2000 and 2001 audits. Although not required by
auditing standards, it would have been prudent for KPMG to have issued management letters for those
audits in view of internal control problems at the bank.

SAS 60, Communication of Internal Control Related Matters Noted in an Audit, as amended,
provides guidance on identifying and reporting conditions that relate to an institution's internal control
over financial reporting observed during an audit of financial statements in accordance with generally
accepted auditing standards. Letters issued in accordance with SAS 60 are generally referred to as
management letters. SAS 60 requires that reportable conditions observed during an audit be
communicated to the audit committee, preferably in writing, or to individuals with a level of authority and
responsibility equivalent to that of an audit committee in organizations that do not have one. Reportable
conditions are matters coming to an auditor's attention that, in his or her judgment, should be
communicated to the audit committee because they represent significant deficiencies in the design or
operation of internal control that could adversely affect the institution's ability to record, process,
summarize, and report financial data consistent with the assertions of management in the financial
statements. Such deficiencies may involve the internal control components of (a) the control
environment, (b) risk assessment, (c) control activities, (d) information and communication, and (e)
monitoring.

Also, banks are required by FDIC Rules and Regulations codified to 12 C.F.R. § 363.4(c), of the
FDIC Rules and Regulations, to file a copy of any management letter, qualification, or other report
issued by its independent public accountant with the FDIC, the appropriate federal banking agency, and

21
  Federal Financial Institutions Examination Council (FFIEC) Consolidated Reports of Condition and Income from
banks and Office of Thrift Supervision (OTS) Thrift Financial Reports from savings associations – collectively
referred to as Call Reports – are sworn statements of financial condition that are submitted to FDIC quarterly in
accordance with federal regulatory requirements in Title 12 of the Code of Federal Regulations. Call reports consist
of a balance sheet, income statement, and other supplemental information and provide detailed analyses of balances
and related activity.


                                                         21
any appropriate state bank supervisor within 15 days after receipt. In addition, Section 36 of the FDI
Act gives FDIC, in consultation with the other federal banking agencies, authority to set accounting and
auditing standards for institutions subject to Section 36. Corresponding guidance in SAS 60 states:
“When there are requirements established by governmental authorities to furnish such reports, specific
reference to such regulatory authorities may be made.”

Under SAS 60, management letters are not required if the Board has previously been made aware of
the problem and acknowledged its consideration of the problem. Indeed, the regulators’ reports of
examination covering the same periods as KPMG’s 2000 and 2001 audits identified significant internal
control weaknesses and other problems at the bank. These weaknesses included an inadequate ALLL
and apparent violations of laws and regulations, including the filing of inaccurate Call Reports, violation
of lending limits, impermissible investments, and unlawful related-party transactions. Furthermore, our
analysis of the adequacy of the ALLL (see Finding B, later in this report) indicates that the allowance
was significantly understated during this time and that appropriate adjustments may have been sufficient
to downgrade SPB’s capital category designation for purposes of PCA. Also, properly stating the
ALLL would have reduced SPB’s operating results, which were already at a net loss for 2000 and
2001. Since KPMG did not issue management letters for its 2000 and 2001 audits, the audit firm did
not formally disclose whether there were reportable conditions found during the audit. To ensure full
disclosure to regulatory authorities, independent public accountants should disclose reportable
conditions in a management letter or other correspondence. This would ensure that regulators are made
aware of any significant internal control issues noted by the independent auditors.

        Recommendation

We recommend that the Director, DSC:

(1)     Evaluate and pursue opportunities to emphasize and obtain written reports from independent
        auditors performing bank audits to bank boards of directors disclosing all reportable conditions
        found during audits.

Some Services Provided by KPMG Would Now Be Prohibited

KPMG had an apparent conflict of interest because its auditors performed annual financial statement
audits at the same time other KPMG staff provided internal review, tax, and consulting services to SPB
and ICII. Although not a violation of law at the time, this practice is now prohibited under the
Sarbanes-Oxley Act and U.S. Securities and Exchange Commission (SEC) rules.

On July 30, 2002, the Sarbanes-Oxley Act of 2002 was enacted. It contains new requirements for
public companies and established a new regulatory body for public accounting firms. In addition to
including earlier SEC rules on auditor independence, it prescribes new requirements for registered
public accounting firms and prohibits them from providing any professional services other than those
provided in connection with the audit or review of the financial statements of their public clients.
Subsequently, the SEC issued rules implementing the congressional mandate and strengthening
requirements regarding auditor independence. Overall, the rules are intended to provide greater
assurance to investors that independent auditors are performing their public responsibilities.
                                                    22
Requirements for external auditors under the Sarbanes-Oxley Act, most of which became effective
May 6, 2003, are shown in Table 3. The table has also been annotated to show which issues affected
by the Act would have been relevant to KPMG’s work at SPB.

Table 3: Sarbanes-Oxley Act Requirements for External Auditors
                                                                                                           KPMG
                                                                                                           Service
      Section                                                                                                s at
     and Topic                                Requirement of the Section                                    SPB
 102(a) – Registered   No unregistered accounting firm may prepare or issue an audit report for a public
 Accounting Firms      company.
                       The following categories of non-audit services cannot be provided by external
                       auditors:
                        (1) bookkeeping,                                                                     ü
                        (2) financial information system design and implementation,
                        (3) appraisal or valuation services, fairness opinions or contributions in kind
                                                                                                             ü
                             reports,
                        (4) actuarial services,
 201 – Restrictions
                        (5) internal review outsourcing services,                                            ü
 on Non-Audit
                        (6) management functions,
 Services
                        (7) human resource services,
                        (8) broker-dealer, investment adviser, or investment banking services,
                        (9) legal services,                                                                  ü
                        (10) expert services unrelated to the audit, and                                     ü
                        (11) any other service that the Public Company Accounting Oversight Board
                             deems impermissible.
                       Tax services are allowed if pre-approved by the client’s audit committee.             ü
                       Lead and concurring partners must rotate after 5 years, with a time out period of
 203 – Rotation of
                       5 years. Other engagement team partners must rotate after 7 years, with a time
 Audit Partners
                       out period of 2 years.
                       Before issuing a report, auditors must report to Audit Committees:
 204 – Specific        (a) critical accounting policies and practices,
 Reports and           (b) alternative GAAP treatments discussed with management, and                        ü
 Responsibilities      (c) all other material written communications between the auditor and
                       management.
                       An accounting firm is prohibited from providing any audit service if the
 206 – Prohibition     Company's Chief Executive Officer, Chief Financial Officer, controller, chief
 of Conflicts of       accounting officer or any person in an equivalent position was employed by that       ü
 Interest              firm and participated in the audit during the one-year period immediately
                       preceding the initiation of the audit.
 303 – Prohibition
                      It is unlawful to fraudulently influence, coerce, manipulate or mislead the
 of Improper
                      independent auditor for the purpose of rendering the financial statements
 Influence on
                      materially misleading.
 Audits
 404(b) – External
                      The registered accounting firm must attest to, and report on, management's
 Auditor Attestation
                      assertions regarding their assessment of the effectiveness of the company's            ü
 Related to Internal
                      internal controls.
 Control
Source: Sarbanes-Oxley Act of 2002.




                                                        23
KPMG was SPB’s external auditor from 1986 until SPB was closed in 2003. SPB’s parent company,
ICII, also contracted with KPMG for annual financial statement audits for itself and its subsidiaries,
including SPB. As an example of a practice that is now prohibited, KPMG provided internal review
services to ICII and SPB from 1996 through 2002 and performed other non-audit work such as tax,
due diligence, and consulting services. In fact, KPMG was paid more for non-audit services than for its
annual audits for the years 1999 through 2001.22 Fees paid to KMPG for audit and other services
provided in 1999 through 2001 are summarized in Table 4 and Figure 3.

Table 4: Fees Paid to KPMG for Services Provided from 1999 to 2001
                                                                                                   Total 2001-
     Service Provided by KPMG                   2001               2000                 1999       1999
 Annual Financial Statement Audit          $    437,700        $   459,450      $       518,950       $ 1,416,100
 Tax Matters                               $     46,905        $   129,763      $       242,082      $     418,750
 Internal Review                                433,151            333,947              654,043          1,421,141
 Non-Financial Systems Consulting               213,932            104,040                    --           317,972
     Total Non-Audit Fees                  $    693,988        $   567,750      $       896,125       $ 2,157,863

 Total Audit and Non-Audit Fees           $ 1,131,688          $ 1,027,200     $ 1,415,075           $ 3,573,963
Source: KPMG letters to SPB required under SAS 61, Communication with Audit Committees.

Figure 3: Breakdown of Fees Paid to KPMG from 1999 to 2001


                                                                          Tax Matters
                                                                            11.7%


                                Annual         Non-Audit                     Internal
                                 Audit         Services                      Review
                                 39.6%           60.4%                        39.8%



                                                                        Consulting 8.9%




Source: KPMG letters to SPB required under SAS 61, Communication with Audit Committees.




22
  Total audit and non-audit costs were not available for 2002 because SPB was closed before its 2002 audit was
completed. Further, before 1999, KPMG did not provide a breakdown of audit and non-audit fees in its SAS 61 letters
to ICII’s and SPB’s boards of directors.


                                                          24
Failure To Diversify the Risk in the Bank’s Loan Portfolio

The primary cause of SPB becoming critically undercapitalized was bank management’s failure to
diversify the risk in the bank’s risky loan portfolio. Specifically, management pursued a business
strategy that focused on high loan growth through potentially high-risk, high-yield financing. In addition,
the bank had concentrations in higher-yield and high-risk commercial loans involving the
telecommunications, technology, entertainment, and airline industries. In the early 1990s, SPB grew
rapidly from $56.5 million as of December 31, 1990, to $1.4 billion as of December 31, 1993. In
1995, SPB began to reposition, transform, and diversify its core business activities. That is, SPB
switched from its mortgage banking operations of originating and selling conforming residential mortgage
loans to commercial lending, funding mortgage banking operations, and asset-based lending through the
bank's acquisition of CBC. CBC specialized in higher-yield and higher-risk commercial loans in several
major industries including airlines, telecommunications, technology, and entertainment. In addition, the
bank held a portfolio of participations in SNCs, several of which included the same industries listed
above in which CBC had concentrated its investments. For the most part, SPB’s problems began to
appear in the late 1990s when the bank’s loans in these sectors grew significantly, from $600 million in
1999 to $850 million in 2000. Asset quality had dramatically deteriorated due to weak management
processes, poor loan administration practices, and high-risk workout strategies for problem credits that
resulted in increased classifications. By the end of 2001, the economy was deteriorating and the
compounded effects of September 11, 2001, were being felt. In particular, these events caused the
airline and telecommunications credits to deteriorate at a rapid rate.

        High-Risk Asset Portfolio

From 1997 through 2002, SPB suffered losses of over $325 million in the bank's commercial and
industrial loan portfolios. These incurred losses caused the bank to fail and a material loss to the BIF.

SPB specialized in higher-yield and higher-risk commercial loans to the major industries previously
noted, had concentrations of credit in commercial and multi-family real estate and extended mortgage
warehouse lines to mortgage loan originators. The bank's underwriting standards were generally liberal
as the bank targeted borrowers generally categorized as having weakened credit histories and charged
interest rates commensurate with the increased risk. In the absence of an industry-wide definition of
subprime commercial loans and for the purposes of this report, we use the term subprime to describe
SPB’s commercial loan portfolios. During the April 1997 FDIC examination, examiners first described
SPB’s loan portfolio as being centered in subprime lending, making it more sensitive to economic
downturns than competing institutions with more strict underwriting requirements. From 1997 through
2002, ROEs continually noted that SPB’s borrowing base was generally subprime and warned that this
type of borrowing base was riskier than the standard borrower base because subprime borrowers were
normally more susceptible to economic downturns.

From 1994 and 1999 (see Figure 2) the bank changed its business strategy from engaging in mortgage
lending to high-risk commercial lending. By the end of 2002, an excessive amount of problem assets in
the commercial and industrial loan portfolio resulted in credit losses of $325 million that dramatically
depleted the bank’s equity capital.


                                                    25
The major losses were centered in the bank’s largest loan division, CBC, which specialized in asset-
based lending. Table 5 below provides a description of CBC’s portfolio size and losses compared to
the bank’s total assets and losses.

Table 5: Comparison of CBC’s Asset Size and Losses to Those of SPB from 1996 to 2002
                Rating:               Total Assets           Adversely Classified      Amount Classified As
               Composite /          ($ in Thousands)        Assets ($ in Thousands)    Loss ($ in Thousands )
Exam Date     Asset Quality        SPB         % CBC          SPB          % CBC        SPB          % CBC
Jan. 1996         3/3            $1,446,189          9.33    $ 33,948           7.66     $ 1,948              0
Apr 1997          2/2             1,384,008        22.40        57,803          8.65        3,963        14.48
May 1998          3/3             1,669,281        31.63        54,916         18.21        7,070            0
June 1999         3/3             1,837,267        35.86       116,728         53.11       19,076        68.95
June 2000         4/4             1,902,148        47.31       184,054         49.99       50,452        53.52
Jan. 2001         4/5             1,865,185        32.17       226,535         54.21        9,870        86.87
Feb. 2002         5/5             1,401,350        38.11       255,506         72.56       16,973        73.65
Nov. 2002         5/5             1,095,022        46.67       213,426         73.47       28,816        37.54
Source: FDIC reports of examination.


At December 31, 1993, SPB had assets of $1.4 billion and was offering FDIC-insured investment
certificates, which are functionally equivalent to bank certificates of deposit. SPB also engaged in the
origination of residential and income-producing real estate secured mortgage loans for its own portfolio.
As a subsidiary of ICII, SPB’s primary assets consisted of mortgage loans held for sale that were
originated or acquired by the ICII Mortgage Banking Business. At December 1994, the bank’s loan
portfolio was divided into two major groups:

    •   mortgage loans originated and serviced by the bank, approximating $200 million; and
    •   mortgage loans originated and serviced by the parent company ICII, approximating
        $1,100 million. These loans were usually held on the bank’s books for less than 90 days, and
        were considered held for sale.

Expansion into High-Risk Assets

From 1993 through 1999, SPB management engaged in a high-risk lending strategy and expanded into
commercial lending, the funding of mortgage banking operations, and asset-based lending to companies
and borrowers with weakened credit histories. During that period, the bank created or acquired 10
new commercial-based lending divisions or loan portfolios and 1 consumer lending division (see
Appendix V). According to FDIC examiners, many of these new business lines were pursued without
an adequate loan review program and internal loan grading system. In addition, inferior underwriting
and credit administration practices during a high-growth period in 1998 and 1999 exacerbated the
credit problems. From 1992 through 2002, the bank suffered losses of over $373 million, of which
about $325 million were in the bank’s commercial and industrial loan portfolio in 1997 through 2002.




                                                       26
As early as 1993, FDIC examiners voiced concern with growing asset problems. At the FDIC
February 2, 1993 examination, the examiners described the overall condition of the bank as
satisfactory. The bank's primary business activity was the funding of mortgage loans to be held for sale.
The bank’s asset base had grown dramatically over the previous year, from $439 million to $777 million
in average assets, during which time it became involved with the funding of mortgage loans, to be held
for sale, for its parent, ICII. Essentially, the SPB was being used as a conduit to generate deposits to
fund ICII's mortgage banking operations. ICII, which wholly-owned the bank at that time, originated
the majority of the loans that were funded by the bank. As the asset base increased, ICII injected
capital to protect against potential losses. Although total assets increased significantly, the risk involved
was partially mitigated due to the short time the loans are actually held by the bank.

By the January 10, 1994 examination, examiner concerns arose over growing asset problems relative to
the bank's permanent assets, and the level of adverse classifications represented an increase of 80
percent over the previous examination level. Adversely classified items totaled $14.7 million, of which
$12.9 million, 87 percent, represented adversely classified loans. In addition, examiners noted that if
ICII’s mortgage banking operations experienced significant deterioration in pre-sold loan quality and a
corresponding loan origination volume decline, SPB would have a relatively riskier portfolio.

During the period of 1998–1999, adversely classified loans increased 113 percent, from $54.9 million
to $116.7 million. See Table 5 for a breakdown of asset classifications and losses by examination date.

Overall, the bank’s assets were non-traditional and comprised of higher-yield and higher-risk credits.
Such an asset composition was considered more susceptible to general economic conditions and cycles
in industry sectors. From May 1998 through February 2001, ROEs warned that SPB would be
vulnerable to national economic fluctuations due to the subprime nature of the loan portfolios. The
vulnerability was primarily due to two characteristics of the thrift’s asset base: first, the borrowing base
was generally subprime, which made the borrowers sensitive to economic fluctuations; second, some
portfolios were sensitive to particular economic trends. For the 12 months ended December 31, 2000,
the bank suffered a large loss of about $117 million, resulting in a negative 6 percent return on average
assets. The principal cause of the loss was large loan loss provisions. According to examiners,
however, the loan losses could be attributed to weak underwriting practices and lack of management
oversight rather than economic conditions.

Coast Business Credit Division

The January 16, 1996, FDIC examination of SPB disclosed that in September 1995, the bank had
acquired CoastFed Business Credit Corporation (CBBC) from Coast Federal Bank, FSB (Coast). At
the time of the transaction, CBBC was a wholly-owned asset-based lending subsidiary of Coast.
Immediately following the acquisition, SPB liquidated CBBC as a separate corporate entity, merged it
into SPB, and renamed the division Coast Business Credit (CBC). The FDIC San Francisco Regional
Office never received a merger or consolidation application regarding the acquisition and requested that
SPB explain the transaction and review the application requirements of Part 303.3 of the FDIC Rules
and Regulations, 12 C.F.R. §303.3, and section 18(c) of the FDI Act.



                                                     27
In a letter dated July 31, 1996, outside counsel for SPB responded that no regulatory application was
necessary. Section 18(c) (1) of the FDI Act, codified to 12 U.S.C. §1828, provides that:

       Except with the prior written approval of the responsible agency, which shall in every case
       referred to in this paragraph be the Corporation, no insured depository institution shall (A)
       merge or consolidate with any noninsured bank or institution.

Attorneys for the bank argued that the term noninsured institution was narrowly defined and included
only depository institutions in which the deposits were not insured by the FDIC. According to FDIC
legal counsel, SPB’s argument was contrary to the long-standing interpretation espoused by FDIC. The
term noninsured institution included any noninsured entity, which would include any corporation or
partnership. As a result, the definition would clearly include an entity such as CBCC, and SPB would
have had to file a merger application with the FDIC before dissolving and merging CBBC into a division
of the bank. On December 10, 1996, the Executive Vice President of the bank responded to the
FDIC’s application request, stating that SPB had agreed to cooperate with the FDIC and provide
available information; however, the bank’s response should not be construed as an admission that a
merger application was required. The San Francisco Regional Director notified SPB in a March 10,
1997, letter that its regular merger application involving CBCC had been approved after the fact.

CBC focused on asset-based lending, through underwriting criteria based on cash flow and collateral
rather than on earnings and net worth. Borrowers tended to be at the marginal end of the credit
spectrum and generally did not qualify for credit on more conventional terms. Although the CBC was a
division of the bank, CBC operated as an independent company. CBC historically concentrated its
lending efforts in the technology industry. CBC loans were categorized based on the type of collateral
securing the loan:

   •   Accounts Receivable Loans – Accounts receivable loans were revolving lines of credit that
       were secured principally by accounts receivable. Each borrower’s customers normally made
       their payments directly to CBC, usually on a daily basis. CBC deposited the payments daily
       and applied the funds to the borrowers’ loan balances.

   •   Inventory Loans. – Inventory loans were typically revolving lines of credit secured by eligible
       inventory that was restricted to raw materials and finished goods. Inventory loans were
       generally made in conjunction with accounts receivable loans to qualifying borrowers.

   •   Participation Loans – Participation loans consisted of term loans or revolving lines of credit in
       which CBC and other lenders (banks or other asset-based lenders) jointly lent to borrowers
       when the loan amount exceeded the lending limits of an individual lender.




                                                   28
     •   Other Loans – CBC also made term loans secured by real property, equipment, or other fixed
         assets. These were typically term loans with 3- to 5-year amortization periods, but were due
         and payable upon termination of the master loan and security agreement.

CBC Portfolio Deterioration

One of the causes of the weaknesses in the CBC loan portfolio was the poor restructuring of problem
credits. The management of problem credits at CBC was ineffective and had significantly contributed to
the volume and severity of adverse classifications. Two practices that exacerbated asset quality
problems at CBC were the transfer of ownership 23 and funding of over-advances.24 CBC disregarded
the tenets of proper asset-based lending and caused an increase in loss exposure and substandard
classifications and the deferral of loss recognition. Furthermore, SPB’s internal risk ratings did not
accurately reflect the high degree of risk inherent in the loan portfolio of CBC. FDIC examiners found
that the internal loan review team and the bank’s Problem Asset Committee had not accurately rated the
CBC portfolio, despite an accurate portrayal of the 15 other SPB portfolios. SPB’s credit review
process was not allowed to operate with a sufficient degree of independence in evaluating the CBC
portfolio, resulting in inaccurate risk ratings, the deferral of loss recognition, and an under-funded loan
loss reserve.

During the January 1996 examination, examiners found that the credit administration of the purchased
portfolio was inadequate. CBC had already experienced loan losses of about $2.1 million since it was
acquired in 1995. The examiners noted several weaknesses, which included the lack of lockbox
arrangements and the lack of quarterly bank inspections of accounts receivables. Most of the loans
were serviced by the institutions that sold them to the bank, and the bank appeared to be placing an
undue level of responsibility on the servicers to monitor CBC’s loan portfolio. In addition, the servicers
also monitored delinquencies in the serviced portfolios with little actual review performed by SPB
management.

CBC continued to grow dramatically through 1998 and established aircraft-related sector
concentrations. The 1998 ROE stated that because SPB’s loan portfolio was centered in subprime
lending, the bank was more sensitive to economic downturns than competing institutions with stricter
underwriting requirements. A large percentage of the loans were secured with real estate and, because
many of these loans were backed with junior liens, collateral values could be reduced or eliminated
when property values declined. Examiners advised that a recessionary environment could also impact


23
  Often when a commercial borrower's financial condition declines to a level at or near insolvency, bank management
pursues "peaceful possession" of the borrower’s company. A peaceful possession entails a release of the
guarantors from their obligations as long as they agree to release the company to the bank without legal interference.
Management then transfers ownership to a third-party workout specialist in belief that he or she will be able to either
turn the company's financial condition around and/or find investors to put money into the company.

24
  In instances involving workout credits, bank management may advance funds to struggling companies over the
amount supported by collateral (over-advance). This is done with the expectation that the third-party workout
specialists/investors will be able to eventually turn the company around.


                                                          29
the bank's auto lending portfolio because subprime borrowers are normally more susceptible to
economic downturns and could be among the first employees to lose their jobs.

The June 1999 FDIC examination found that classifications in the CBC portfolio rose from $10 million,
with no loss classifications at the last examination, to $62 million, of which $13 million was classified as
loss. According to the ROE, although credit administration within CBC was capable, CBC
management had a propensity to extend over-advances to very weak borrowers on the belief that the
borrowers would turn their businesses around. This practice, which previously went unchecked by
senior bank management, caused an expansion in the bank’s loss exposure. As a result, examiners
suggested closer supervision over CBC by senior management and the Board. At the June 26, 2000
FDIC examination, examiners found that the bank had taken steps to institute requirements for approval
of over-advances at higher management levels outside of CBC. Nevertheless, the oversight provided
by the Senior Loan Committee proved ineffective, and the same type of risky workout strategies
continued unabated.

By January 2001 credit losses had overwhelmed operating income and dramatically depleted the bank's
equity capital. Risk was exacerbated by the higher-risk nature of the bank's liberal underwriting
guidelines. About 79 percent of the bank's outstanding loans were concentrated in CBC, the Income
Property Lending Division (IPLD),25 and the Loan Participation Investment Group (LPIG)26 portfolios:
CBC represented 48 percent, the IPLD portfolio represented 23 percent, and the LPIG represented 8
percent. Although SPB received a capital infusion from ICII, the viability of the bank remained
uncertain. Net loan losses realized in 2000 were centered on CBC and LPIG, with net loan charge-offs
of over $73 million and $32 million, respectively. The amount of charge-offs represented an aggressive
attempt to rid the CBC and LPIG portfolios of problem assets. Over-advances on loans at CBC
significantly contributed to the $122 million in operating losses suffered in the previous 2 years. The
practice of over-advancing funds to weak borrowers had ceased. However, the previous liberal lending
practices had resulted in a weakened portfolio that would likely continue to be plagued with high levels
of problem loans and losses.

By the February 2002 FDIC examination, approximately 76 percent of the bank’s credit losses
($72 million) in 2001 and 74 percent of the adversely classified loans ($185 million) were originated at


25
  The IPLD made property rehabilitation loans to higher-risk customers based on the "as completed" collateral value
of multi-family income-producing properties. As of October 2002, the IPLD had $242 million in total assets.
Approximately 70 percent of the portfolio was secured by apartment buildings and 30 percent was secured by
commercial property. Prior to 2001, all of the loans in the portfolio were classified as held for sale. During 2001,
management changed its strategy and decided to retain the loans that were risk weighted at 50 percent and to sell the
loans that were risk rated at 100 percent. The quality of the portfolio was generally viewed as adequate. According
to examiners, although collateral properties could be categorized as class B or class C, management had priced the
loans accordingly.

26
  In 1995, the bank formed the LPIG to invest in and purchase senior secured debt of other companies
(participations) offered by commercial banks in the secondary market. The principal types of loans in the LPIG's
portfolio were revolving lines of credit and long-term loans or letters of credit, the majority of which were reviewed
under the Shared National Credit Program. Bank management stopped originating new commitments in 1998 and
anticipated continued reductions in the outstanding balances as the portfolio matured.


                                                           30
CBC. These problem loans were attributed to deterioration in enterprise-value type loans, 27 as well as
the economic downturn and specific weaknesses in the telecommunications and technology sectors.
According to the ROE, significant losses at CBC beginning in 1998 could be traced to management's
departure from lending based upon "hard” collateral. Management changed its collateral requirements
and began approving "cash stream" loans.28 This lending change proved to be problematic and its
repercussions were still being experienced over 3 years later.

CBC Problem Loan Workout Strategies

During the June 1999 FDIC examination, examiners identified weaknesses in how CBC managed
problem loan workout strategies and warned that credit administration at CBC needed improvement.
CBC had been allowed to operate autonomously from the bank. CBC’s managers were under
employment contracts with ICII, and had been paid substantial salaries. In addition, they received
annual bonuses based solely on pre-tax profitability at CBC as calculated from internally generated
reports. These incentives appeared to have resulted in the failure to report problem loans and a
propensity to liberally restructure credits.

At the June 2000 examination, examiners found that CBC management had continued to capitalize
interest and over-advance large sums on an unsecured basis to problem borrowers in the hope that the
debtors could turn their companies around and repay the debts. These companies generally had
negative cash flows, negative equity, and insufficient sales to support operations. In some cases, these
companies had new ownership who contributed minimal or no equity. In addition, there was a shortfall
of collateral coverage for many of the classified CBC loans.

According to the FDIC case manager, while over-advances at SPB occurred due to bank
management's conscious decision to extend monies beyond collateral values, in many cases, the over-
advances were caused when collateral dissipated. In other cases, the over-advances occurred because
borrowers misrepresented collateral values. All three of these scenarios were experienced at SPB and
caused large loan losses.




27
  Enterprise value can be defined as the imputed value of a business. This valuation is often based on the
anticipated or imputed sale value, market capitalization, or net worth of the borrower. The sale value is normally some
multiple of sales or cash flow based on recent mergers or acquisitions of other firms in the borrower's industry. This
enterprise value is often relied upon in the underwriting of leveraged loans to evaluate the feasibility of a loan
request, determine the debt reduction potential of planned asset sales, assess a borrower's ability to access the
capital markets, and to provide a secondary source of repayment. Consideration of enterprise value is appropriate in
the credit underwriting process. However, enterprise value and other intangible values, which can be difficult to
determine, are frequently based on projections and may be subject to considerable change. Consequently, reliance
upon them as a secondary source of repayment can be problematic.

28
  Cash stream loans are loans for which debt service is derived from consumer cash collections or consumer monthly
payments. Collateral for such loans includes enterprise value; multiples of earnings before interest, taxes,
depreciation, and amortization; and subscriber-based collections.


                                                          31
Effective December 26, 2000, the bank was placed under a Cease and Desist Order (C&D Order) by
the FDIC. The C&D Order included the following provision related to over-advancing funds to
troubled borrowers:

        Provision 4: Extension of Credit

        a. Beginning with the effective date of this Order, the bank shall not extend, directly, or
        indirectly, any additional credit to, or for the benefit of, any borrower who has a loan or other
        extension of credit from the bank that has been charged off or classified, in whole or in part,
        Loss or Doubtful and uncollected. The requirements of this Paragraph shall not prohibit the
        bank from renewing (after collection in cash of interest due from the borrower) any credit
        already extended to any borrower.

        b. Additionally, during the life of this Order, the bank shall not extend, directly or indirectly, any
        additional credit to, or for the benefit of, any borrower who has a loan or other extension of
        credit from the bank that has been classified, in whole or part, Substandard and is uncollected.

        c. Paragraph 4(b) shall not apply if the bank’s failure to extend further credit to a particular
        borrower would be detrimental to the best interests of the bank. Prior to the extending of any
        additional credit pursuant to this Paragraph, either in the form of a renewal, extension, or further
        advance of funds, such additional credit shall be approved by a majority of the Board of
        Directors, or a designated committee thereof, who shall certify, in writing:

            •   why the failure of the bank to extend such credit would be detrimental to the best
                interest of the bank;
            •   that the bank’s position would be improved thereby; and
            •   how the bank’s position would be improved. The signed certification shall be made a
                part of the minutes of the Board of Directors or designated committee, and a copy of
                the signed certification shall be retained in the borrower’s credit file.

At the January 2001 FDIC examination, examiners found that the bank was in compliance with
Provision 4 of the C&D Order, as outlined above.

In previous discussions with examiners, CBC management indicated that it did not make decisions to
use these practices loosely, but only in certain warranted circumstances when management believed that
the borrower’s difficulties could be resolved favorably in a relatively short time. However, examiners
stated that some of these tactics resulted in delayed charge-offs and exposed the bank to more risk. As
a result, examiners recommended that CBC management formalize a policy that addressed the large,
unsecured term loans to be included as part of the loan policy. Specifically, the policy was to include:

    •   policies, procedures, and approval process for over-advances;
    •   guidelines and processes for the authorization, utilization, and limits for over-advances; and
    •   provisions for line officers to conduct analyses on the borrower’s ability to service over-
        advances.


                                                     32
Bank management’s use of problem loan workout strategies exacerbated asset quality problems at
CBC and led to excessive increases in loss exposure and improper deferral of loss recognition.
Examiners found, in fact, that there were unsatisfactory levels of adversely classified assets.
Furthermore, the use of these practices basically disregarded the principles of sound asset-based
lending and resulted in an adverse effect on the bank’s financial position.

At least three harmful results of these practices occurred:

    •   SPB had an increased loss exposure. The bank was most often in a loss position at the time of
        the peaceful possession, that is, it had over-advanced funds to the original owners and had an
        unsecured position. In an effort to improve its position, SPB often supported the borrower
        through over-advances which, in many cases, simply increased the bank’s risk exposure. For
        three CBC credits, over-advances exceeded $2.2 million in just 3 months from April 30, 2000,
        to July 31, 2000. The entire $2.2 million was classified as a contingent liabilities loss in the June
        2000 ROE.

    •   The use of the workout practices resulted in the deferral of loss recognition. At the time of
        peaceful possession, the troubled companies were generally insolvent; yet the bank did not
        charge off the unsecured portion of the credits. Credits with such defined weaknesses should
        be written down to collateral value at the time of transfer. Management further deferred losses
        by supporting companies’ operations through over-advances. In many cases, this practice
        supported a company that would otherwise fail and thus deferred the time when loss on the
        unsecured portion of the credit should have been recognized. Based on our review of CBC's
        over-advance reports, we determined that from May 1999 through January 2000, CBC's over-
        advances increased from $3.3 million to $12.6 million. At the conclusion of the January 22,
        2001 examination, examiners estimated that $62.7 million of $73.3 million in loans charged off
        at CBC in 2000 were attributed to borrowers benefiting from liberal over-advance practices.

    •   Workout practices employed by CBC management increased in substandard classifications.
        They increased because management tended to transfer ownership of problem companies to
        new individuals rather than foreclose on the assets. The collateralized portions of the credits
        generally remained on the bank’s books as substandard classifications. Had management
        liquidated the assets on many of the problem companies, which is generally the collection
        practice of asset-based lenders, the level of substandard classifications would have been greatly
        reduced.

In addition to these practices, CBC management did not properly report and account for nonaccrual
loans and continued to accrue interest on these loans even though over-advances exceeded interest




                                                     33
payments.29 As a result, management was, in effect, funding interest payments through unsecured over-
advances. Further, management did not place companies that were in liquidation in a nonaccrual status.
The reason for the improper reporting stemmed from management’s optimistic view of collecting full
principal and interest on problem loans.

By the January 2001 FDIC examination, administration of CBC had improved and CBC discontinued
unsecured term lending to distressed borrowers and liberal over-advance practices.

CBC Asset Concentrations

In November 2001, the FDIC reviewed concentrations at SPB.30 The examiners focused on the
bank’s loans and leases to the airline industry, and their review revealed substantial deterioration of the
portfolio. The bank had approximately $92 million in loans directly or indirectly supported by aircraft
leases, $14 million in loans advanced directly to the airline carriers, and $11 million in loans secured by
airline parts. The events of September 11, 2001, had a severe impact on CBC's $55 million aircraft
leasing portfolio, with direct loan losses of approximately $16 million in the fourth quarter attributed to
that event. Management attempted to negotiate with the airline companies; however, SPB was a minor
loan participant. Examiners estimated that an additional provision of $20 million was needed to cover
the loan risk associated with the portfolio. At the November 2002 FDIC examination, the bank’s loan
classifications were still centered in the CBC division, with large concentration exposures in both the
telecommunications and airline industries, as shown in Table 6.




29
  According to FDIC’s Manual of Examination Policies, continuing to accrue income on assets that are in default as
to principal and interest overstates a bank’s assets, earnings, and capital. Instructions for the Preparation of Reports
of Condition and Income indicate, in summary, that where the period of default of principal or interest equals or
exceeds 90 days, the accruing of income should be discontinued unless the asset is well-secured and in process of
collection. Banks are strongly recommended to follow this guideline not only for reporting purposes but also for
bookkeeping purposes.

30
  According to the FDIC’s Manual of Examination Policies, generally a concentration is a significantly large volume
of economically-related assets that an institution has advanced or committed to one person, entity, or affiliated
group. These assets may, in the aggregate, present a substantial risk to the safety and soundness of the institution.
Adequate diversification of risk allows the institution to avoid the excessive risks imposed by credit concentrations.
Concentrations generally are not inherently bad, but do add a dimension of risk that management of the institution
should consider when formulating plans and policies. The manual also provides the following guidelines for
identifying direct and indirect concentrations of obligations: (1) concentrations of 25 percent or more of Tier 1
Capital by individual borrower, small interrelated group of individuals, single repayment source or individual project;
and (2) concentrations of 100 percent or more of Tier 1 Capital by industry, product line, type of collateral, or short-
term obligations of one financial institution or affiliated group. Any other concentrations may be listed in the 25-
percent category if desired.


                                                          34
Table 6: SPB Industry Concentrations from 2000 to 2002 ($ in Thousands)
         Industry           December 2000         December 2001        September 2002
Telecommunications
- Amounts Extended                                  $176,041                $149,469              $92,854
- Percent of Tier 1 Capital                            335%                    329%                 418%
Airline
- Amounts Extended                                  $122,485                 $93,986              $60,844
- Percent of Tier 1 Capital                            233%                    207%                 274%
Entertainment
- Amounts Extended                                  $116,927                $135,683                    --
- Percent of Tier 1 Capital                            223%                    299%                     --
Technology
- Amounts Extended                                        --                 $52,389                    --
- Percent of Tier 1 Capital                               --                   115%                     --
Total Amount Extended                           $415,453                  $379,137             $153,698
Total Assets                                   $1,865,185                $1,401,350           $1,095,022
Percent Total Assets                              22.27%                    27.06%               14.04%
Source: FDIC January 2001, February 2002, and November 2002 reports of examination.


The November 2002 examination found that adversely classified items totaled $213 million, of which 98
percent were loans and leases. Approximately 45 percent of the classifications were not adversely
classified at the previous examination, indicating that credit quality was deteriorating. Most of these
loans were originally made in 1999 and 2000. At the time of the examination, historical loss
percentages were estimated as shown in Table 7.

Table 7: SPB’s Historical Losses in Industry Concentrations ($ in Thousands)
                                 2001                       2002             Remaining
                         Losses        Loss %       Losses        Loss %      Balance
Telecommunications            $ 31,191          22%           $ 40,937          27%          $ 92,854
Airline                         16,660          14%             17,357          18%            60,844
Technology                      16,840          21%              4,870          11%            27,081
Entertainment                                 Data not provided in reports of examination.
Source: FDIC November 2002 report of examination.


Losses from the three concentrations approximated 70 percent of gross credit losses in 2001 and 60
percent in 2002. Nine of the bank’s ten largest loan losses were in concentrated industries as illustrated
in Table 8. Approximately 37 percent of the telecommunications concentrations and 100 percent of the
airline concentrations were adversely classified. Table 9 provides a breakdown of the major loan losses
at CBC for 2002 and shows that although the bank’s concentrations affected more than one of its
lending divisions, the major losses related to loan concentrations were in CBC. These adversely
classified items included SNCs that examiners had classified as substandard or doubtful.




                                                        35
Table 8: SPB’s Ten Largest Losses in 2001 ($ in Thousands)
            Industry            Gross Amount            Division                         SNC
Aircraft                            $ 15,700             CBC
Paging                                12,200             CBC
Paging                                11,700             CBC                             SNC
Entertainment                          7,400             CBC
Telecommunications                     7,300             CBC                             SNC
Technology                             6,200             CBC
Technology                             4,200             CBC
Telecommunications (DSL)               3,800             CBC                             SNC
Steel Manufacturing                    2,700             CBC                             SNC
Telecommunications (DSL)               2,500             CBC
Total                               $73,700
Source: FDIC February 2002 report of examination.


During the 2002 FDIC examination, examiners also found that 4 of the 10 largest loan classifications
were CBC credits in concentrated industries (see Table 9).

Table 9: SPB’s Ten Largest Asset Classifications in 2002 ($ in Thousands)
            Industry                Amount               Division                        SNC
Aircraft                           $ 18,400                CBC*
Advertising                            15,000              CBC
Clay Tile Mfg.                         14,600              CBC
Paging                                 14,400              CBC*
Car Rentals                            11,700              LPIG                          SNC
Telecommunications                      9,900              CBC*
Hazardous Waste Mgt.                    9,800              CBC
Telecommunications                      9,700              CBC*                          SNC
Telecommunications                      9,600              LPIG                          SNC
Railroad                                9,300              LPIG                          SNC
Total                              $ 122,400
Source: FDIC February 2002 report of examination.
* CBC credits in concentrated industries.

The loans of most concern to examiners were those directly tied to the telecommunications sector.
Credit exposures to borrowers in the telecommunications industry comprised the largest and most
problematic concentration of credit. At December 31, 2001, telecommunications exposure totaled
$149 million or 329 percent of Tier 1 Capital. Approximately $60 million or 40 percent of the
exposure was adversely classified or deemed to have Substandard characteristics.




                                                    36
        High Loan Growth

A study prepared by the FDIC’s former Division of Research and Statistics (recently combined with the
Division of Insurance to form the Division of Insurance and Research) entitled History of the Eighties–
Lessons for the Future was published in December 1997. Volume I, An Examination of the
Banking Crises of the 1980s and Early 1990s, detailed the life cycle of a bank failure. The study
recognized that rapid loan growth was identified repeatedly as a precursor to failure. In addition,
institutions that failed typically moved through three stages of deterioration. In the first stage, loan
growth is rapid, loan concentrations emerge, and lending is aggressive (internal controls in the growth
areas tend to be weak, and underwriting standards are generally more lenient). In the second stage, the
institution’s loan-quality problems increase, profits decline, and inadequate reserve levels become
apparent. In the final stage, deteriorating asset quality leads to losses and a depletion of bank capital.
The study also notes that only over time do the effects of growth or risk-taking – whether these effects
are good or bad – become apparent.

The study also recognized that growth-related risk can come in at least two areas, loans and bank
management. There may be increased loan concentrations in risky areas, and there may be
management lapses such as lowered underwriting standards, increased reliance on volatile funding, or a
general weakening of internal controls in order to facilitate rapid growth. Both areas at SPB
experienced increased growth-related risk. In particular, the bank was subject to concentrations in
risky areas, liberal underwriting standards, significant reliance on volatile funding, and weak internal
controls.

To mitigate the increased growth-related risk, a bank should employ strategies that consider loan
quality, capital adequacy, and ALLL sufficiency. The study noted the following:

        … neither growth itself nor most other risk taking is necessarily bad for a financial institution.
        Banks earn their income by assuming risk; to increase risk through growth can therefore be a
        sound strategy. Such a strategy would ideally be accompanied by increases in capital as a
        buffer against higher losses, maintenance of high underwriting standards, and attention to proper
        risk management–in other words, by prudent management of the institution’s growth.
        Moreover, regardless of whether the increased lending is prudent, ill timed, or very risky, the
        growth will generate added revenue from increased loan fees and interest income. In addition,
        because these are all new loans, initially there are no delinquencies and no loss charge-offs, so
        that the growth is almost always accompanied by growth in income and capital (assuming
        retained earnings). Only over time do the effects of growth or other risk taking–whether these
        effects are good or bad–become apparent. This long lead time before problems appear makes
        it difficult to identify future problem banks accurately.

One of the contributing factors to SPB’s failure was the aggressive growth pursued by bank
management. From 1991 through 2000, the bank was in a constant state of growth. From 1991 to
1994, the bank was engaged in lending, originating, and selling subprime residential and consumer loans.
During this period, the bank grew from an institution with total assets of $56.5 million as of
December 31, 1990 to $1.4 billion as of December 31, 1994. In particular, a total growth rate of
2,318 percent was achieved. From 1994 through 1999, the bank changed its loan strategies and
                                                   37
product focus to low-quality and high-risk commercial and industrial loans with the prospect of greater
profits. As the bank’s investment in subprime residential loans declined, the focus in commercial and
industrial loans increased. As of December 31, 1993, the bank had no commercial loans in a total loan
portfolio of $1.2 billion. As of December 31, 1999, total commercial loans equaled $1.1 billion in a
total loan portfolio of $1.5 billion. Figure 4 shows the level of growth achieved.

Figure 4: Total Assets at SPB from 1987 through 2002 ($ in Billions)

                   $2.5

                   $2.0
    Total Assets




                   $1.5

                   $1.0

                   $0.5

                   $0.0
                          1987

                                 1988

                                        1989

                                               1990

                                                      1991

                                                             1992

                                                                    1993

                                                                           1994

                                                                                  1995

                                                                                         1996

                                                                                                1997

                                                                                                       1998

                                                                                                              1999

                                                                                                                     2000

                                                                                                                            2001

                                                                                                                                   2002
Source: OIG analysis of Uniform Bank Performance Reports.


SPB’s ROEs since December 1994, typically noted that rapid and significant levels of growth were
occurring. In addition, a few of the reports identified managerial weaknesses, loan underwriting and
administrative concerns, and the lack of strategic plans in relationship to the bank’s growth. The
January 1996 and April 1997 reports also identified the initial shift away from single-family residential
lending into commercial and industrial loans. In these reports, the commercial and industrial lending was
described as being riskier and subject to greater losses. Subsequently, the June 1999, June 2000,
January 2001, February 2002, and November 2002 ROEs noted the level and growth of adverse
classifications that were attributable directly to CBC and the corresponding rapid growth and liberal
underwriting of the portfolio.




                                                                           38
ASSESSMENT OF THE FDIC’S SUPERVISION OF THE INSTITUTION

The FDIC and DFI examiners conducted annual examinations of SPB from 1993 until its closure in
2003 (see Table 1). The scope of examinations was generally comprehensive, and examiners
repeatedly identified and reported on significant areas of concern and risk at the institution. As shown
on Table 1, from 1998 until the bank failed, SPB operated under various supervisory actions by FDIC
and DFI. Of these actions, specific provisions were made for capital and the ALLL. While detail
reviews were performed and recommendations were made on capital adequacy and the ALLL, further
analysis and study were needed to establish the appropriate level of capital and of the loan loss reserve.
As discussed in the following sections, OIG analysis indicates that both capital and the ALLL were
underfunded for an extended period based on the level of risk assumed by bank management.
Furthermore, additional funds, above those initially requested by examiners, should have been sought to
strengthen the bank’s financial position. If these additional funds were sought and obtained,
management may have been encouraged to take further steps by limiting asset growth or enacting a
more conservative loan underwriting program. Ultimately, once loan losses began to be recognized, the
level and severity of losses exceeded the available funds of the bank, resulting in its failure. As a result,
the supervisory effectiveness of reducing the risk of a material loss to the insurance fund was limited.
These issues are presented in detail in the following sections, which address the FDIC’s supervision of
the institution, including implementation of the PCA provisions of the FDI Act.


Finding A: Examiners Need More Guidance on How to Evaluate High-Risk
            Commercial Loan Programs that Target Subprime Borrowers

SPB’s high-risk commercial loan programs were not evaluated by examiners in a manner that ensured
that capital requirements and ALLL adequately addressed the risks inherent in these types of the
credits. Although current examination procedures provide guidance for reviews of commercial and
industrial loans (to include asset-based loans), they do not provide guidance for the evaluations of
commercial lending programs that target borrowers with subprime characteristics.31 In addition,
examiners have not received guidance related to quantifying the amount of ALLL or capital needed to
offset the additional risk in subprime commercial lending programs. As a result, institutions with lending
programs that target subprime commercial credits may not be required to maintain capital and ALLL at
levels that adequately address the risks inherent in these types of lending programs.

FDIC’s Manual of Examination Polices contains policies and procedures related to examinations of loan
portfolios composed of commercial and industrial loans, accounts receivable financing, leveraged
financing, commercial real estate loans, and real estate construction loans, all of which were present in
SPB’s asset portfolio (see Appendix V). Although the manual addresses problem loans, impaired
loans, and subprime consumer loans, the procedures do not address the risk inherent in loan programs
that target, either through origination or purchase, subprime commercial loans to be held in the
institution’s portfolio or accumulated and packaged for sale.


31
  In the absence of an industry-wide definition of subprime commercial loans and for the purposes of this report, we
use the term subprime to describe SPB’s commercial loan portfolios.

                                                         39
DSC and the Federal Financial Institutions Examination Council (FFIEC) have issued specific
guidelines (see Appendix VI) for examiners to follow when reviewing subprime mortgage and
consumer loans and subprime credit card programs at FDIC-insured institutions. These
guidelines assist examiners and bank management in effectively managing risks associated with
subprime lending programs, establishing adequate allowance levels to cover losses, and
maintaining capital levels that reflect the additional inherent risks associated with subprime
lending. However, the procedures (with the exception of those related to subprime consumer
loans) are geared towards loans that were underwritten for borrowers that, at the time of
origination, did not have questionable or weakened credit histories.

Specifically, the FFIEC January 2001, Expanded Guidance for Evaluating Subprime Lending
Programs (Expanded Guidance) addresses subprime lending and provides the following definition:

        The term subprime refers to the credit characteristics of individual borrowers. Subprime
        borrowers typically have weakened credit histories that include payment delinquencies, and
        possibly more severe problems such as charge-offs, judgments, and bankruptcies. They may
        also display reduced repayment capacity as measured by credit scores, debt-to-income ratios,
        or other criteria that may encompass borrowers with incomplete credit histories. Subprime
        loans are loans to borrowers displaying one or more of these characteristics at the time of
        origination or purchase. Such loans have a higher risk of default than loans to prime borrowers.

The Expanded Guidance states that generally, subprime borrowers will display a range of credit risk
characteristics that may include one or more of the following:

        •   two or more 30-day delinquencies in the last 12 months, or one or more 60-day
            delinquencies in the last 24 months;
        •   judgment, foreclosure, repossession, or charge-off in the prior 24 months;
        •   bankruptcy in the last 5 years;
        •   relatively high-default probability as evidenced by, for example, a credit bureau risk score
            (FICO) of 660 or below (depending on the product/collateral), or other bureau or
            proprietary scores with an equivalent default probability likelihood; and/or
        •   debt service-to-income ratio of 50 percent or greater, or otherwise limited ability to cover
            family living expenses after deducting total monthly debt-service requirements from monthly
            income.

The guidance also provides the following definition of subprime lenders: “…institutions that
systematically target the subprime market through programs that employ tailored marketing,
underwriting standards, and risk selection.”

In addition, the guidance states that the term subprime lending “program” refers to the process of
acquiring on a regular or targeted basis, either through origination or purchase, subprime loans to be
held in the institution’s own portfolio or accumulated and packaged for sale.




                                                   40
During the April 1997 FDIC examination, examiners first described SPB’s loan portfolio as being
centered in subprime lending, making SPB more sensitive to economic downturns than competing
institutions with more strict underwriting requirements. From 1997 through 2002, ROEs continually
noted that SPB’s borrowing base was generally subprime and warned about susceptibility to economic
downturns. Examiners also noted that the entire CBC portfolio had subprime characteristics that
required more than normal management attention in the identification, monitoring, and control of risk.
Despite some variance, the underwriting standards were generally liberal as SPB targeted borrowers
with weaknesses and charged interest rates commensurate with those weaknesses. The borrowers
were generally categorized as B and C borrowers who tended to be at the marginal end of the credit
spectrum and generally did not qualify for credit on more conventional terms. Examiners warned bank
management that a large percentage of loans were secured with real estate and that because many of
these loans were backed with junior liens, collateral values could be reduced or eliminated when
property values declined.

According to the Expanded Guidance, each subprime lender is responsible for quantifying the amount of
capital needed to offset the additional risk in subprime lending activities. The analysis should be tailored
to reflect the size, concentration level, and relative risk of the institution's subprime lending activities and
should consider the following elements:

        •   portfolio growth rates;
        •   trends in the level and volatility of expected losses;
        •   the level of subprime loan losses incurred over one or more economic downturns, if such
            data/analyses are available;
        •   the impact of planned underwriting or marketing changes on the credit characteristics of the
            portfolio, including the relative levels of risk of default, loss in the event of default, and the
            level of classified assets;
        •   any deterioration in the average credit quality over time due to adverse selection or
            retention;
        •   the amount, quality, and liquidity of collateral securing the individual loans;
        •   any asset, income, or funding source concentrations;
        •   the degree of concentration of subprime credits;
        •   the extent to which current capitalization consists of residual assets or other potentially
            volatile components;
        •   the degree of legal and/or reputation risk associated with the subprime business line(s)
            pursued; and
        •   the amount of capital necessary to support the institution's other risks and activities.

The Expanded Guidance states that because subprime lending poses more risk than standard lending, it
is expected that the starting point for determining capital levels would be at a minimum, one and a half to
three times greater than what is appropriate for non-subprime assets of a similar type. The guidance
also states that refinements to capital levels should be made based on the particular circumstances of
each bank. As a result, the capital ratios should be set well above the averages for their traditional peer
groups or other similarly situated institutions that are not engaged in subprime lending.



                                                      41
From 1994 through 1999, SPB management engaged in a high-risk lending strategy and expanded into
commercial lending, wholesale equipment lease financing, and asset-based lending to companies and
borrowers with impaired credit histories. During that time, the bank created 10 new commercial-based
lending divisions within the bank:

    •   6 divisions focused on providing high-risk loans to subprime borrowers in the areas of asset-
        based commercial lending, new and used automobile paper, commercial real estate
        rehabilitation loans, bulk sales of nonconforming real estate loans, and automobile dealership
        inventory loans;
    •   2 divisions provided loans on a wholesale basis to mortgage companies and leasing companies;
    •   1 division specialized in Shared National Credits; and
    •   1 division specialized in motion picture financing.

FDIC examiners stated that many of these new business lines were pursued without an adequate loan
review program and internal loan grading system. By April 1997, SPB had discontinued single-family
residence lending and was concentrating on commercial and multifamily income properties and
commercial finance lending. Moreover, by this time, examiners noted that the bank's loans, regardless
of type, were generally subprime. From 1997 through 2002, the bank suffered losses of over
$324 million in its commercial and industrial loan portfolios.

We found that examiners conducted reviews of SPB’s management of commercial loan portfolios. The
reviews were in compliance with the DSC policy manual and covered SPB policies, internal rating
systems, problem loan work-out strategies, ALLL calculations, management incentives, and Board
oversight. Although we found that the examiners conducted reviews of individual credits to determine
the loss classifications and required ALLL, we noted only one case in which examiners took additional
steps to identify the industry risk posed by the types of subprime commercial loans specific to SPB.
Although current examination procedures for asset-based commercial lenders do not require specific
studies of industry standards, during the 2002 examination, the examiner-in-charge (EIC) and the case
manager attempted to research the industry standards for capital allotments to determine the amounts of
equity capital allotted to asset-based commercial loan credits by the private sector. They found that the
private sector was carrying 20 percent of capital for these types of credits. According to the EIC, this
ratio was in line with the examiners’ idea of a capital allocation of 15 to 20 percent for SPB's largest
lending division, CBC. The examiners used this analysis as a basis for getting SPB management to
agree to allocating higher capital levels.

As a part of our analysis, we recomputed SPB‘s Tier 1 Leverage Capital based on the 20 percent
equity capitalization rate for asset-based commercial loans as described in the case above. We
compared our recomputed percentages to the percentages allotted by SPB, as well as to those of the
bank’s peers. As demonstrated in Figure 5, SPB’s capital allocations were above the peer average
through 1999; however, the bank’s averages dropped significantly below that of peer banks thereafter.




                                                   42
 Figure 5: Recomputation of Tier 1 Leverage Capital

    Tier I Leveraged Capital   14%
                               12%
                               10%
                                                                                                  Recomputed Tier I
                               8%                                                                 Leveraged Capital
                                                                                                  SPB Tier I
                               6%
                                                                                                  Leveraged Capital
                               4%                                                                 Peer Average

                               2%
                               0%
                                     1996   1997   1998     1999        2000   2001   2002
                                                          Year End
 Source: SPB Call Reports from 1996 through 2002.


From 1996 through 1999, the difference in the amounts of the capital allotted to asset-based credits by
SPB and its peer banks ranged from 0.90 percent to 1.11 percent, with SPB allotting more capital than
its peer banks. From 2000 through 2002, the trend changed, and the differences ranged from 4.94 to
5.58 percent, with SPB maintaining less capital than its peer banks.

We also recomputed SPB’s Tier 1 Leverage Capital for 1996–2002 based on the 20-percent equity
capital assumption to determine how much, if any, additional capital would have been required to cover
the risks associated with the bank’s asset-based commercial loans. We found that the amounts of
additional capital that would have been required for CBC alone ranged from $30 million to $126 million
annually (see Table 10). As a result of our recompilation of SPB’s equity capital , we found that SPB’s
capital was underfunded from 1996 through 2002.

Table 10: Additional Tier 1 Capital Based on a 20-Percent Equity Capital Allotment
                                                           Capital Increase ($ in Thousands )
                                Year-end                   CBC                       SPB Total
              1996                             $ 30,728                                $ 13,310
              1997                                54,058                                342,735
              1998                                71,708                                 59,566
              1999                                79,024                                 67,106
              2000                               126,517                                174,868
              2001                                90,542                                133,381
              2002                                55,674                                 86,737
Source: SPB Call Reports from 1996 through 2002.


DSC management informed us that in addition to policies for on-site examinations of commercial loans,
DSC has policies for pre-scoping examinations that address commercial loans, and DSC has identified
red flags to alert examiners to potential problems. According to the DSC case manager, when
examiners conduct reviews of commercial loans, examiners take a sample of the loans and review them
on a credit-by-credit basis rather than applying a formula approach to quantifying the risks. The sample

                                                                   43
would include the largest and most problematic credits in the portfolio. After conducting a review of
individual loans, the examiners make conclusions about the entire portfolio. According to DSC, this is
the best way to assess commercial loans. During our review of examination data for four of the largest
lending divisions at SPB, we found that examination coverage of the loan portfolios ranged from 12
percent to 100 percent of the dollar value of each of the four divisional loan portfolios (see Table 11).

Table 11: Examination Coverage of High-Risk Assets at SPB
   Exam        Ratings: Composite          Total Assets        Percentage of Total Portfolio Reviewed
   Date          / Asset Quality           ($ in Billions)     CBC       IPLD       LPIG        LHO
 June 2000                4/4                   $ 1.902         24         21         38           44
  Jan. 2001               4/5                   $ 1.865         68         18         15           31
 Feb. 2002                5/5                   $ 1.401         85         46         47           36
 Nov. 2002                5/5                   $ 1.095         54         12         78          100
Source: FDIC reports of examination from 2000 to 2002.


DSC management informed us that it would be very difficult to develop a formula approach similar to
the FFIEC guidelines for subprime consumer loan programs because there are too many variables to
consider related to commercial loans. The factors used to determine capital requirements for these
credits must be evaluated separately and then weighted to arrive at a final amount. Because each set of
circumstances will differ, the weights will vary based on the individual bank. Further, the development
of additional examination guidance may require an interagency (FFIEC) effort, and the guidance would
need to be sufficiently flexible to be used by each agency involved.

During discussions with FDIC management, we were told that many commercial loans recently
underwritten in banks tends to be non-rated or subinvestment grade in relation to bond ratings as
published by Standard and Poors and Moody’s, due to the fact that prime companies have direct
access to the capital markets; however, the quality of commercial lending varies from institution to
institution, and capital adequacy at each institution must be subjectively determined. Also, San
Francisco Regional Office management and examiners stated that very few institutions engage in
commercial subprime lending and that development of a policy to address these types of credits might
not be feasible.

Examiners did not evaluate SPB’s lending programs that targeted subprime commercial credits in a
manner that addressed the inherent risks in the programs. As a result, SPB was not required to maintain
capital and ALLL at levels that adequately addressed the risks inherent in these types of lending
programs. In addition, there is a potential for a lack of consistency in on-site examinations of banks
with subprime commercial lending programs, particularly with regard to setting capital and ALLL at
levels that address the risk inherent in these programs. Further, obtaining bank management's
agreement on the examiners’ method for calculating the required capital levels may be difficult without
some form of agency guidance.




                                                          44
        Recommendations

We recommend that the Director, DSC;

(2) Enhance or reinforce existing examination guidance to, at a minimum, identify techniques examiners
    may use to evaluate capital and loan loss allowance information available from bank and non-bank
    sectors, for comparing and contrasting variances in capital allocation for these types of commercial
    loan programs; and

(3) Reinforce examiner awareness of DSC subject-matter experts in high-risk commercial lending, and
    encourage examiners and case managers to avail themselves of these experts, when appropriate.




                                                  45
Finding B: SPB’s Allowance for Loan and Lease Losses was Underfunded

The ALLL was underfunded for the level of risk assumed by bank management and present in the loan
portfolio. The methodology employed by examiners to validate the bank’s ALLL did not adequately
consider the following:

     •   the use of peer group average ratios;
     •   the use of historical loan loss averages; and
     •   the assignment of qualitative adjustments for existing risk factors such as new areas of lending,
         new management, and high loan growth.

Properly stating the ALLL would have reduced SPB’s operating results, which already showed a net
loss beginning in 1999, and may have been sufficient to downgrade SPB’s capital category designation
for purposes of PCA.

FDIC’s Manual of Examination Policies for safety and soundness examinations assigns examiners the
responsibility for assessing the quality of the loan and lease portfolio, the loan review system, and the
adequacy of the ALLL. Loan portfolio analysis and the determination of loan quality are used to
establish and determine the adequacy of the ALLL. In general, the greater the risk in the loan portfolio,
the greater the allowance should be to reserve for potential losses and to mitigate the increased risk.
The Loan Portfolio Management and Review: General Examination Documentation module, Core
Analysis, instructs examiners to assign classifications to loans reviewed, evaluate the internal loan
classifications for accuracy, and evaluate the level and trend of classified loans. If the internal grading
system is reliable, examiners are to use the bank’s data for preparing the appropriate ROE pages,
determining the overall level of classifications, and providing supporting comments regarding the quality
of the loan portfolio. The Loan Portfolio Management and Review: General Examination
Documentation module, Expanded Analysis, instructs examiners to determine an appropriate ALLL
level and provides examiners seven areas of consideration.32

The OIG recognizes, as do DSC’s various policies and procedures, that reviewing and assessing an
institution’s ALLL is a complex and detailed process. In addition, the OIG recognizes that the seven
areas of consideration in the expanded analysis procedures are subject to a substantial degree of
judgment, are not all weighted or viewed equally, and are not conclusive in that the results in one
particular method do not necessarily imply adequacy or inadequacy of the ALLL. In particular, while
the use of peer group averages can be useful in identifying divergent trends and can be helpful as a
supplemental check of the reasonableness of management’s assumptions and analysis, peer group
averages are not, by themselves, a sufficient basis for determining the adequacy of the ALLL. The
historical loss averages are also subject to a certain degree of subjectivity and adjustment, and
calculations can range from a simple average of net charge-offs over a relevant period to more complex
techniques, such as migration analysis. The use and assignment of qualitative adjustments are also
subjective and can entail complex computations. Furthermore, examination guidance in the

32
  Appendix VII contains a detailed listing of the seven methodologies used in determining an appropriate ALLL
level.


                                                       46
quantification of qualitative adjustments is limited, and some discretion is available in how these risk
factors (once quantified) could be applied through either a greater ALLL or a higher capital level.

         Use of Peer Group Data Comparisons

Based on a review of the reports of examination and on a review of the workpapers for the June 2000,
January 2001, and February 2002 examinations, examiners conducted a limited analysis of SPB’s
financial structure against that of a peer group average. In general, examiners stated that the bank’s
financial structure was so unique (the institution was an industrial loan company, assets were centered in
low quality commercial and industrial loans, and deposits were centered in high-rate Certificates of
Deposits) that making comparisons against peer group averages would not have been meaningful. In
addition, although a few examiners favored the idea of formulating a customized peer average that
would have been specifically tailored to the financial structure of this bank, the examiners did not
formulate an analysis in this area to specifically address the adequacy of the ALLL. Other examiners
noted that designating a specific pool of banks as a peer group would have been difficult due to the
bank’s unique financial structure. Regardless, the analysis of peer group averages (based on a review of
the Uniform Bank Performance Report33) would have provided greater insight into the adequacy of the
ALLL. Based on our analysis of SPB’s financial position to their peer group average for the ratio Loan
and Lease Allowance to Non-Accrual Loans and Leases, as of December 31, 2002, the ALLL would
have been underfunded by $368 million and an adjusted Tier 1 Leverage Capital ratio would have
equaled a negative 51.7 percent.

FDIC’s Statement of Policy entitled, Interagency Policy Statement on the Allowance for Loan and
Lease Losses (ALLL), dated December 21, 1993, states:

         Institutions are … encouraged to use ratio analysis as a supplemental check or tool for
         evaluating the overall reasonableness of the ALLL. Ratio analysis can be useful in identifying
         divergent trends (compared with the institution’s peer group and its own historical practices) in
         the relationship of the ALLL to classified and nonclassified loans and leases, to past due and
         nonaccrual loans and leases, to total loans and binding commitments, and to historical gross and
         net charge-offs.

The policy statement also recognizes that “… while such comparisons can be helpful as a supplemental
check of the reasonableness of management’s assumptions and analysis, they are not, by themselves, a
sufficient basis for determining the adequacy of the ALLL. In particular, such comparisons do not
obviate the need for a comprehensive analysis of the loan and lease portfolio and the factors affecting its
collectibility.” The policy statement assigns examiners the responsibility to “Perform a quantitative

33
  The Uniform Bank Performance Report (UBPR) is an analytical tool created for bank supervisory, examination, and
management purposes. In a concise format, it shows the impact of management decisions and economic conditions
on a bank's performance and balance-sheet composition. The performance and composition data contained in the
report can be used as an aid in evaluating the adequacy of earnings, liquidity, capital, asset and liability management,
and growth management. Bankers and examiners alike can use this report to further their understanding of a bank's
financial condition, and through such understanding, perform their duties more effectively. The UBPR is available
online at WWW.FFIEC.GOV.


                                                          47
analysis (e.g., using the types of ratio analysis previously discussed) as a check of the reasonableness of
the ALLL.”

The Core Analysis procedures instruct examiners to determine the overall adequacy of the ALLL.
Examiners should, “Evaluate the overall level of the ALLL for reasonableness…Consider reviewing
applicable UBPR ratios as a check for reasonableness.” The Expanded Analysis procedures also
instruct examiners to determine an appropriate ALLL level. In determining this level, the examiners
should consider seven areas. Two of the seven areas require examiners to perform a comparison of the
bank’s allowance against various peer averages. One of the procedures requires examiners to,
“Consider the average reserve coverage of non-performing loans by state, rating, and charter.” The
other procedure requires examiners to, “Consider the historical average of loan loss reserves to non-
performing loans for all banks in the region and nation.”

Our comparison of SPB’s ALLL position to the peer group average showed that the allowance was
deficient. As illustrated in Figure 6, the bank’s ALLL was below the peer group average from 1993 to
1998 and then significantly rose in subsequent years.

Figure 6: SPB’s Ratio of Loan and Lease Allowances to
          Total Loans and Leases Compared to SPB’s Peer Group Average

                                      6
  Ratio of Loan and Lease Allowance
      to Total Loans and Leases




                                      5

                                      4
                                                                                                                 SPB Data
                                      3                                                                          Peer Average

                                      2

                                      1

                                      0
                                          1993


                                                 1994


                                                        1995


                                                               1996


                                                                      1997


                                                                             1998


                                                                                     1999


                                                                                            2000


                                                                                                   2001


                                                                                                          2002




 Source: OIG analysis of Uniform Bank Performance Reports.


Despite this growth, the ALLL level was still not sufficient to adequately cover the potential loss
exposure in the loan portfolio. As illustrated in Figure 7, the losses that were recognized grew slowly at
first, due in part to the high level of loan growth that was experienced within the CBC portfolio and the
deferment of loan loss recognition practices. After 1998, loan losses grew rapidly and significantly
exceeded the loan losses experienced by the peer group average.




                                                                                    48
 Figure 7: SPB’s Ratio of Net Loss to Average Total
           Loans and Leases Compared to SPB’s Peer Group Average

                                  10
                                   9
   Ratio of Net Loss to Average
     Total Loans and Leases


                                   8
                                   7
                                   6
                                                                                                                SPB Data
                                   5
                                                                                                                Peer Average
                                   4
                                   3
                                   2
                                   1
                                   0
                                       1993

                                               1994

                                                      1995

                                                             1996

                                                                    1997

                                                                           1998

                                                                                   1999

                                                                                          2000

                                                                                                 2001

                                                                                                        2002
 Source: OIG analysis of Uniform Bank Performance Reports .

As illustrated in Figure 8, the bank’s ALLL as a percentage of net losses had been declining since 1994
and was significantly below the peer group average since 1997. This significant disparity continued to
exist despite the higher allowance levels maintained by the bank from 2000 to 2002, as shown in
Figure 6.

 Figure 8: SPB’s Ratio of Loan and Lease Allowance
           to Net Losses Compared to SPB’s Peer Group Average

                                  12

                                  10
   Ratio of Loan and Lease
   Allowance to Net Losses




                                   8
                                                                                                               SPB Data
                                   6
                                                                                                               Peer Average
                                   4

                                   2

                                   0
                                        1993

                                               1994

                                                      1995

                                                             1996

                                                                    1997

                                                                           1998

                                                                                   1999

                                                                                          2000

                                                                                                 2001

                                                                                                        2002




 Source: OIG analysis of Uniform Bank Performance Reports.


In addition, analysis of the bank’s noncurrent and nonaccrual loan portfolios provides a further
indication of the direction of loan quality. As illustrated in Figure 9, noncurrent loans and leases rapidly
grew from 1997, despite the artificial treatment of bringing certain delinquent loans current by
capitalizing interest.


                                                                                  49
Figure 9: SPB’s Ratio of Non-Current Loans and Leases to
          Gross Loans and Leases Compared to SPB’s Peer Group Average

                                     12
  Leases to Gross Loans and Leases
  Ratio of Non-Current Loans and




                                     10

                                        8
                                                                                                                                             SPB Data
                                        6
                                                                                                                                             Peer Average
                                        4

                                        2

                                        0
                                            1993

                                                   1994

                                                           1995

                                                                   1996

                                                                           1997

                                                                                    1998

                                                                                             1999

                                                                                                       2000

                                                                                                                 2001

                                                                                                                               2002
Source: OIG analysis of Uniform Bank Performance Reports.


As illustrated in Figure 10, the ALLL as a percentage of nonaccrual loans is significantly below the peer
group average for the periods shown. Logically, however, an individual should expect that the bank’s
position would be higher than the peer group average because of the bank’s higher than average risk
profile.

Figure 10: SPB’s Ratio of Loan and Lease Allowance to Nonaccrual
           Loans and Leases Compared to SPB’s Peer Group Average

                                        6
    Ratio of Loan and Lease Allowance
     to Nonaccrual Loans and Leases




                                        5

                                        4
                                                                                                                                               SPB Data
                                        3                                                                                                      Peer Average

                                        2

                                        1

                                        0
                                            1993

                                                    1994

                                                            1995

                                                                    1996

                                                                             1997

                                                                                      1998

                                                                                                1999

                                                                                                          2000

                                                                                                                        2001

                                                                                                                                      2002




Source: OIG analysis of Uniform Bank Performance Reports.


Figures 11 and 12 show what the impact would have been to the bank’s Tier 1 Leverage Capital ratio if
the allowance was maintained as a percentage of nonaccrual loans that was equal to the bank’s peer
group average. As can be seen, from 1994 to 1999, the capital position would have declined
significantly from the reported levels, becoming critically undercapitalized for Prompt Corrective Action

                                                                                             50
purposes in 1996 and then again in 1999.34 From 1999 to 2002, the Tier 1 Leverage Capital ratio
would have declined to a negative 51.7 percent, with additional provisions to the ALLL during that
period totaling $368 million. The OIG does not suggest that this level of provision to the reserve was
necessary for the period of 1999 to 2002, only that such a divergence indicates that a comprehensive
review of the bank’s ALLL would be necessary. The analysis also indicates that the bank possesses a
higher risk profile than peer average and that a more conservative reserve factor should be considered.

  Figure 11: SPB’s Tier 1 Leverage Capital Ratio from 1993 to 2002

                                                 20

                                                 10
                Tier I Leverage Capital Ratio




                                                     0
                                                         1993



                                                                 1994



                                                                               1995



                                                                                      1996



                                                                                             1997



                                                                                                           1998



                                                                                                                    1999



                                                                                                                           2000



                                                                                                                                         2001



                                                                                                                                                   2002
                                                -10

                                                -20

                                                -30

                                                -40
                                                                 Adjusted Data
                                                -50
                                                                 Reported Data
                                                -60


 Source: OIG computations and analysis of Uniform Bank Performance Reports.


  Figure 12: SPB’s Tier 1 Leverage Capital Ratio from 1993 to 1999

                                                10
     Tier I Leverage Capital Ratio




                                                 9
                                                 8
                                                 7
                                                 6
                                                 5
                                                 4
                                                 3
                                                 2               Adjusted Data
                                                 1               Reported Data
                                                 0
                                                          1993




                                                                        1994




                                                                                      1995




                                                                                                    1996




                                                                                                                  1997




                                                                                                                                  1998




                                                                                                                                                1999




Source: OIG computations and analysis of Uniform Bank Performance Reports.




34
  In accordance with 12 C.F.R. Part 325 of FDIC’s Rules and Regulations, critically undercapitalized institutions are
defined, for Prompt Corrective Action purposes, as insured depository institution with a ratio of Tangible Equity
Capital to Total Assets that is equal to or less than 2 percent. The computation of this ratio is equivalent to the
computation of the ratio Tier 1 Leverage Capital to Average Total Assets.

                                                                                               51
Based on our review of the reports of examination, we found that FDIC examiners did not provide a
written analysis of the bank’s reserve ratios in comparison to the peer group averages. In addition,
examiner discussions of delinquent and nonaccrual loans, on an aggregate basis, were limited to
notations on the level and trend of these portfolios. No analysis was provided to supplement the
determination of the ALLL’s adequacy. Furthermore, although examiners also noted that
management’s ALLL methodology did consider trends of delinquent and nonaccrual loans, the reports
of examination did not discuss how this data was used. However, of note, in the January 1996 ROE,
examiners stated that, “The company’s methodology for establishing loan loss reserves … may not be
able to adequately project future losses considering that the company has moved into several new areas
of lending … historic losses may not be an appropriate basis for calculating reserves for a large part of
the portfolio… It is recommended that the company review industry information to re-evaluate the
adequacy of its reserves …” This recommendation was not repeated in subsequent reports.

Based on a review of DSC’s workpapers for the June 2000, January 2001, and February 2002
examinations, at only one of the examination was a documented analysis of the bank’s reserve level in
relationship to peer averages conducted. However, the analysis was flawed. The stipulated procedure
requires examiners to, “Consider the average reserve coverage of non-performing loans by state, rating,
and charter.” The other procedure requires examiners to, “Consider the historical average of loan loss
reserves to non-performing loans for all banks in the region and nation.” The examiner performed an
analysis by comparing what the required reserve level would be based on the use of the peer average
reserve coverage of nonperforming loans.

The examiner used the following peer group averages and reserve percentages in performing the
analysis:

    •   All California institutions – 175 percent (Population of 301 banks),
    •   All California banks with total assets less than $3 billion – 200 percent (Population of 288
        banks),
    •   All California banks with total assets greater than $3 billion – 166 percent (Population of 12
        banks),
    •   San Francisco Region, all banks with the same charter – 187 percent (Population of 130 banks
        – Charter used was ‘State Member,’ the Charter of SPB was ‘State Non-Member,’ with a
        reserve coverage of 173 percent),
    •   San Francisco Region, all banks with a composite rating of 4 – 88 percent (Population of 8
        banks), and
    •   San Francisco Region, all banks with a composite rating of 5 – 214 percent (Population of 1
        bank).

The examiner also performed a verification of the percentages by utilizing the following peer group
averages:

    •   Kansas City Region, by CAMEL Rating – 77 percent,
    •   Kansas City Region, by Class – 206 percent,
    •   Kansas City Region, by Asset Size – 223 percent,
    •   Dallas Region, by Class – 122 percent,
                                                   52
    •   Dallas Region, all banks with a composite rating of 4 – 70 percent, and
    •   Dallas Region, all banks with a composite rating of 5 – 194 percent,

However, the examiner discounted the above data. The examiner’s workpapers noted:

        The results of this peer comparison ranged from $67 million to $215 million. The range was too
        wide to be useful and research indicated a lack of institutions with the subject’s characteristics.
        For example, San Francisco Region (Dallas Region) peer data showed 4 rated banks retained
        an ALLL equivalent to 69.50 percent of nonperforming loans, however, 5 rated banks in the
        Region retained ALLL coverage of 194.24 percent. This appears contradictory. Applied to
        the level of nonperforming loans at the subject on the examination date of $97 million, this would
        indicate an ALLL range of $67 million to $188 million.

As a result, the examiners noted that their “… preference in measuring ALLL adequacy under this
technique is to assure a minimum of 100 percent coverage of nonperforming loans. This is a ‘rule of
thumb’ used by market analysis.” The examiner’s analysis was flawed due to the limited population of
composite 4 and 5 rated banks. As noted above, the San Francisco Region had only eight banks with a
composite 4 rating and 1 bank with a composite 5 rating. By eliminating those two comparisons, the
variance note by the examiner (an ALLL range of $67 million to $188 million, or a difference of
$121 million) is significantly reduced (an ALLL range of $161 million to $194 million, or a difference of
$33 million) and the analysis would have shown that the allowance was underfunded by a minimum of
about $92 million (nonperforming loans of $97 million multiplied by 166 percent, equals a reserve
coverage of $161 million, less the outstanding reserve balance of $69 million, equals a shortfall of
$92 million). Also of note, for the year ended 2002, SPB’s actual net loan losses equaled $94 million.

Of the remaining two sets of workpapers, one set contained peer average statistical data beyond the
Uniform Bank Performance Report. However, no analysis of this data was evident. The second set of
workpapers stipulated the examiners’ acceptance of management’s methodology, and the examiners
limited their analysis to applying their loan classifications to the bank’s methodology. Examiners stated
that generally this particular bank did not have any meaningful peer group from which to formulate useful
comparisons.

Based on our review of the bank’s Quarterly Allowance Analysis reports, the bank did not perform a
ratio comparison of the bank’s allowance position against peer group averages. In addition, the analysis
performed on nonaccrual loans was limited to a discussion of the level and trend of these assets. The
bank did not perform an analysis on these loans, as a portfolio, that supplemented the determination of
the ALLL’s adequacy.

The examiners’ limited use and analysis of peer group averages resulted from a misunderstanding of the
value that the data can provide in assessing the adequacy of the ALLL. Also to a limited extent, based
on the one set of workpapers that indicated a preference of ensuring a minimum coverage of 100
percent of nonperforming loans, the examiners may have lacked a contextual understanding of the
purpose and use of these ratios. In particular, the purpose of performing this analysis appears to be
directed at ensuring the adequacy of the whole loan portfolio (by using a multiplier) rather than just


                                                   53
ensuring the ALLL coverage of those individual loans that are on nonaccrual status, as was done by the
examiner.

As illustrated in Figures 10, 11, and 12, a significant disparity existed between the bank’s position and
that of the peer group average. As a result, the ALLL had been understated for an extended period.
This, in turn, indicates that both net income and capital were overstated, potentially delaying regulatory
corrective action.

        Use of Historical Loan Loss Averages

The reports of examination and the workpapers for the June 2000, January 2001, and February 2002
examinations, showed that examiners performed limited analysis on the verification or determination of
the bank’s historical loan loss averages in assessing the bank’s ALLL and in assigning a reserve
percentage for non-adversely classified loans. Although the reports of examination noted that the bank
applied historical loss percentages to classified and non-classified segments of the loan portfolio, limited
analysis was performed on the appropriateness of how these percentages were applied in the ALLL. In
general, examiners stated that they did not recall how or how closely the loss percentages and averages
were reviewed. One examiner stated that, at any bank, in general, examiners would “eye ball” the ratios
for reasonableness. Regional Office management expressed concern about the potential for “double
counting” and the need to discount the ratio, if a straight/unadjusted historical loss average was used in
conjunction with assigning loss exposure estimates to adversely classified loans. While this would be a
potentially valid concern in an institution with a static or improving loan portfolio, it would not be valid in
an institution with a deteriorating asset quality position. Furthermore, while bank management asserted,
based on the ROEs, that the initial losses experienced in CBCs were temporary, one-time events, no
analysis was presented to demonstrate how this would have discounted or adjusted the historical net
loss average, or even whether it should be considered.

FDIC’s Statement of Policy entitled, Interagency Policy Statement on the Allowance for Loan and
Lease Losses (ALLL), dated December 21, 1993, and the Loan Portfolio Management and Review:
General Examination Documentation module, Expanded Analysis, require that examiners determine an
appropriate ALLL level by comparing the reported ALLL (after deduction of all loans, or portions
thereof, classified Loss) against the sum of the following amounts:

    •   Fifty percent of the portfolio that is classified Doubtful.
    •   Fifteen percent of the portfolio that is classified Substandard.
    •   For the portions of the portfolio that have not been adversely classified (including those loans
        designated Special Mention), estimated credit losses over the upcoming 12 months (based on
        the institution’s average annual rate of net charge-offs experienced over the previous 2 or 3
        years on similar loans, adjusted for current conditions and trends).




                                                      54
The Expanded Analysis procedures also require examiners to determine an appropriate reserve level by
determining whether the ALLL is sufficient to cover all the following risks:35

     •   Any losses on loans accorded Loss classifications (in whole or in part) that have not yet been
         charged off.
     •   Estimated probable losses for all loans accorded Doubtful classifications (without partial Loss
         classification).
     •   Estimated probable losses for all remaining adversely classified loans (without partial Loss or
         Doubtful classification).
     •   Other problem loans (either individually or in pools).
     •   Estimated probable losses for the remaining categories of loans in the portfolio.
     •   Supplemental amount for unidentified loan portfolio losses.

For safety and soundness examinations, FDIC’s Manual of Examination Policies defines the term
estimated credit losses as:

         … an estimate of the current amount of the loan and lease portfolio (net of unearned income)
         that is not likely to be collected; that is, net charge-offs that are likely to be realized for a loan,
         or pool of loans. The estimated credit losses should meet the criteria for accrual of a loss
         contingency ( i.e., a provision to the ALLL) set forth in generally accepted accounting principals
         (GAAP). When available information confirms specific loans and leases, or portions thereof, to
         be uncollectible, these amounts should be promptly charged off against the ALLL … Estimated
         credit losses should reflect consideration of all significant factors that affect repayment as of the
         evaluation date. Estimated losses on loan pools should reflect historical net charge-off levels for
         similar loans, adjusted for changes in current conditions or other relevant factors. Calculation of
         historical charge-off rates can range from a simple average of net charge-offs over a relevant
         period, to more complex techniques, such as migration analysis.

Based on the opinion of FDIC’s Accounting Section, the terms estimated credit losses and estimated
probable losses as used in the two Expanded Analysis methodologies noted previously have the same
meaning. FDIC’s Accounting Section also noted the following, which is also discussed in the
Interagency Policy Statement:

         … this calculation should only be considered a starting point for an examiner’s analysis of ALLL
         adequacy. The Interagency Policy Statement indicates that the calculation is a test of
         ‘reasonableness’ and that the amount calculated is ‘neither a “floor” nor a “safe harbor” level for
         an institution’s ALLL. Therefore, a shortfall relative to this amount does not necessarily indicate
         that an ALLL is inadequate. Rather, a shortfall indicates that the examiner must review
         management’s methodology more closely before making a determination about ALLL
         adequacy. At the same time, an ALLL in excess of the amount derived from this calculation
         does not necessarily indicate that the ALLL is adequate and does not relieve the examiner of the


35
 Based on discussions with FDIC regional office managers and examiners, more weight is assigned to this particular
methodology than to the others in determining the adequacy of the ALLL.


                                                       55
               responsibility to ensure that an institution’s methodology is appropriate given the specific risk
               characteristics of the institution.

Based on our review of the reserve percentages used to provide for an allowance for non-adversely
classified loans and leases, the allowance was deficient. Figures 13 and 14 show the disparity in the
bank’s reserve allocation to those loans classified as Pass in comparison to the total loan portfolio’s
historical net loss averages. Figure 13 provides a comparison based on the total loan portfolio, and
Figure 14 provides a comparison based only on the CBC loan portfolio. The figures show that the
reserve percentage applied by the bank had only a nominal correlation to the actual and historical
average loss rates that SPB was experiencing. The reserve percentage applied to the total loan
portfolio (for non-adversely classified loans, excluding watch list/special mention loans) rose above 1
percent only in 2000 and 2001. In 2001, the reserve percentage equaled 1.7 percent, an increase of
42 basis points36 over the previous year’s percentage. This level, however, was 335 basis points below
the 3-year historical net loss average. For the same period, CBC’s reserve percentage rose to 3.7
percent, an increase of 235 basis points over the previous year’s percentage. This level was 358 basis
points below the 3-year historical net loss average.

 Figure 13: Historical Loss Averages in Comparison to Reserve
            Percentages for Non-Adversely Classified Loans

               10
                9                                                                                Reserve Percentage
                8                                                                                Applied
                7
                                                                                                 3-Year Historical Net
                6                                                                                Loss Average
     Percent




                5
                                                                                                 2-Year Historical Net
                4                                                                                Loss Average
                                                                                                 Average
                3
                                                                                                 Net Annual Loss
                2                                                                                Percentage
                1
                0
                     1996


                              1997


                                       1998


                                                1999


                                                          2000


                                                                      2001


                                                                              2002




Source: OIG analysis of Uniform Bank Performance Reports and Southern Pacific Bank’s Quarterly Allowance Analysis. All
data was provided as of year-end, except for the Quarterly Allowance Analysis reports for 1999 and 2002. The corresponding
dates used were September 30, 1999 and November 30, 2002, respectively. Only loans designated as a Pass were considered;
watch/special mention loans were excluded.




36
   Barron’s Business Guides Dictionary of Banking Terms describes a basis point as the smallest measure in quoting
yields, equal to one one-hundredth of one percentage point, or .01 percent. A bond whose yield to maturity changes
from 8.50 percent to 9.25 percent is said to move 75 basis points in yield.


                                                                 56
Figure 14: CBC’s Historical Loss Averages in Comparison to
           Reserve Percentages for Non-Adversely Classified Loans*

              14

              12
                                                                                                 Reserve Percentage
                                                                                                 Applied
              10

                                                                                                 3-Year Historical Net
               8
    Percent




                                                                                                 Loss Average

               6                                                                                 2-Year Historical Net
                                                                                                 Loss Average
               4
                                                                                                 Net Annual Loss
               2                                                                                 Percentage


               0
                   1996


                           1997


                                     1998


                                               1999


                                                         2000


                                                                     2001


                                                                              2002
 Source: OIG analysis of Uniform Bank Performance Reports and Southern Pacific Bank’s Quarterly Allowance Analysis. All
 data was provided as of year-end, except for the Quarterly Allowance Analysis reports for 1999 and 2002. The corresponding
 dates used were September 30, 1999 and November 30, 2002, respectively. Only loans designated as a Pass were considered;
 watch list/special mention loans were excluded.

 *Coast Business Credit’s Net Annual Loss Percentage was based on the Uniform Bank Performance Report line item “Net
 Losses by Type of LN&LS – Commercial and Industrial Loans.”


Figure 15 shows the effect that the use of historical net loss averages would have had on the bank’s Tier
1 Leverage Capital ratio based on CBC’s reserve differentials. The percentages in Figure 15 do not
include any qualitative adjustments that may have been deemed necessary by the OIG. Additionally, the
percentages do not incorporate examination specific adjustments, unless the bank’s Call Reports and
Uniform Bank Performance Reports were revised. For Prompt Corrective Action purposes, as of
December 31, 2000, the bank would have been designated as either critically undercapitalized based on
the use of the 2-year historical net loss average or significantly undercapitalized based on the use of the
3-year historical net loss average. As of December 31, 2001, the bank would have been designated as
significantly undercapitalized based on either average. As of December 31, 2002, the bank would then
have been designated as critically undercapitalized based on either average. The unadjusted basis
would indicate that capital was undercapitalized for year-end 2000 and 2001, and that capital was
significantly undercapitalized for the year-end 2002. The January 2001, February 2002, and
November 2002 Reports of Examination designated the bank’s capital as significantly undercapitalized,
undercapitalized, and significantly undercapitalized, respectively. If watch list/special mention loans
were included in the analysis, Tier 1 Leverage Capital ratios would decline an additional 6 to 52 basis
points for the years ended 2000 to 2002.




                                                                57
 Figure 15: Impact to the Tier 1 Leverage Capital Ratio

             10
              9
              8
              7                                                                           Adjusted 3-Year
                                                                                          Loss History
              6
   Percent




                                                                                          Adjusted 2-Year
              5
                                                                                          Loss History
              4
                                                                                          Unadjusted Basis
              3
              2
              1
              0
                   1996



                            1997



                                     1998



                                              1999



                                                       2000



                                                                2001



                                                                         2002
 Source: OIG analysis of Uniform Bank Performance Reports and Southern Pacific Bank’s Quarterly Allowance
         Analysis .


Based on our review of the reports of examination, the FDIC examiners did not provide a detailed
description or analysis of the historical loan loss averages. Generally the reports of examination did note
that the bank applied historical loss percentages to classified and non-classified segments of the loan
portfolio. However, as shown in the figures above, from 1999 to 2002, the percentages applied to
non-classified loans appear deficient. From 1996 to 1999, CBC’s annual loan losses were minimal due
to the limited maturity and significant growth of the portfolio. In addition, starting with the May 1998
ROE, the reports typically noted that management used three methods to calculate the adequacy of the
ALLL. Those methods were identified as the Exposure Method, the Formula Method, and the
Historical Charge-Off Analysis Method. The examiners also noted that different loan types were
analyzed separately to properly reserve for their respective risks. The later ROEs noted that the bank’s
quarterly review relied more heavily on the loss exposure method for individual credits but also
considered historical loss experience, trends in delinquent and nonaccrual loans, concentrations, and
prospective economic conditions. In addition, the following observations were noted:

      •       In the January 1996 ROE, examiners noted that the historical loss percentages appeared
              reasonable and supportable and that the historical loan losses were very low. The examiners
              also recognized that the bank was moving into several new areas of lending and that the
              previous method of relying on historical loss averages should be amended to consider the new
              lending activities.
      •       In the June 1999 ROE, the examiners noted that the reserve allocations for Pass loans and
              Other Assets Especially Mentioned were raised by management during the examination to 1.0
              percent and 3.0 percent, respectively, from a 0.9 percent allocation. However, no
              accompanying analysis was provided to support this change or to justify its sufficiency.
      •       In the January 2001 ROE, the examiners noted that management believed that the previous
              year’s losses were an aberration and that considering the apparent improvement in credit and
              problem asset administration, the losses were not considered to have predictive value.
              Regardless, examiners attributed to the allowance an allocation of 2 percent against those loans

                                                         58
        classified as Pass in contrast to the bank’s allocation of 1.5 percent. The examiners justified the
        higher allocation factors based on examiner analysis and an attempt to recognize loss experience
        without over-weighting calendar year 2000 losses.
    •   The February 2002 and November 2002 ROEs, noted that the bank’s historical loss analysis
        was considered somewhat flawed due to the lack of documentation supporting the internal
        allocations. However, both reports also noted that this did not detract from the overall
        methodology. The February 2002 report also detailed that management applied a 3-percent
        reserve factor to all non-classified technology and telecommunication loans and a reserve factor
        of 1.5 percent to the remaining Pass loans at Coast Business Credit. The examiners also noted
        that the total reserve for all technology loans was 7.5 percent and that this factor was well
        below the bank’s historical average annual loss rate of 24 percent.

Based on our review of DSC’s workpapers for the June 2000, January 2001, and February 2002
examinations, examiners did not appropriately compute and/or apply the historical loan loss average to
loans that were not adversely classified. Based on a review of the February 2002 examination
workpapers, examiners accurately calculated the 3-year historical net loss average and correctly applied
that percentage to the Regulatory Test methodology. The Regulatory Test method applies a formulaic
approach to establishing reserves based on the classification category. However, when performing the
Exposure Analysis, the examiners utilized the bank’s reserve factors. Based on our analysis, as of the
February 2002 examination date, the ALLL was underfunded by an additional $25 million. Of the
remaining two sets of workpapers, no analysis of this data was evident. However, as noted above, the
January 2001 ROE noted and the examination workpapers showed that the examiners did apply a
slightly higher reserve percentage to those Coast Business Credit loans that were not adversely
classified. The examiners applied a 2-percent reserve factor, while the actual 3-year historical net loss
average equaled 4.54 percent .

Based on our review of the bank’s Quarterly Allowance Analysis reports, the bank did prepare a trend
analysis of aggregate loan losses. However, a direct correlation to the reserve ratios applied to non-
adversely classified loans was not provided. In addition, no analysis was performed on these loss
factors that supplemented the determination of the ALLL’s adequacy. Also of note, the Quarterly
Allowance Analysis reports reference a KPMG survey and historical trends report as support for the
reserve percentages used. Most of the examiners did not recall reviewing or obtaining that particular
report. A few examiners noted that no reliance would have been placed on that data if it had been
obtained. One examiner stated that the information was considered and that the KPMG loss rate
information was based on early data relative to the decline in technology, telecommunications, and
aircraft sectors; however, the survey and workpapers were not retained to document this review.

The limited determination and analysis of historical loss averages can be attributed to the lack of clarity
in outstanding policies and procedures on the appropriate use of these reserve factors in assessing and
establishing an allowance for non-adversely classified loans.
As illustrated in Figures 13 and 14, a significant disparity existed between the bank’s reserve
percentages and that of the historical loss averages. As a result, based on the OIG’s analysis, the
ALLL has been understated since December 31, 2000. This, in turn, indicates that both net income and
capital were overstated.


                                                    59
        Use and Quantification of Qualitative Risk Factors

Several qualitative risk factors were present that were not fully considered or quantified in the
determination of the ALLL adequacy. In particular, risk factors existed such as new areas of lending,
new management, high loan growth, and concentrations of credit. Due to the presence of these risk
factors, additional reserves were needed to mitigate the corresponding risk. The lack of consideration
and quantification of these factors resulted in the ALLL being underfunded.

FDIC’s Manual of Examination Policies for safety and soundness examinations states that

        Estimated credit losses should reflect consideration of all significant factors that affect repayment
        as of the evaluation date. Estimated losses on loan pools should reflect historical net charge-off
        levels for similar loans, adjusted for changes in current conditions or other relevant factors.”
        The manual further states that, “Estimated credit losses should reflect consideration of all
        significant factors that affect collectibility of the portfolio as of the evaluation date. While
        historical loss experience provides a reasonable starting point, historical losses, or even recent
        trends in losses, are not by themselves, a sufficient basis to determine an adequate level.
        Management should also consider any factors that are likely to cause estimated losses to differ
        from historical loss experience, including but not limited to:

            • Changes in lending policies and procedures, including underwriting, collection, charge-
            off, and recovery practices.
            • Changes in local and national economic and business conditions.
            • Changes in the volume or type of credit extended.
            • Changes in the experience, ability, and depth of lending management.
            • Changes in the volume and severity of past due, nonaccrual, restructured, or classified
                 loans.
            • Changes in the quality of an institution's loan review system or the degree of oversight
                 by the Board of Directors.
            • The existence of, or changes in the level of, any concentrations of credit.

The Core Analysis procedures of the Loan Portfolio Management and Review: General Examination
Documentation module instruct examiners, in part, to determine whether management considers any
factors that are likely to cause estimated credit losses to differ from historical loss experience including,
but not limited to, changes in the nature and volume of the portfolio and the existence and effect of any
concentrations of credit and changes in the level of such concentrations.

The Expanded Analysis procedures of the Loan Portfolio Management and Review: General
Examination Documentation module instruct examiners, in part, to determine an appropriate ALLL level
and to consider the following factors to determine an appropriate percentage for non-classified loans (a
partial listing of items is provided):




                                                     60
    •   Expertise, training, and adequacy of loan staff.
    •   Adequacy of charge-off policies.
    •   Capitalization of interest.
    •   Level and trend of overdue and nonaccrual loans.
    •   General economic considerations (local, state, regional, national).
    •   Growth trends.
    •   Entry into new areas of lending.

FDIC’s Statement of Policy entitled, Interagency Policy Statement on the Allowance for Loan and
Lease Losses (ALLL), dated December 21, 1993 states, in reference to the use of historical net loss
averages, that, “In cases where the institution has an insufficient basis for determining this amount, the
examiner may apply the industry-average net charge-off rate to non-classified loans and leases.”

While examiners recognized and reported on the presence of several qualitative risk factors such as new
areas of lending, new management, high loan growth, and concentrations of credit, examiners took
limited action in considering and quantifying these risks in the assessment of the ALLL. However,
based on examiner testimony, a qualitative adjustment was made for the existence of loan
concentrations, as a noted risk factor during the February 2002 examination. However, this adjustment
was embedded in the examiners’ assigned loan loss reserve percentages that were applied to adversely
classified credits on an individual basis. No workpaper documentation was produced to show the
effect of this adjustment or how this reserve factor adjustment was determined.

Based on our review of the bank’s Quarterly Reserve Analysis reports, the qualitative factors noted
above were not used by SPB in the determination of the ALLL. As of December 2000, the reserve
analysis performed by the bank did consider present and prospective economic conditions and loan
concentrations; however, these risk factors were not used to formulate or support quantifiable
adjustments to the reserve balance. In particular, the most complete discussion was the bank’s analysis
of loan concentrations. As of December 2001, this analysis included a discussion of each particular
industry; a break-down of loans adversely and non-adversely classified; the assignment of individual
reserve allocations to each loan; and on a limited basis, the aggregate amount of reserves assigned to
each concentration in comparison to historical losses. The concentration listing showed that Pass loans
were assigned a reserve allocation of 3 percent, watch list loans were assigned a reserve allocation of 3
to 5 percent, Substandard loans were assigned a reserve allocation of 15 to 25 percent, and Doubtful
loans were assigned a reserve allocation of 50 percent. The bank’s analysis also stated that, “The total
reserve for all technology loans now stands at $3.9 million, or 7.5 percent of outstandings. The 7.5
percent factor is below the bank’s historical average yearly loss rate of 24 percent for technology loans;
however, much of the loss exposure has been either charged-off or provided for…” However, no
support was presented and no discussion detailed how the percentages were formulated or how they
were adjusted for the increased risk factor of the loans being a part of a concentration.

The February 2002 ROE noted under the bank’s Exposure Method for the Coast Business Credit loan
portfolio that:



                                                    61
        Management does not have documented support for reserve allocations for loans at CBC.
        Management applies a 3 percent reserve factor to all non-classified technology and telecom
        loans and a reserve factor of 1.5 percent to the remaining pass loans at Coast. In general, all
        pass and watch-graded telecommunications and technology loans receive a 3 percent to 5
        percent reserve factor, respectively…When asked whether there was documented support for
        using the 3 percent to 5 percent reserve factors and the 1.5 percent reserve factor for the
        remaining pass credits, (management) indicated that there was not.

Based on these comments, the analysis of allocating reserve percentages appears to have been
determined based only on the assessment of credit quality and not from the existence of the
concentration as a qualitative risk.

Due to the lack of analysis and consideration of several qualitative risk factors, the ALLL was
underfunded for an extended time. As a result, both net income and capital were overstated. In
addition, the failure to encourage proper risk management and risk mitigation through the identification
and quantification of risk allowed management to pursue a significant level of aggressive growth within
certain business lines. In general, if DSC pursued a more conservative approach in assessing the
adequacy of the bank’s ALLL by quantifying and reserving for the qualitative risk present, then
management may have slowed its growth strategies and limited the potential risk and loss to the BIF.

DSC has provided guidance to examiners on assessing the adequacy of a bank’s ALLL through various
sources, including, but not limited to, the FDIC’s Examination Documentation modules, Manual of
Examination Policies, Regional Directors Memoranda, and Statements of Policy. However, DSC’s
policies and procedures do not specifically detail how examiners should make the determination that
estimated loan losses might differ from the bank’s historical loss experience and from the bank’s
assumptions utilized within its methodology of determining the ALLL. In addition, the OIG has also
recently issued an audit report entitled Examiner Assessment of High Loan-Growth Institutions,
dated December 23, 2002. In that report, the OIG presented six recommendations for enhancing
DSC’s assessment of high loan-growth institutions. The findings and recommendations in that report
may assist in developing further guidance for examiners in measuring and quantifying qualitative risk.




                                                   62
        Recommendations

We recommend that the Director, DSC:

    (4) Emphasize the importance of following existing procedures on the use and analysis of peer
        average data in review of the ALLL.

    (5) Reinforce and/or clarify existing guidance on the use of historical loss reserve factors for non-
        adversely classified loans.

    (6) Reinforce and/or clarify existing guidance on the application and quantification of qualitative
        adjustments to the loan loss reserve factors or to the determination of capital adequacy.


Implementation of Prompt Corrective Action

DSC implemented Prompt Corrective Action (PCA) in accordance with regulatory guidelines. As
SPB’s capital deteriorated, the bank was notified of its designated capital category, and DSC promptly
took discretionary actions available under PCA. However, PCA’s effectiveness at minimizing losses to
the insurance fund was limited because of the bank’s delay in and failure to make provision for an
adequate allowance for loan losses, to enforce programs for repayment of loans, and to promptly
recognize loan losses. Due to these activities, both net income and capital were overstated.

PCA was incorporated into the FDI Act under Section 38, effective December 19, 1992. PCA aims
to resolve the problems of insured depository institutions at the least possible long-term loss to the
deposit insurance fund. For those institutions that do not meet minimal capital standards, regulators may
impose restrictions on dividend payments, limit management fees, curtail asset growth, and restrict
activities that pose excessive risk to the institution. Section 38 of the FDI Act, codified to 12 U.S.C.
1831o, defines five capital categories for insured financial institutions as follows: well-capitalized,
adequately capitalized, undercapitalized, significantly undercapitalized, and critically undercapitalized.
The section requires specific supervisory actions to occur when the financial institutions fall into any one
of the lower three capital categories. PCA supplements the use of other available enforcement tools,
such as Cease and Desist Orders, removal of an institution-affiliated party, and civil money penalties that
may address unsafe and unsound banking practices before capital becomes impaired.

Section 38(f)(2) of the FDI Act requires the appropriate federal banking agency to take one or more of
the actions listed in that section against institutions which are significantly undercapitalized or
undercapitalized institutions which have failed to file or implement a capital restoration plan. The
mandatory restrictions may be embodied in an action taken pursuant to section 8 of the FDI Act,
codified to 12 U.S.C. §1818, or in a PCA directive. Regardless of the enforcement tool used to
achieve the desired result, every critically undercapitalized, significantly undercapitalized, or
undercapitalized institution that has failed to file or implement an acceptable capital restoration plan must
have a formal action in place or in process that covers the mandatory restrictions. Such formal action
can be avoided only if the FDIC Board is able to make a determination that the action would not further
                                                     63
the purpose of section 38. (See Prompt Corrective Action (PCA) in the glossary for an explanation of
the various PCA capital categories and corresponding ratio measurements.)

Table 12 shows the examiner’s assigned capital component ratings and the corresponding informal and
formal enforcement action taken by DSC based on the ROEs from May 1998 to November 2002.
Capital and ALLL provisions are also listed in part.

Table 12: Informal and Formal Enforcement Actions – Capital and ALLL Provisions
                 PCA           Capital       Informal / Formal
  Exam          Capital      Component          Action and
  Date         Category        Rating          Effective Date          Capital and ALLL Provisions
                                                                     - Maintain the minimum risk-based
                                           Memorandum of
                 Well                                                  capital requirements for a Well
 May 1998                          3       Understanding (MOU)
               Capitalized                                             Capitalized institution.
                                           January 7, 1999
                                                                     - Maintain an adequate ALLL.
                                           Bank Board Resolution
              Adequately                                             MOU provisions continued.
 June 1999                         3       (BBR) January 26, 2000
              Capitalized                                            No capital or ALLL provisions in BBR.
                                           and MOU continued

                                                                     - Tier 1 Leverage Capital ratio of 9%.
              Adequately                   Cease and Desist Order
 June 2000                         3                                 - Total Risk Based Capital ratio of 12%.
              Capitalized                  December 15, 2000
                                                                     - Maintain an adequate ALLL
              Significantly
                                           Cease and Desist Order
 Jan. 2001       Under-             4                                C&D Order provisions continued.
                                           continued
               capitalized
                 Under-                    Cease and Desist Order
 Feb. 2002                          5                                C&D Order provisions continued.
               capitalized                 continued
              Significantly
                                           Cease and Desist Order
 Nov. 2002       Under-             5                                C&D Order provisions continued.
                                           continued
               capitalized
Source: FDIC reports of examination.


Based on the reports of examination, SPB was first identified by examiners as having less than
satisfactory (rated 3) capital at the May 1998 examination. During this examination, concern was noted
due to the severity of accounting deficiencies and to the unrestrained asset growth. In the June 1999
and June 2000 examinations, capital continued to be considered less than satisfactory due to the relative
risk in the bank’s asset base and the subsequent deterioration in asset quality and earnings, respectively.
In the January 2001 examination, capital deteriorated and was considered to be inadequate (rated 4) as
a result of the bank’s poor asset quality and poor earnings performance. In the February 2002 and
November 2002 examinations, capital was downgraded further to a 5 rating due to the noted depletion
of capital levels caused by excessive operating and loan losses.

From 1998 to 2002, the FDIC issued one Memorandum of Understanding and one Cease and Desist
Order. The state also issued a Final Order that was similar to FDIC’s Cease and Desist Order. In
addition, the bank’s Board of Directors adopted a Board Resolution to address concerns in the June
1999 ROE. The issuance of the Memorandum of Understanding and Cease and Desist Order
implemented PCA actions and imposed restrictions before it was applicable.


                                                    64
In February 2002, management was notified that the bank was undercapitalized for PCA purposes, was
subject to certain restrictions, and was required to submit a capital plan to the FDIC within 30 days.
PCA notifications are also considered formal enforcement actions. The recapitalization plan was
required by March 2002, and FDIC subsequently approved the submitted plan in May 2002.
However, in July 2002, FDIC notified the bank that it had failed to implement the capital plan
requirements and that the bank was deemed to be significantly undercapitalized for PCA purposes. A
revised capital plan was requested and subsequently submitted in November 2002. The revised capital
plan was not approved by FDIC. Also in November 2002, the state issued a capital demand
requesting the bank to increase capital levels to an 8.5 percent tangible equity capital ratio, a minimum
of $54 million. In February 2003, the bank was closed by the state.

Since January 1998, $110.8 million in capital infusions and $14 million in non-cumulative preferred stock
were received by SPB, while $7.7 million in dividends were paid out. The majority of these capital
infusions was received in 2001 and 2002 and totaled $86.3 million. Despite these capital infusions from
the holding company, capital continued to deteriorate and the bank failed to meet the capital provisions
contained in the outstanding Cease and Desist Order and approved capital plan.

PCA’s effectiveness at minimizing losses to the insurance fund was limited because of the bank’s failure
to make provision for an adequate ALLL, enforce programs for repayment of loans, and promptly
recognize loan losses. As a result, both net income and capital were overstated for an extended period.
Furthermore, more capital was needed than the regulatory minimums established for the capital category
of well capitalized. As discussed elsewhere in this report, a Tier 1 Leverage Capital ratio in the range of
11 to 12 percent was needed based on the results of applying a 20-percent capitalization rate to the
bank’s loan portfolio of commercial and industrial loans. Had this study been conducted and applied to
the bank earlier, and in conjunction with establishing a more conservative ALLL, bank management may
have slowed the growth of the commercial and industrial loan portfolio, thus limiting losses to the bank
and ultimately to the deposit insurance fund. Also of note, had these standards been applied earlier,
additional funds may have been provided by the holding company to bolster operations that were not
available in the later years. Had additional funds been made available to SPB in the form of higher
reserves and capital coverage, then the failure of the institution could have been prevented and/or the
losses to the insurance fund reduced.

Regardless, the effectiveness of implementing PCA was delayed, and when PCA was implemented, the
financial condition of the institution had deteriorated so significantly that a sizable capital contribution
would have been necessary to save the institution, thus limiting potential corrective action.




                                                    65
Other Issue : Federal Oversight of ILC Parent Holding Companies

Of the 10 material loss reviews we have conducted, this is the second involving industrial loan
companies – the 1999 failure of Pacific Thrift and Loan was the other. In the case of SPB, its parent
holding company, ICII, was not subject to the regulatory oversight provided under the BHCA.
However, the FDIC was authorized by law to examine any affiliate of SPB, including its parent
company, to determine the relationship between SPB and its parent/affiliate and the effect of such a
relationship on the bank. Our report contrasts the oversight and authority provided under the BHCA
with that which is available by statute to FDIC for parent holding companies of industrial loan
companies such as ICII. We also intend to conduct an audit specifically focusing on non-bank bank
holding companies and the potential risks, if any, which may result from the reduced level of federal
oversight for holding companies not covered by the BHCA.

        ILC History

ILCs have existed since the early 1900s. Initially, ILCs operated as consumer finance companies using
their own capital or borrowings to fund their loans and investments. The ILCs usually made lower
quality, higher-interest-rate consumer loans, which the commercial banks avoided. The ILCs offered
“thrift instruments” which performed much as modern certificates of deposits, but with a high rate of
interest that attracted investors. Even after the establishment of the FDIC in 1934, investors continued
to seek the ILCs above market rates on their investments. Over time, the ILCs became more like
banks, while commercial banks eventually grew to recognize the value of the consumer loan market. In
1982, the Garn-St. Germain Depository Act permitted ILCs to apply for FDIC insurance.

In the mid-1980s, a major business conglomerate, Gulf and Western Resources, Inc., observed that the
BHCA defined a bank as an entity that made commercial loans and accepted demand deposits. This
conglomerate opined that if it created a corporation that did only one of these things, that entity would
not be a “bank” and, furthermore, its parent company would not be a bank holding company and,
therefore, would not be subject to the activity limitations contained in the BHCA. National or state
chartered banks that accepted demand deposits or made commercial loans, but not both, became
known as “nonbank banks.” ILCs were included in this category, making them an appealing option for
commercial companies that could not otherwise get into the banking business due to federal restrictions.

Subsequently, the Competitive Equality Banking Act of 1987 (CEBA), Public Law 100-86, changed
the definition of bank to an institution that has FDIC insurance or accepts deposits and engages in the
business of making commercial loans. CEBA redefined the term bank for the purposes of BHCA to
include any bank insured by the FDIC, but at the same time expressly excluded certain institutions from
the definition of bank. Excluded are ILCs, industrial banks, and other similar institutions that meet
certain criteria. The Gramm-Leach-Bliley Act of 1999 (GLBA), Public Law 106-102, did not repeal
the ILC exception contained in the BHCA. Generally, in order to maintain the exemption to the BHCA,
an ILC had to meet at least one of the following conditions: (1) the institution could not accept demand
deposits, (2) the institution’s total assets had to be less than $100 million, or (3) control of the institution
had not been acquired after August 10, 1987. SPB and its parent holding company, ICII, were
grandfathered and exempted from the BHCA.


                                                      66
One of the values in the ILC charter lay in its exemption from the BHCA. Today, the ILC has become
an attractive charter for nonbank companies that want to own a financial institution without requiring the
parent company to divest all nonbank-related activities as required by the BHCA and face regulation by
the Federal Reserve. The authority of the ILC to engage in activities is determined by the laws of the
chartering state. There is no federal charter for an ILC. ILCs can offer most of the services of
traditional banks including consumer and business loans, credit cards and auto financing without having
to face regulation by the Federal Reserve. There are a minority of states that offer ILC charters
including California, Colorado, Hawaii, Indiana, Minnesota, Nevada and Utah. About 50 insured ILCs
operate nationwide, with the majority operating in Utah and California. The parent companies of the
ILCs include a diverse group of financial and commercial firms; however, a number of institutions
continue to operate a community-based business model on a stand-alone basis.

            FDIC’s Regulatory Authority

Beginning in 1983, FDIC-insured ILCs increased as a number of existing ILCs obtained FDIC
insurance coverage and several de novo applications were approved. ILCs became subject to the
FDIC’s safety and soundness regulations and other supervisory programs with exception to limitations
in its cross-guarantee authority and Golden Parachute authority. 37 The FDIC and the state banking
regulator conduct the safety and soundness examination for FDIC-insured, state chartered institutions,
including ILCs, which are not members of the Federal Reserve System. FDIC regulates ILCs in the
same manner as other state nonmember institutions, and ILCs receive regular examinations.

The insured institution’s transactions with affiliates are reviewed during each safety and soundness
examination when deemed necessary. Sections 23A and 23B of the Federal Reserve Act, which are
applicable to state nonmember banks through section 18(j) of the FDI Act, are the primary statutes
governing transactions between a financial institution and its affiliates and are designed to prevent the
misuse of a bank’s resources stemming from these transactions. Section 23A regulates loans or
extensions of credit to affiliated organizations and investments in affiliates by restricting the amount of
loans, extensions of credit, and investments,38 and requiring that the loans or extensions of credit meet
certain collateral standards. Section 23B generally prohibits any transaction with an affiliate on terms or
conditions less favorable to the bank than a transaction with an unrelated third party.

Affiliate transactions are specifically addressed within the FDIC’s Manual of Examination Policies and
on-site examination tools. The FDIC’s Manual of Examination Policies provides the following
cautionary introduction to a discussion regarding relationships and transactions with affiliated entities:




37
     Legislative corrections are being pursued in the proposed Financial Services Relief Act of 2003.

38
  Section 23A of the Federal Reserve Act limits the aggregate of all covered transactions between a bank and (1) a
particular affiliate to 10 percent of the bank’s capital stock and surplus, and (2) all of its affiliates to 20 percent of the
bank’s capital stock and surplus.


                                                              67
        The relationship of a bank with its affiliated organizations is important to an analysis of the
        condition of the bank itself. Because of the commonality of ownership or management which
        exists, transactions with affiliates may not be subject to the same sort of objective analysis that
        exists in transactions between independent parties. Also, affiliates offer an opportunity to
        engage in types of business endeavors which are prohibited to the bank itself yet those
        endeavors may affect the condition of the bank. In recognition of the importance of
        relationships with affiliated organizations the FDIC has been granted authority, under certain
        conditions, to examine affiliates in connection with its examination of a bank.

At the initiation of each on-site examination, the FDIC submits a Request Package to the subject
institution. Among the items requested are the following:

    §   List of officers and directors of affiliates, including organizational chart, if available.
    §   List of affiliated organizations and their financial statements as of the financial statement date, or
        most recent date available.
    §   Most recent annual report, 10-K, and /or 10-Q.
    §   Tax allocation agreement with the holding company.
    §   Fee structure of transactions with the holding company and/or affiliates.

The above items serve as the starting points for reviews of an institution’s relationships with affiliated
entities. The Examination Documentation modules, which serve as an examination tool during on-site
bank examinations, includes a Related Organizations module containing 28 review points addressing
policies and procedures; internal controls; audit or independent reviews; information and communication
systems; affiliate operations; compliance with Sections 23A and 23B of the Federal Reserve Act, Part
362 of FDIC’s Rules and Regulations and other applicable regulations; and affiliate capitalization. The
expanded analysis, which supports additional or more in-depth review as appropriate, includes eight
additional steps.

Violations of Sections 23A or 23B of the Federal Reserve Act, or other applicable regulations by state
nonmember banks may be the subject of a variety of informal or formal enforcement actions, including
Memoranda of Understanding, Cease and Desist Orders, or Civil Money Penalties. The FDIC MOU,
dated September 16, 1996, imposed on SPB specifically requested the bank to adopt and implement a
program to ensure that affiliate transactions comply with applicable laws and regulations. The
January 27, 1999 MOU also contained provisions for the bank to eliminate and correct all violations of
applicable laws and regulations.

Although the FDIC does not have statutory authority to directly supervise the parent companies of
ILCs, the FDIC does have the authority under Section 10(b)(4) of the FDI Act, codified to 12 U.S.C.
§ 1820, in examining any insured depository institution, to make examinations of the affairs of any
affiliate, including the parent holding company, as may be necessary to disclose fully the relationship
between the institution and the affiliate, and to determine the effect of such relationship on the depository
institution.



                                                     68
Examinations of affiliates that are considered necessary by the examiner must be supported by
compelling reasons. No affiliate examination may be undertaken without prior clearance from the FDIC
regional office. Section 10(c) of the FDI Act empowers the FDIC to issue, in the course of an
examination, subpoenas and to take and preserve testimony under oath so long as the documentation or
information sought relates to the affairs or ownership of the institution being examined. Accordingly,
individuals, corporations, partnerships, or other entities that in any way affect the institution’s affairs or
ownership may be subpoenaed and required to produce documents under the Section 10(c) powers.

Under Section 8(b) of the FDI Act,39 the FDIC has the enforcement authority to issue Cease and Desist
Orders, either by consent of the parties, or through an administrative hearing process, against insured
state nonmember banks and/or their institution-affiliate parties.40 Cease and Desist Orders may be
issued to prevent or stop insured ILCs and or their institution-affiliated parties from engaging in unsafe
or unsound banking practices and/or violations of the law. The Cease and Desist Orders may also
contain provisions requiring the institution and or party to take affirmative corrective action to correct or
remedy any conditions resulting from a violation or practice addressed in the subject order. The
following types of affirmative corrective actions are expressly addressed in the statute:

       •    Restitution or reimbursement, indemnification, or guarantee against loss if the institution or party
            was unjustly enriched or the violation or practice involved a reckless disregard for the law.
       •    Restriction of the institution’s growth.
       •    Disposal of loans or assets.
       •    Rescission of agreements or contracts.
       •    Employment of qualified officers or employees.
       •    Such other action as is deemed appropriate by the agency.

In December 2000, the FDIC issued a Cease and Desist Order that included a restriction on the flow of
dividends from SPB to ICII. This restriction remained in place until SPB failed.

            BHCA Inspections

The Federal Reserve’s (FED) Bank Holding Company Supervision Manual provides a perspective
on the positive and negative benefits of the holding company structure in the regulated industry
environment. The holding company structure allows entities to avoid some of the constraints of
regulation, such as limitations of geographic areas a firm can serve. Second, a holding company
structure allows the regulated firm to expand into other product markets that often are not subject to
regulation. Thirdly, the use of a holding company structure increases the organization’s financial
flexibility, thereby avoiding financial constraints imposed by regulation, including limitations on leverage,
types of assets acquired, and types of liabilities that can be issued. Finally, the holding company may
receive a financial advantage by obtaining tax benefits.


39
     Codified to 12 U.S.C. 1818(b).

40
  Section 3(u)(1) of the FDI Act, codified to 12 U.S.C. §1813, defines institution-affiliate parties as “any director,
officer, employee, or controlling stockholder (other than a bank holding company) of, or agent for, an insured
depository institution … .”

                                                            69
While these positive effects may exist, there are also two primary ways a holding company structure can
have an adverse effect on the financial condition of a regulated subsidiary. First, the holding company
and/or its unregulated and regulated subsidiaries can take excessive risks and fail. This failure then has a
“ripple effect” on the regulated bank, impairing its access to financial markets. The second way that a
holding company can have a harmful effect on the financial condition of a regulated bank is through
adverse intercompany transactions and excessive dividends. The FED Board has formally stated that a
bank holding company should act as a source of financial and managerial strength to its subsidiary
banks. Congress has expressly endorsed the Board’s long-standing view that holding companies must
serve as a “source of strength to subsidiary financial institutions.” This policy was formalized into
Regulation Y in 1983, which states:

        A bank holding company shall serve as a source of strength to its subsidiary banks and shall not
        conduct its operations in an unsafe and unsound manner.

As part of this policy, a bank holding company should stand ready to use its available resources to
provide adequate capital funds to its subsidiary bank during periods of financial stress or adversity and
should maintain the financial flexibility and capital raising capacity to obtain additional resources for
assisting its subsidiary bank. A bank holding company should not withhold financial support from a
subsidiary bank in a weakened or failing position when the holding company is in a position to provide
the support. A bank holding company’s failure to assist a troubled or failing subsidiary bank would
generally be considered an unsafe and unsound banking practice and/or a violation of Regulation Y.
Consequently, such a failure would generally result in the issuance of a cease-and-desist order or other
enforcement action as authorized under banking law.

Although parent holding companies of ILCs are not subject to the FED’s “source of strength” policy
statement, section 4.3 of FDIC’s Manual of Examination Policies used to examine ILCs states:

        A sound, well-managed holding company can be a source of strength for unit banks; however, if
        the condition of the holding company or its nonbank subsidiaries is unsound, the operation of the
        subsidiary banks can be adversely affected.

The FED’s Bank Holding Company Supervision Manual states that the overall supervisory program
under a holding company structure commences with a preliminary risk assessment of the strengths and
weaknesses of the holding company and provides a basis for determining the inspection procedures to
be performed. The risk assessment identifies the organization’s principal business activities and the
types and quantities of risks associated with the activities. The quality of management and the control of
risks are also considered when formalizing and structuring the supervisory strategy to be followed in
conducting the inspection of the holding company. The inspection focuses on evaluating the
organization’s risk-management processes to determine the extent to which these management
processes can be relied on. The inspection also measures the financial strength of the bank holding
company and focuses on the financial indices of both the consolidated entity and its component parts.
The principal indices appraised are quality of assets, earnings, capital adequacy, cash flow and liquidity,
and the competency and effectiveness of management. In addition, the FED’s inspection program
assesses the transactions between insured subsidiaries and affiliates to determine the impact or
consequences of transactions between the parent holding company or its nonbanking subsidiaries and
                                                    70
the insured subsidiaries. The FED’s inspection process is intended to encourage sound banking
practices and to take appropriate supervisory action when warranted. The full-scope FED inspection
may be conducted at a point in time or through a series of targeted or limited-scope reviews conducted
on an ongoing or continuous basis for the largest and most complex organizations.

        FDIC’s Visitations of Parent Holding Company

The FDIC performed its first on on-site visitation of ICII in February 2001. A second on-site
visitation of the holding company was conducted in February 2002. The purpose of these holding
company visitations was to determine the overall condition of the holding company and its ability to
support SPB. The FDIC examiner performed a review of the parent holding company and all its
nonbank affiliate activities. At both visitations, the examiner concluded that ICII was not a source of
strength for the bank.

Prior to the on-site visitations, reviews of ICII were conducted through the traditional bank
examination process and were limited to affiliate transactions identified on SPB’s records and in
discussions with SPB’s management, ICII’s 10-K reports submitted to the Securities and Exchange
Commission, and independent audit reports. The FDIC determined that the available information
precluded the need for an onsite presence until its visitation in April 2001.

Based on our review, ICII’s financial troubles began as early as 1998. In 1998, ICII incurred a
$74 million loss in the holding company and its non-bank subsidiary operations compared to an
$86 million profit in 1997, reflecting a $160 million change in earnings over the 2-year period. This
significant change in revenues was primarily attributed to ICII recording large nonrecurring gains in
1997 on sales of stock in its equity investments of affiliate entities, along with a large gain on a
termination agreement with another affiliate. In 1998, ICII’s subsidiary, Southern Pacific Funding
Corporation (SPFC), filed for Chapter 11 bankruptcy protection which led to a resultant decline in
SPFC’s common stock to below $1 dollar a share. ICII recorded a write-off of $82.6 million in its
SPFC equity investment. In addition, ICII recorded equity impairments of $24.5 million and
$13 million relating to its affiliates, Impac Mortgage Holdings, Inc. and Imperial Credit Commercial
Mortgage Investment Corporation, respectively. Negative revenues in these and other affiliate
investments also resulted in large losses. ICII’s price on its common stock dropped from a high of
about $27 a share in March 1998 to about $8 a share at year-end. As noted in Figure 16 below,
ICII continued to experience losses after 1998.




                                                    71
 Figure 16: SPB and ICII Net Operating Income From 1997 to 2001 ($ in Thousands)



                            $125,000

                             $75,000
        Net Income (Loss)




                             $25,000

                             $(25,000)

                             $(75,000)

                            $(125,000)

                            $(175,000)
                                          1997      1998         1999        2000         2001
                ICII& Affiliates         $85,921   $(73,633)    $(2,829)   $(163,326)   $(131,598)
                SPB                      $12,284   $21,940      $(9,060)   $(88,407)    $(30,809)


 Source: ICII’s 1997 through 2001 Annual Reports to its stockholders. The 2002 Annual Report was not
         completed by ICII


Our analysis of ICII’s capital injections and other actions since its spin off from Imperial Bank in 1992
indicates that ICII had historically, in the early years, provided SPB with capital injections before
FDIC and DFI issued the 2000 Cease and Desist Orders. Table 13 on the following page provides
the history of ICII’s capital injections to SPB.




                                                               72
Table 13: Capital Infusions to SPB by Year ($ in Thousands)
          Capital
         Contribute       Assets         Dividends
Year         d           Purchased         Paid                               Description
                                                       Imperial Bank provided funds to SPB as part of the spin-off
 1992         $ 10,000
                                                       of ICII and SPB.
                                                       ICII provided cash through Initial Public Offering (IPO) of
 1992           16,000
                                                       stock proceeds.
 1993           51,000                                 ICII provided cash through issuance of debt.
 1994                0
 1995                0
 1996                0                       $ 6,200   SPB paid ICII a dividend.
                                                       Sixty percent of net income paid out in dividends to ICII.
 1997                0                        18,540   Bank policy limited dividends to 35 percent of net income, an
                                                       excess of $7.752 million in dividends.
 1997                0         $18,400                 ICII purchased low quality asset.
                                                       Residential mo rtgage loans and interest-only (IO) mortgage-
 1998            9,547                                 backed securities. $2 million of IO’s were classified as
                                                       substandard at the 1999 exam.
 1998                0                         4,000   SPB paid ICII a dividend.
 1999                           10,000                 ICII purchased low quality asset.
 1999                0                         3,700   SPB paid ICII a dividend.
 2000           15,000                                 ICII provided cash to SPB.
                                                       ICII exchanged $9 million of SPB’s subordinated debt and
 2000           14,000                                 contributed $5 million in cash for 50,000 shares of preferred
                                                       stock.
 2001           18,100                                 ICII provided cash to SPB.
 2001           22,000                                 ICII forgave $22 million of $42 million in subordinated debt.
 2001           16,200                                 Outside Investors provided infusion.
                                                       ICII provided $10 million cash, exchanged $20 million in
 2002           30,000
                                                       subordinated debt for preferred stock.
 2002                             2,900                ICII purchased low quality asset.
Source: ICII Annual Reports and FDIC ROEs


ICII provided capital infusions to SPB before 1994, when SPB and ICII earnings were strong and the
indebtedness was low. Also prior to 1994, ICII had no subsidiaries other than SPB. After 1994, ICII
did not have a history of significant capital infusions to SPB until November 2000. From 1994 through
1999, SPB paid ICII $32.4 million in dividends, while ICII purchased $28.4 million of SPB’s low-
quality assets and contributed $9.5 million in assets to SPB, of which $2 million was classified as
Substandard at the 1999 examination. ICII provided a cash contribution to SPB in November 2000, 1
month before FDIC and DFI issued Cease and Desist Orders to SPB. From 2000 through 2002, ICII
provided a total of $118.2 million in capital infusions, of which only $48.1 million was cash contributions
and $51 million was an exchange of subordinated debt for preferred stock. This had no financial impact
on the overall financial condition.




                                                     73
CORPORATION AND STATE OF CALIFORNIA
COMMENTS AND OIG EVALUATION

On August 8, 2003, the DSC Director provided a written response to the draft report. The response is
presented in its entirety as Appendix VIII to this report. DSC concurred with all six recommendations.
DSC’s comments were responsive, and we consider all the recommendations to be resolved. The
recommendations will remain undispositioned and open until we have determined that corrective action
has been taken and is effective. A summary chart showing management’s responses to our
recommendations is presented in Appendix IX.

In its response to the draft, DSC commented on specific sections of the report. We have clarified our
position on those topics, which are bulleted below, followed by the OIG’s evaluation (in italics) of
DSC’s comments. We did not take issue with DSC’s assessment of SPB’s management as a factor in
SPB’s failure, the Supervisory History of the bank, and the Change in Control Proposal.

   •   Cause of Failure and Material Loss

       In addressing the Cause of Failure and Material Loss, DSC commented on the Impact of
       Economic Factors on Credit Quality. Specifically, DSC states:

           The factors ultimately bearing on the Bank’s failure included a higher-risk lending model that
           was not fully supported with a commensurate risk management program, and the impact of
           the economic downturn, particularly on commercial credit portfolios. The Bank’s business
           strategy developed during the mid- to late-1990s and focused on large syndicated credits
           and asset-based lending, which developed into moderately high concentrations in the
           telecommunications, air transportation, technology, and entertainment sectors. Collectively,
           these factors placed the Bank in a vulnerable position. Financial protection in the form of
           capital, allowance for loan losses, and earnings was eroded by rapid and unforeseen
           economic deterioration (exacerbated by the 9/11 event) in the various industry sectors in
           which the bank concentrated its lending.

       Economic factors in the early 2000s may have exacerbated the deterioration in the
       bank’s portfolio;, however, SPB is one of only a very few banks that have failed after
       being subject to the same factors. Furthermore, SPB began to experience losses in 1999,
       prior to the economic downturn. The losses continued until its failure. We therefore
       agree with the statement in DSC’s response that “Overall, management’s poor decisions
       and practices played the decisive role in the Bank’s failure.”

   •   Other Matters – Holding Company Structure

       In its discussion of the Holding Company Structure, DSC states:

           We believe that the FDIC has the necessary authority to determine the extent and effect of
           relationships between insured institutions and their affiliated entities. Furthermore, the FDIC


                                                   74
            can exercise its authority to pursue formal or informal enforcement actions against an
            institution or institution-affiliated party, which includes the controlling shareholder.

        Our report points out that there are differences between the authority exercised by the
        FDIC in reviewing transactions with affiliates and the authority provided to the FRB for
        supervising companies covered by the BHCA. We intend to conduct a subsequent audit
        focusing on non-bank bank holding companies and the potential risks, if any, which may
        result from the reduced level of federal oversight for holding companies not covered by
        the BHCA.

    •   Other Matters – “Subprime” Terminology

        DSC pointed out that the interagency guidance and definitions of subprime lending are generally
        applicable to consumer lending, not commercial lending. Specifically:

            … the guidelines would not apply to traditional asset-based commercial lending… . When
            dealing with higher-risk commercial loans to weak borrowers, examiners continue to classify
            these loans where warranted.

        Our report explains that the interagency guidance on subprime lending applies principally
        to consumer loans. We specifically state that “In the absence of an industry-wide
        definition of subprime commercial loans and for the purposes of this report, we use the
        term subprime to describe SPB’s commercial loan portfolios.” During our audit, FDIC
        examiners typically referred to SPB’s portfolios as subprime and, therefore, we elected to
        use the same terminology employed by the examiners.


DSC Responses to OIG Recommendations

Each recommendation is summarized below along with DSC’s responses to the recommendations.

1. Evaluate and pursue opportunities to emphasize and obtain written reports from independent
   auditors performing bank audits to bank boards of directors disclosing all reportable conditions
   found during audits or confirming that there were no reportable conditions.

        DSC concurs with the recommendation and will refer the issue to its Chief Accountant for study
        by September 30, 2003. In addition to possibly developing examiner guidance, actions may
        also include referring certain matters to the appropriate authoritative bodies that establish or
        maintain applicable accounting or auditing standards. DSC actions will be concluded no later
        than June 30, 2004.

 2. Enhance or reinforce existing examination guidance to, at a minimum, identify techniques examiners
    may use to evaluate capital and loan loss allowance information available from bank and non-bank
    sectors, for comparing and contrasting variances in capital allocation for these types of commercial
    loan programs.
                                                    75
 3. Reinforce examiner awareness of DSC subject matter experts in high-risk commercial lending, and
    encourage examiners and case managers to avail themselves of these experts, when appropriate.

 4. Emphasize the importance of following existing procedures on the use and analysis of peer average
    data in review of the ALLL.

 5. Reinforce and/or clarify existing guidance on the use of historical loss reserve factors for non-
    adversely classified loans.

 6. Reinforce and/or clarify existing guidance on the application and quantification of qualitative
    adjustments to the loan loss reserve factors, or to the determination of capital adequacy.

        For recommendations 2 through 6, DSC will develop and utilize material, possibly a case study,
        to present a history of events and “lessons learned.” Included will be discussions of unique
        issues presented in this case, various financial analyses deserving of examiner attention, and
        supervisory strategies and techniques that may be applied under similar circumstances. At a
        minimum, issues covered will include higher-risk commercial lending, analyses of capital and
        reserves, and supervisory strategies. DSC will complete necessary materials by
        June 30, 2004.


State of California Response

We provided a copy of our draft report to the California Department of Financial Institutions for review
and comment. The Commissioner elected not to provide an official response, but his staff did provide
informal comments, which we have addressed in the preparation of this final report.




                                                    76
                                                                                             APPENDIX I



                         OBJECTIVES, SCOPE, AND METHODOLOGY

We performed this audit in accordance with section 38(k) of the Federal Deposit Insurance (FDI) Act,
which provides that if a deposit insurance fund incurs a material loss with respect to an insured
depository institution, on or after July 1, 1993, the Inspector General of the appropriate federal banking
agency shall prepare a report to that agency reviewing the agency's supervision of the institution. A loss
is considered material if it is or becomes apparent that the loss will exceed $25 million and 2 percent of
the institution's total assets at the time the Corporation was appointed receiver. The FDI Act requires
that the OIG report be completed within 6 months after "it becomes apparent" that a material loss has
been incurred. However, the amount of the loss estimate can vary based on changing economic
conditions and the FDIC's approach to resolving and liquidating the institution. The actual loss will not
be known until all receivership assets are liquidated. As a result, in determining whether to initiate a
material loss review, the OIG generally relies on the loss estimates recorded by the FDIC's Division of
Finance (DOF). Southern Pacific Bank was closed on February 7, 2003 with total assets of about
$1.1 billion. On February 14, 2003, DOF provided the OIG with its initial estimated loss of
$134.5 million to the Bank Insurance Fund, and we immediately initiated our material loss review. As
of May 31, 2003, the revised estimated loss is $100 million.

As mandated by the FDI Act, the audit objectives were to: (1) ascertain why the bank’s problems
resulted in a material loss to the insurance fund and (2) assess the FDIC’s supervision of the bank,
including implementation of the Prompt Corrective Action (PCA) requirements of section 38 of the FDI
Act. The scope of this audit included an analysis of Southern Pacific Bank’s operations from 1992 until
its failure on February 7, 2003. Our review also entailed an evaluation of the regulatory supervision of
the bank over the same period. To achieve the objectives, we performed the following procedures and
techniques:

    •   Analyzed examination and visitation reports prepared by the FDIC and the State of California
        examiners from 1992 until 2002.
    •   Reviewed bank data and correspondence maintained at the Division of Supervision and
        Consumer Protection’s (DSC) San Francisco Regional Office.
    •   Reviewed reports prepared by the Division of Resolutions and Receiverships (DRR) and DSC
        relating to the bank's closure.
    •   Reviewed KPMG records at the offices of KPMG’s counsel in Los Angeles, California.
    •   Reviewed Imperial Credit Industries, Inc. records at its offices in Torrance, California.
    •   Interviewed DSC management in Washington, D.C., and the San Francisco Regional Office.
    •   Interviewed DRR officials at the Dallas Regional Office.
    •   Interviewed FDIC examiners from the Los Angeles West Field Office who participated in
        examinations or reviews of examinations of Southern Pacific Bank.
    •   Met with officials from the State of California Department of Financial Institutions in Los
        Angeles, California to discuss the historical perspective of the institution, its examinations, state
        banking laws, and other activities regarding the state's supervision of the bank.



                                                     77
                                                                                          APPENDIX I


    •   Reviewed bank records maintained by DRR in Dallas, Texas, for information that would
        provide insight into the bank's failure.
    •   Reviewed various annual reports and accompanying financial statements.
    •   Reviewed pertinent DSC policies and procedures.
    •   Researched various banking laws and regulations, including California Industrial Loan Company
        laws.

We performed the audit field work at the DSC San Francisco Regional Office in San Francisco,
California; the DSC Los Angeles West field office in Los Angeles, California; DRR offices in Dallas,
Texas; the State of California Department of Financial Institutions in Los Angeles, California; and DSC
offices in Washington, D.C. We conducted the audit from February 14, 2003 through August 14, 2003
in accordance with generally accepted government auditing standards.

Due to the limited nature of the audit objectives, we did not assess DSC's overall internal control or
management control structure. We did not test for irregularities or illegal acts, except as noted in this
report. Regarding compliance with laws and regulations, we performed tests to determine whether the
FDIC had complied with the provisions of PCA and limited tests to determine compliance with certain
aspects of the FDI Act.

We performed a limited review of Southern Pacific Bank’s management controls pertaining to its
operations, to determine whether:

    •   programs (lending, risk management, etc.) met objectives;
    •   reliability of data was maintained and fairly disclosed in reports;
    •   compliance with laws and regulations occurred; and
    •   resources were safeguarded against waste, loss, and misuse.

We reviewed documentation and conducted inquiries regarding Southern Pacific Bank’s illegal acts or
abuses that were identified by FDIC.

We did not assess the validity and reliability of computer-based and processed data from Southern
Pacific Bank or the FDIC because this was not an objective of the audit. We relied on interviews and
individually prepared reports and correspondence and other evidence to support our audit. Therefore,
the audit results were not impacted.

The Government Performance and Results Act of 1993 (the Results Act) directs Executive Branch
agencies to develop a customer-focused strategic plan, align agency programs and activities with
concrete missions and goals, manage and measure results to justify appropriations and authorizations,
and design budgets that reflect strategic missions. In this audit, we did not assess the strengths and
weaknesses of DSC’s annual performance plan in meeting the requirements of the Results Act because
such an assessment was not part of the audit objectives.




                                                     78
                                                                                   APPENDIX II



   IMPERIAL CREDIT INDUSTRIES, INC. 1998 ORGANIZATIONAL CHART


                             Imperial Credit Industries, Inc. (ICII)
                                An Unregulated Holding Company


Wholly-Owned                                                                 Equity Investments
 Subsidiaries                                                            and ownership percentages

              Imperial Credit
                                                                Imperial Capital
            Advisors, Inc. (ICAI)
                                                               Group, LLC 60%
    Imperial Credit Commercial Asset
   Management Corporation (ICCAMC)                          Southern Pacific Funding
                                                           Corporation (SPFC) 47%
     Imperial Business Credit, Inc. (IBC)

                                                        Franchise Mortgage Acceptance
       Imperial Credit Worldwide, Ltd.
                                                          Co., LLC. (FMAC) 38.4%
        (ICWL) (Discontinued 1998)

   Auto Marketing Network, Inc. (AMN)                     Imperial Credit Commercial
           (Discontinued 1998)                               Mortgage Investment
                                                         Corporation (ICCMIC) 10.8%
     Imperial Credit Asset Management
         (ICAM) (Formed 1998)

              ICII Ventures, Inc.

       Statewide Documentation, Inc.
              (Acquired 1998)


      Southern Pacific Bank (SPB)
 Divisions:
  Coast Business Credit (CBC)
  Income Property Lending (IPL)
  Loan Participation and Investment
      Group (LPIG)
  Auto Lending (Discontinued 1999)
  Consumer Credit (Discontinued 1998)


    PrinCap Mortgage Warehouse, Inc.




                                               79
                                                                                                   APPENDIX III


                            CHRONOLOGY OF SIGNIFICANT EVENTS

The following chronology describes significant events in Southern Pacific Bank’s history, including
examinations conducted, major problems identified, and enforcement actions taken by the FDIC and the
Department of Financial Institutions, State of California.

03/01/82   Southern Pacific Thrift & Loan (SPTL) receives charter from state of California.

11/05/87   SPTL receives federal deposit insurance.

01/01/92   Imperial Bancorp forms Imperial Credit Industries, Inc.(ICII) and contributes all outstanding stock of SPTL
           to ICII.

12/93      SPTL’s assets tripled from $452 million at the Feb. exam to $1.4 billion by year-end.

01/10/94   FDIC examination resulted in a comp osite 2 rating.

12/15/94   California Department of Financial Institutions (DFI) examination resulted in composite 3 rating. SPTL
           had experienced significant growth and lacked adequate controls . Due diligence on loans was considered
           inadequate. SPTL’s Board of Directors consisted of only three members, who were also directors.

04/19/95   FDIC visitation confirms issues highlighted by state examination. Asset quality considered satisfactory.

09/30/95   Coast Business Credit (CBC) is purchased from Coast Federal Bank. CBC begins its aggressive
           expansion to include the solicitation of business outside the state of California.

01/16/96   Concurrent examination with the state, composite rating 3 was received. Deficiencies in SPTL’s
           operational controls and risk management were considered. Two outside directors were added and a
           memorandum of understanding (MOU) was arranged on September 21, 1996.

04/14/97   Concurrent examination with the state. FDIC issued composite rating 2, and DFI issued composite
           rating 3 to SPB. MOU compliance was noted. Significant accounting control problems were noted and
           addressed by the Board. Bank Board Resolution was implemented on October 29, 1997.

09/16/97   Southern Pacific Thrift & Loan named changed to SPB.

05/11/98   FDIC joint examination with DFI resulted in composite rating of 3. Unreconciled general ledger accounts
           totaled $2.4 billion which resulted from inadequate staffing, high employee turnover, and poor planning
           for the August 1997 system conversion. SPB hires a contractor to reconcile accounts. Examination also
           noted that the total assets at the bank had increased to 25 percent in only the first half of 1998 which
           exceeded the bank’s budget projection of 18 percent. Examination identified SPB new operations of
           funding mortgage bankers through a newly acquired subsidiary, PrinCap Mortgage Warehouse, Inc.
           (PrinCap), its mortgage warehouse division.

05/18/98   Information Systems (IS) examination commences; a composite 3 rating is issued.

11/02/98   MOU issued as the result of IS examination. MOU required the bank to correct account reconciliation’s,
           improve data, improve security procedures, and increase the scope of IS audits, correct Y2K assessment
           deficiencies, and submit progress reports.

12/07/98   SPB President resigns, and new one is appointed by Board with regulatory approval.




                                                         80
                                                                                                  APPENDIX III

01/27/99   MOU issued to correct weaknesses noted at the May 11, 1998, examination. This MOU required the bank
           to establish adequate accounting controls, eliminate all violations of law, achieve and maintain well-
           capitalized risk-based capital levels, maintain an adequate loan loss reserve, restrict cash dividends to 35
           percent of net income, and submit periodic progress reports.

06/21/99   Joint examination with DFI resulted in SPB receiving a composite rating of 3. Despite full compliance with
           IS MOU, SPB remained in less than satisfactory condition. Management resolved accounting
           reconciliations and satisfied provisions of MOU, yet SPB’s adversely classified items and reserves had
           more than doubled in size since the last examination to 77 percent. The deterioration was noted in the
           Auto Finance Division, CBC Division, and PrinCap – SPB’s wholly-owned subsidiary. Deterioration in
           the portfolio was the result of poor underwriting, servicing, and accounting issues, as well as a decline in
           the used car market. ALLL was determined to be underfunded by $19 million, and management provided
           a $21.6 million provision to the ALLL during the exam. SPB was considered adequately capitalized for
           PCA purposes as of March 31, 1999, and met the well-capitalized status as of June 30, 1999. During the
           examination, management had sold a significant portion of the auto lending division, established policies
           and procedures for CBC, and hired new management at PrinCap. Examiners recommended that a revised
           MOU be pursued in order to restore SPB to a satisfactory level. The bank was informed that the
           institution is considered to be a troubled institution for Section 32 purposes.

10/20/99   SPB President and CFO meet with FDIC to discuss current developments since the June 1999 exam. FDIC
           was advised that the Auto Lending Division had been dissolved due to the large amount of loss that it
           had incurred; CBC was attempting to pursue and maintain better borrowers. After the termination of
           many of ICII’s subsidiary operations, SPB now represented 95 percent of ICII’s operations. The previous
           MOU remained in effect.

11/17/99   FDIC issues after-the-fact nonobjection letter for Change of Control filed by a management investment
           fund. On May 17, 1999, ICII purchased from it parent, Imperial Bank 3,682,537 shares of stock. This
           repurchase caused the aggregate holdings of several investment funds to increase from 24.1 to 36.8
           percent. It was the contention of the fund owner that he did not have the power to direct the
           management or policies of ICII and thus did not control ICII or SPB.

01/26/00   SPB’s Board adopts a Bank Board Resolution, in which immediate actions were taken to address concerns
           of FDIC and DFI from the June 1999 exam. SPB needed to address its credit quality, sufficiency of
           reserves, strategic planning, and operations and accounting, The MOU remains in effect.

06/26/00   FDIC joint examination with DFI. SPB’s condition considered unsatisfactory. Large credit losses
           apparent in CBC as the result of weak management processes and over-advances on an unsecured basis
           to distressed business in the hope of turning the business around financially. The deterioration in asset
           quality necessitated large provisions to ALLL. SPB made a $49 million provision as of June 30, 2000.
           Capital level declined to adequately capitalized despite parents’ capital infusion of $14 million in
           subordinate debt in Tier 2 Capital. SPB receives a composite rating of 4.

09/00      President and Director of SPB resign. Chairman of the Board of SPB and ICII is appointed interim
           President and Chief Executive Officer pending regulatory approval.

10/26/00   Former President and Director of SPB meet with DSC Assistant Regional Director and Case Manager in
           San Francisco Regional Office to discuss the independent operations at CBC.

12/13/00   SPB Board stipulated to a Cease and Desist Order issued December 15, 2000 by FDIC.

12/28/00   DFI issues Final Order to SPB Board.

01/22/01   FDIC and DFI concurrent exam commenced. Asset quality continues to deteriorate due to CBC’s
           previous underwriting practices. Adversely classified assets increased from $184.1 million at prior exam


                                                        81
                                                                                                  APPENDIX III

           to $226.5 million at present exam. SPB had a $117 million loss for the year 2000. The losses are the result
           of the large provisions to the ALLL of $169 million for this period.

03/07/01   FDIC gives nondisapproval notice for interim president to serve as bank President and Chief Executive
           Officer.

03/28/01   FDIC approves bank’s request to retire $42 million in subordinated debt in exchange for $42 million in
           noncumulative perpetual preferred stock.

03/31/01   During the first quarter of 2001, the bank became undercapitalized for PCA purposes; however, SPB
           received from ICII $21.1 million in cash and converted $22 million in subordinated debt to non-cumulative
           perpetual preferred stock. Approximately $16.1 million came from outside investors, and the remaining
           $5 million came from the liquidation of assets at ICII, which determined that the bank was considered
           adequately capitalized for PCA purposes with a total risk-based capital ratio and Tier 1 leverage capital
           ratio of 8.28 percent and 6.06 percent, respectively.

07/01      Interim President and CEO resign from bank.

08/01/01   New President and CEO is appointed at SPB and receives regulatory approval.

11/15/01   Newly appointed Chairman, President, and Chief Executive of SPB resigns.

11/26/01   Concurrent visitation by FDIC and DFI. Loan quality had further deteriorated since Sept 11, and
           examiners feared that SPB will likely fail in the near future. Examiners noted approximately $92 million in
           loans directly or indirectly supported by aircraft leases, $14 million in loans advanced directly to the
           airline carriers, and $11 million in loans secured by aircraft parts. Since Sept 11, the portfolio had
           deteriorated rapidly. Allowance was estimated to be underfunded by $20 million, and Tier 1 Capital was
           less than 4 percent. Examiners also determined that ICII was experiencing financial distress. As a result
           of SPB’s deteriorating condition and ICII’s financial status, a composite 5 rating was given. SPB was
           then added to the Project Failure Report with a projected failure in the fourth quarter of 2002.

01/07/02   FDIC issued nonobjection to the appointment of new President and Chief Executive Officer of SPB.

02/01/02   FDIC notified bank that it was considered undercapitalized for PCA purposes and was subject to certain
           restriction that requires the submittal/filing of SPB’s capital plan with the FDIC within 30 days.

02/04/02   Commencement of concurrent examination by FDIC and DFI. In the previous 3 years, the bank had
           charged off in excess of $240 million in loans, and classified assets continue to increase. Shared National
           Credits with substandard characteristics, when added to classified assets, results in $298 million in total
           classified assets which represented 408 percent of Tier 1 Capital and ALLL.

05/09/02   Again, newly appointed and approved President and CEO resigns due to differences with the Board.

05/24/02   ICII’s stock was delisted from NASDAQ due to the devaluation of ICII’s stock below $3.00. Again, newly
           appointed and approved individual takes office at SPB as President and CEO.

           FDIC accepts SPB’s revised capital plan. Plan calls for increase in capital of $55 million by July 22, 2002,
           from outside investors or from profits realized from the sale of certain assets. The plan calls for the
           reduction of non-performing assets currently from $117.2 million to $49.1 million by December 31, 2002. In
           addition, ICII is to sign a performance guarantee for ensuring the capital plan is pursued and realized.


07/15/02   A subordinated debt holder of ICII filed a Change of Bank Control Notice with DFI, and a nonobjection
           notice was issued by DFI on July 30, 2002.


                                                         82
                                                                                                    APPENDIX III

07/25/02   SPB fails to implement approved Capital Plan and was deemed significantly undercapitalized for PCA
           purposes . A new capital plan was requested.

08/07/02   FDIC receives SPB’s revised Capital Plan and indicated that SPB was negotiating an agreement with
           investor to infuse $30 million.

08/31/02   Visitation commenced concurrently by FDIC and DFI. Loan quality was targeted, and an additional
           $29 million provision was determined to be necessary to cover the loan exposure. In addition, the bank
           was directed to charge off an additional $38 million in loans classified as loss as of September 30, 2002.
           After the adjustment of findings, Tier 1 Leverage Capital ratio declined to approximately 2.5 percent.

09/12/02   FDIC learned that investor had filed a notice of default on the senior secured debt at ICII and was
           proceeding with foreclosure on SPB’s stock.

11/04/02   DFI issues a demand for capital to SPB to increase capital levels to 8.5 percent tangible equity capital
           ratio. This would increase the capital to a minimum of $54 million by November 18, 2002. Due to
           negotiations with investor who had filed a Notice for Change of Control to recapitalize the bank, DFI
           extended the capital demand to December 10, 2002 and then again to January 31, 2003.

11/18/02   A subordinated debtholder files Notice of Change of Control to acquire SPB and a wavier of the cross
           guaranty provisions due to his ownership of Affinity Bank.

           FDIC extends the August visitation into full scope examination to expand the review of SPB’s loan
           portfolio in order to better determine the extent of losses and to assess the viability of investor’s
           recapitalization plan. Examiners found that SPB had further deteriorated and that its Tier 1 Leverage
           Capital ratio and total Risk-based Capital ratio had declined to 2.04 and 3.58 percent, respectively. The
           bank’s PCA category is considered significantly undercapitalized. The adversely classified assets had
           increased 45 percent since the previous examination 10 months earlier. In the last 3 years, SPB had
           charged off in excess of $330 million in loans. Bank’s composite rating is 5.

11/26/02   SPB files a revised capital plan which indicates a $30 million capital injection by an investor, with the
           intent to return SPB’s capital level to a well-capitalized position.

01/08/03   FDIC disapproves of the investor’s Notice of Change of Control due to the high likelihood of further loan
           deterioration in aircraft and telecommunication industry concentrations.

01/22/03   Investor withdraws the Notice of Change of Control due to the excessive volume of problem assets
           posing too much risk to make any further investments into SPB and ICII.

           SPB enters into a repurchase agreement with a hedge fund in an effort to maintain average assets at levels
           commensurate with the previous month’s average. However, due to PCA limitations, the Bank was
           restricted from increasing average assets above the previous month’s levels.

06/24/03   FDIC issues a PCA directive requiring SPB to obtain FDIC approval on all transactions.

02/03/03   FDIC approves an investigation of the repurchase agreement.

02/04/03   Revised November 26, 2002, Capital Plan is rejected by FDIC due to the withdrawal of Notice of Change of
           Control

02/07/03   DFI closes the institution because SPB failed to meet capital demands, and the FDIC is named receiver.




                                                         83
                                                                                                 APPENDIX IV


            ACCOUNTING PROBLEMS, INTERNAL CONTROL WEAKNESSES,
           AND APPARENT VIOLATIONS OF LAW CITED BY REGULATORS IN
              SOUTHERN PACIFIC BANK’S REPORTS OF EXAMINATION
                                                                                          Year of Examination Report
                                                  Deficiency Cited




                                                                                      92
                                                                                      93
                                                                                      94
                                                                                      95
                                                                                      96
                                                                                      97
                                                                                      98
                                                                                      99
                                                                                      00
                                                                                      01
                                                                                      02
   Area             Subject                       by the Regulators
             Financial Accounting
             Standard (FAS) 125,
             Accounting for
                                        The value of Collateralized Mortgage                 6
Accounting   Transfers and Servicing
                                        Obligation (CMO) residuals overstated.
             of Financial Assets and
             Extinguishments of
             Liabilities
             FAS 5, Accounting for
Accounting                              Charge-off or write down of receivables.      9      6
             Contingencies
             FAS 5, Accounting for
             Contingencies, FAS
                                        Allowance for loan and lease losses -
             114, Accounting by                                                              5                4 4 4
Accounting                              maintenance of reasonable reserves and
             Creditors for Impairment
                                        allowance deficient.
             of Loan (as amended by
             FAS 118 and FAS 5)
                                        Available-for-Sale (AFS) vs. Held-to-
                                        Maturity (HTM) - Accounting rules
             FAS 65, Accounting for     (FAS 65) requires that the transfer of
                                                                                                       4
Accounting   Certain Mortgage           loans from AFS to HTM be done at the
             Banking Activities         lower of cost or market (LOCOM). SPB
                                        transferred the Long Beach portfolio to
                                        the HTM account at book value.
                                        No verification of the calculation of gains
             FAS 65, Accounting for
                                        on sale of loans or securities, and                  1
Accounting   Certain Mortgage
                                        reconciliation of loans serviced by the
             Banking Activities
                                        parent (ICII).
             FAS 91, Accounting
                                        Either SPB not in compliance or
             and Reporting for Loan                                                          0     0
Accounting                              examiners were unable to verify whether
             Origination Fees and
                                        SPB was in compliance with FAS 91.
             Cost
                                        Segregation of duties – the thrift’s
                                        account certifications were not being
             Design: Absence of
                                        approved by someone other than the
             appropriate segregation
Internal                                person reconciling the accounts to the            0
             of duties consistent
Control                                 general ledger. FDIC recommended that
             with appropriate control
                                        management implement a policy requiring
             objectives
                                        a second party to regularly approve the
                                        certifications.
                                        SPB's approved internal audit policy
                                        designated the Vice President/Bank
             Design: Internal auditor
Internal                                Operations, as the internal auditor. This            0
             retained management
Control                                 designation created a conflict of interest,
             duties
                                        because the individual would be auditing
                                        the same department he managed.
                                                                                    See Legend at the end of this appendix.


                                                      84
                                                                                            APPENDIX IV


                                                                                     Year of Examination Report
                                                 Deficiency Cited




                                                                                     92
                                                                                     93
                                                                                     94
                                                                                     95
                                                                                     96
                                                                                     97
                                                                                     98
                                                                                     99
                                                                                     00
                                                                                     01
                                                                                     02
   Area             Subject                      by the Regulators
                                       The company’s accounting department
                                       had only one employee who had
                                       accounting background. The Senior Vice
                                       President - Accounting, assisted by two
                                       clerical staff, was responsible for journal
                                       entries, posting to general ledger, bank
            Design: Accounting
Internal                               reconciliations, etc. and various                0
            department lacked
Control                                regulatory reports preparations. With
            sufficient resources
                                       the existing resources, it would be
                                       expected that books and records could
                                       not be reconciled in a timely manner and
                                       that there would be no financial and
                                       analytical reports available for the Board
                                       of Directors to review.
            Operational: Cash
            Reconciliations not
Internal                                                                                4         0 1
            performed or not           Cash accounts not reconciled.
Control
            performed in a timely
            manner
            Operational: Failure of
            identified controls in
                                       Bank had inadequate workpapers to
Internal    preventing or detecting                                                  0 0      0               0
                                       support Call Reports, which had math,
Control     misstatements of
                                       preparation, and other errors.
            accounting information
            in Call Reports
            Operational: General
            Ledger -Subsidiary
                                       Differences between general and
Internal    Ledger Reconciliations                                                      3     5 5 1
                                       subsidiary ledger balances; GL/SL
Control     not performed or not
                                       accounts do not reconcile.
            performed in a timely
            manner
                                       Accounting personnel, most notably
                                       employees in the loan accounting
            Operational:               department, are relatively unfamiliar with
Internal    Competency,                many of the thrift’s accounts. Recently,                     0
Control     knowledge skills of risk   key employees familiar with the
            management personnel       accounting practices left the thrift
                                       without passing vital information on to
                                       their replacements.
                                       Section 1221 (a) states in part “The
                                       obligations … of any one person owing
                                       to a commercial bank at any one time
                                       shall not exceed the following limitations:
Apparent    State of California )                                                                             5
                                       (a) Obligations which are unsecured shall
Violation   Financial Code 1221
                                       not exceed 15% of the sum of the
                                       shareholders’ equity, allowance for loan
                                       losses, capital notes, and debentures of
                                       the bank.”




                                                     85
                                                                                                APPENDIX IV


                                                                                         Year of Examination Report
                                                 Deficiency Cited




                                                                                     92
                                                                                     93
                                                                                     94
                                                                                     95
                                                                                     96
                                                                                     97
                                                                                     98
                                                                                     99
                                                                                     00
                                                                                     01
                                                                                     02
   Area             Subject                      by the Regulators
                                       Code states: “An industrial loan
                                       company shall . . . submit its unaudited
                                       financial statements, prepared in
                                       accordance with Generally Accepted
                                       Accounting Principles (GAAP) and
                                       consisting of at least a balance sheet and
Apparent    CA Financial Code                                                                           0
                                       a statement of income as of the date and
Violation   18407.
                                       for the period specified by the
                                       commissioner.” As a result of significant
                                       Call Report errors discovered during the
                                       examination, amended Call Reports of
                                       Condition and Income are required for
                                       December 31, 1997 and March 31, 1998.
                                       These sections of California code set
Apparent    CA Financial Code                                                                                 5
                                       forth a requirement to have out-of-state
Violation   18021 (a), (b), and (c).
                                       deposits in FDIC insured institutions.
            CA Financial Code
            18029 (previously 1133).
            Books and records.         Because reconciliations were either not
            Each industrial loan       completed or not completed in a timely
            company shall keep and     manner, it is very difficult to determine
            use in its business,       whether the general ledger account
            books, accounts, and       balances accurately reflect the thrift’s
            records which will         true financial position. In April 1998, the
Apparent                                                                                    4           1
            enable the                 thrift hired a contractor to perform a
Violation
            commissioner to            review of the thrift’s accounting
            determine if the           practices for resolution of the cash
            company is complying       reconciliation and other general ledger
            with the provisions of     account problems and to provide a long-
            this division and with     term strategy on the thrift’s accounting
            the rules and              system and practices.
            regulations made by the
            commissioner.
            CA Financial Code
            18029 (previously 1133).
            Books and records.
            Each industrial loan
            company shall keep and
            use in its business,       - Reported delinquencies understated
            books, accounts, and       $1.6 million at September 30, 1992.
Apparent    records that will enable   - Pre-sold mortgage loans cannot be held      2
Violation   the commissioner to        in company’s books longer than 90 days
            determine if the           from dates of funding. Examination
            company is complying       disclosed that $145.9 million of pre-sold
            with the provisions of     mortgage loans portfolio, as of October
            this division and with     31, 1992, exceeded this limitation.
            the rules and
            regulations made by the
            commissioner.




                                                     86
                                                                                            APPENDIX IV


                                                                                      Year of Examination Report
                                                  Deficiency Cited




                                                                                      92
                                                                                      93
                                                                                      94
                                                                                      95
                                                                                      96
                                                                                      97
                                                                                      98
                                                                                      99
                                                                                      00
                                                                                      01
                                                                                      02
   Area             Subject                       by the Regulators
            CA Financial Code
            18271. An industrial
            loan company that has
            investment certificates
            outstanding shall not
            make loans to, or hold
                                        The thrift held an obligation of General
            the obligations of, any
                                        Electric Capital for $40 million in
            one person as primary
Apparent                                commercial papers. The 5 percent                                 4 3
            obligor in an aggregate
Violation                               unsecured limit amounts to $7.5 million,
            principal amount in
                                        with $32.5 million extended as an
            excess of 20% of the
                                        apparent violation.
            unimpaired capital stock
            and surplus of the
            company not available
            for dividends as
            provided in Section
            18319.
            FDIC Rules and Regs.,       Management did not properly report Tier
Apparent                                                                                             0
            Part 304.4, Reports of      1 capital in either the December 31, 1997
Violation
            Condition and Income        or the March 31, 1998 Call Reports.
                                        ICII, the bank’s parent company,
                                        disclosed partial findings and opinions
            FDIC Rules and Regs.
Apparent                                from FDIC examiners at the January 22,                                     0
            Part 306.6(a), Disclosure
Violation                               2001 examination in a debt offering
            of Exempt Records
                                        memorandum released to potential third-
                                        party investors.
                                        Part 325.3(b)(2) states that “the minimum
                                        leverage capital requirement for a bank
                                        shall consist of a Tier 1 Capital to total
Apparent    FDIC Rules and Regs.                                                                               0 0
                                        assets of not less than four percent.”
Violation   325.3(b)(2)
                                        After adjusting for examination findings,
                                        the bank’s Tier 1 Capital to total assets
                                        ratio was 2.82% as of December 31, 2000.
                                        The thrift’s 1997 Annual Report does not
            FDIC Rules and Regs.        disclose standby letters of credit, and
Apparent                                                                                             0
            Part 337.2, Standby         inadequate control and subsidiary
Violation
            Letters of Credit           records exist for issued standby letters of
                                        credit.




                                                      87
                                                                                                    APPENDIX IV


                                                                                          Year of Examination Report
                                                     Deficiency Cited




                                                                                        92
                                                                                        93
                                                                                        94
                                                                                        95
                                                                                        96
                                                                                        97
                                                                                        98
                                                                                        99
                                                                                        00
                                                                                        01
                                                                                        02
   Area                Subject                       by the Regulators
                                           Apparent violation of Part 362.3(a) of the
                                           FDIC Rules and Regulations: “No
                                           insured state bank may directly or
                                           indirectly acquire or retain as principal
               FDIC Rules and Regs.        any equity investment of a type that is
               Part 362, Activities of     not permissible for a national bank.” The
Apparent                                                                                                     0     5
               Insured State Banks and     thrift’s asset-based lending division,
Violation
               Insured Savings             Coast Business Credit, frequently
               Associations                obtains stock warrants from borrowers in
                                           addition to loan origination fees. On
                                           December 15, 1998, CBC management
                                           exercised the warrants related to one of
                                           its borrowers.
                                           Management does not adequately
               FDIC Rules and Regs.
Apparent                                   control its general ledger accounts, in                       0
               Part 364, Standards for
Violation                                  apparent violation of Part 364.101 and
               Safety and Soundness
                                           Section 18029 of the CA Financial Code.
                                           Section 364.II.C requires financial
                                           institutions to establish and maintain
               FDIC Rules and Regs.
                                           loan documentation. The thrift did not
Apparent       Part 364.II.C, Standards                                                              0
                                           review a full set of documentation for
Violation      for Safety and
                                           loans. Most of the documentation was
               Soundness
                                           held by the servicer or a trustee acting
                                           on behalf of the servicer.
                                           Apparent violation of Part 215.8 of the
                                           Federal Reserve Board’s rules and
Apparent       Regulation O, Insider                                                       0
                                           regulations pertaining to annual records
Violation      Transactions
                                           the thrift is required to maintain on
                                           insiders.
               Federal Reserve Act         Related Party Transactions, apparent
Apparent                                                                                       3     5 5 5         5 5
               ¶ 23A and 23B, Related      violations of ¶ 23A and 23B of Federal
Violation
               Party Transactions          Reserve Act.

 LEGEND:
 1 = Deficiency where the dollar amount involved was greater than or equal to $1 billion.
 2 = Deficiency where the dollar amount involved was greater than or equal to $100's of millions.
 3 = Deficiency where the dollar amount involved was greater than or equal to $50 million.
 4 = Deficiency where the dollar amount involved was greater than or equal to $10 million.
 5 = Deficiency where the dollar amount involved was greater than or equal to $1 million.
 6 = Deficiency where the dollar amount involved was greater than or equal to $500,000.
 7 = Deficiency where the dollar amount involved was greater than or equal to $100,000.
 8 = Deficiency where the dollar amount involved was greater than or equal to $50,000.
 9 = Deficiency where the dollar amount involved was less than $50,000.
 0 = Deficiency where the dollar amo unt involved was not estimated or stated by the regulators.




                                                         88
                                                                                                   APPENDIX V



                                   SPB’s PORTFOLIO COMPOSITION

As discussed in the report, from 1993 through 1999, SPB management engaged in a high-risk lending
strategy and expanded into commercial lending, franchise financing, and asset-based lending to
companies and borrowers with impaired credit histories. During that time, the bank created 1 new
consumer lending division, and 10 new commercial-based lending divisions within the bank. The table
below provides a description for each of these lending divisions.


                               1993                                       Date Formed            Type of Lending
 Southern Pacific Leasing Division was established to diversify
                                                                                                 Equipment lease
 SPB’s lending activities from traditional real estate lending.
                                                                                                 financing and
 Southern Pacific Leasing Division offered equipment lease             Formed by SPB in 1994.
                                                                                                 warehouse lines of
 financing on a wholesale basis and offered warehouse lines of
                                                                                                 credits
 credit to other leasing companies.
                               1994
 Auto Lending Division was formed to fund new and used
 automobile purchase contracts for subprime lenders. The
 division also purchased automobile loans from other
 independent loan originators. The portfolio was made up of "B"
                                                                       Formed in October 1994,
 and "C" rated auto paper with borrowers located throughout the
                                                                       and discontinued
 United States. Much of the deterioration could have been                                        Subprime auto loans
                                                                       operations in February
 avoided had management effectively supervised the portfolio
                                                                       1999.
 and eliminated the deficiencies prior to the growth in the
 portfolio. From the middle of 1998 through June 1999, SPB
 recognized approximately $45 million in losses and market
 valuation write-downs.
 Income Property Lending Division (IPLD) was formed to expand
 the existing apartment and commercial property lending                                          Commercial real estate
 business. IPLD made property rehabilitation loans to higher-risk      Formed by SPB in          rehabilitation loans
 customers based on the "as completed" collateral value of             February 1994.            to high-risk
 multifamily income-producing properties. IPLD’s maximum loan                                    customers
 amount is approximately $2.5 million.
 Consumer Credit Division offered installment loans and Second
 Lien Mortgages for the purpose of home improvement, loan
                                                                       Formed in early 1994.     Consumer credit
 consolidation, manufactured housing, and other consumer
 goods.
 Bulk Acquisitions Division was formed to acquire for
 investment and for sale existing portfolios of non-conforming
 residential mortgage loans. The Division targeted established
 institutions and governmental entities such as the former                                       Bulk sales of
 Resolution Trust Corporation and the FDIC for the purchase of         Formed in August 1994.    subprime residential
 mortgage loan portfolios. In 1995, the Division worked in                                       mortgage loans
 concert with Southern Pacific Funding Corporation (SPFC) and
 acquired $550 million in loans, reselling $160 million in September
 in a securitization.




                                                          89
                                                                                                 APPENDIX V



                              1995                                      Date Formed            Type of Lending
 Coast Business Credit (CBC) provided asset-based commercial
 business loans to small and mid-sized businesses with annual
 revenues ranging from approximately $10 to $100 million. CBC
 focused on asset-based lending, through underwriting criteria
 based upon cash flow and collateral rather than on earnings and
                                                                                               Subprime asset-based
 net worth. The CBC portfolio had subprime characteristics in
                                                                                               lending, and airline
 that the borrowers were typically B and C rated companies and       Formed October 1995.
                                                                                               and technology
 had typically pledged all of the companies' assets to the bank as
                                                                                               syndicated credits
 collateral. CBC focused its lending activities on high-technology
 businesses engaged in the computer industry. At December 31,
 1995, CBC had loans totaling $48.3 million to technology
 companies, representing 31.3% of its total portfolio, and loans
 totaling $105.9 million to non-technology companies.
                                                                     Formed by SPB in
 Loan Participation and Investment Group (LPIG) invested in
                                                                     September 1995. Bank
 and purchased nationally syndicated commercial loan
                                                                     management stopped
 participations originated by commercial banks and insurance                                   Shared National
                                                                     originating new
 companies, primarily in the secondary market. The majority of                                 Credits
                                                                     commitments in 1998
 the loans were reviewed under the Shared National Credit (SNC)
                                                                     and allowed the
 Program.
                                                                     portfolio to run off.
 Long Beach Mortgage was a purchased portfolio of subprime 1-
 4 family residential loans. The borrowers were self-employed                                  Loans to subprime
 with less than satisfactory credit histories. According to the                                borrowers for 1-4
                                                                     Purchased late 1995.
 bank president, the loans were part of a program which                                        family residential
 emphasized collateral rather than repayment ability.                                          mortgage loans

                              1996
 Auto Lend Group was formed to finance automobile dealership
 inventories. SPB believed that the Auto Lend Group's products
                                                                                               Loans to Subprime
 offered synergistic opportunities when offered in connection
                                                                     Formed September 1996.    auto dealerships to
 with the bank's sub-prime auto lending activity (under the bank's
                                                                                               finance inventories
 Auto Lending Division) to provide car dealerships a complete
 financing package.
                              1997
 Imperial Warehouse Finance (formerly PrinCap Mortgage
 Warehouse) provided warehouse lending to residential mortgage
                                                                     Purchased in October
 bankers. PrinCap, a mortgage warehousing lender located in                                    Warehouse lending
                                                                     1997 and established as
 New Jersey, extended loans to individual mortgage brokers who,                                to residential
                                                                     a wholly-owned
 in turn, used the funds to originate and sell mortgages. The                                  mortgage brokers
                                                                     subsidiary of the bank.
 mortgages were both standard residential and residential
 construction loans.
                              1999
 The Lewis Horwitz Organization (LHO) operated as a division
 of SPB providing lines of credit for independent motion picture
 and television production. The loans were collateralized with                                 Lines of credit for
                                                                    Acquired October 1999
 domestic and foreign film distribution contracts. LHO was                                     motion picture and
                                                                    and sold October 2002.
 considered the leader in the financing of smaller-budget                                      television production
 independent films and had been operating approximately 40
 years prior to the bank's acquisition of the organization.
Source: FDIC reports of examination, and ICII Annual Reports from 1993 through 1999.


                                                         90
                                                                                         APPENDIX VI



                   SUBPRIME LENDING POLICIES AND PROCEDURES

In response to industry and consumer queries, the federal bank regulators have defined characteristics
that are attributable to subprime borrowers and lenders and have identified the concerns that center on
subprime credit card banks.

"Subprime lenders" are institutions that systematically target the subprime market through lending
programs that employ tailored marketing, underwriting standards, and risk selection.

The term “subprime program” refers to the process of acquiring, on a regular or targeted basis either
through origination or purchase, subprime loans to be held in the institution’s portfolio or accumulated
and packaged for sale. Subprime lending programs may also target borrowers with questionable
repayment capacity evidenced by low credit scores or high-debt-burden ratios. Subprime lending does
not refer to individual subprime loans originated and managed in the ordinary course of business as
exceptions to prime risk selection standards.

The federal banking agencies have defined "subprime borrowers" using the characteristics that are most
often associated with these borrowers. The term “subprime” refers to borrowers that typically have
weakened credit histories that include payment delinquencies, previous charge-off judgments,
bankruptcies, foreclosures, repossessions, high-default probability, and poor debt-to-income ratios.
While some of these attributes are not always indicative of a subprime borrower, taken as a whole, they
generally represent potential troubled or problem borrowers.

The federal banking agencies have also taken measures to ensure that financial institutions address the
increased risks associated with subprime lending through the issuance of guidance and policy
statements. The following procedures and guidelines have been issued.

Interagency Guidelines on Subprime Lending

In March 1999, the Federal Financial Institutions Examination Council (FFIEC) issued Interagency
Guidelines on Subprime Lending that defined subprime lending as extending credit to borrowers who
exhibit characteristics indicating a significantly higher risk of default than traditional bank lending
customers. Regulators were required to review and evaluate the capital levels at examinations and
through offsite monitoring techniques. In addition, the guidance states that measures can be
implemented and enforced if the capital levels are deemed to be inadequate. Specifically, the guidance
stresses the need for bank risk management programs to address loan pricing and requires the following
for risk management programs:

    •   planning and strategy should be consistent with overall business strategy of the bank;
    •   staff expertise requires specialized skills and knowledge;
    •   lending policy should establish the framework for pricing decisions and profitability analysis; and
    •   management should conduct reviews of credit scoring, pricing, and the adequacy of the
        allowance for loan and lease losses models.


                                                    91
                                                                                         APPENDIX VI



Expanded Guidance for Evaluating Subprime Lending Programs

In January 2001, the FFIEC issued Expanded Guidance for Evaluating Subprime Lending
Programs. This Expanded Guidance supplements the guidelines issued in March 1999 and is
specifically tailored to institutions that have subprime lending programs with an aggregate credit
exposure greater than or equal to 25 percent of Tier 1 Capital. In addition, the Expanded Guidance
refines the definition of subprime lending, clarifies the agencies' expectations regarding an institution's
risk management processes, and provides a more detailed discussion of the supervisory expectations for
examinations of subprime lending programs. The guidance also provides additional risk factors and
examination procedures to consider in the following areas:

    •   Allowance for Loan and Lease Losses (ALLL);
    •   Capital Adequacy;
    •   Portfolio Review and Analysis;
    •   Classification Guidelines;
    •   Cure Programs; and
    •   Predatory or Abusive Lending Practices.

To address risk management expectations, the guidance states that management’s ability should be
judged by the quality of the risk management and control processes in place and the extent to which
management is adhering to those processes. When a primary supervisor determines that an institution’s
risk management practices are materially deficient, the supervisor may instruct the institution to
discontinue its subprime lending programs.

For ALLL, the guidance states that classified loans are considered loans that are not adequately
protected by the sound worth and repayment capacity of the borrower or the pledged collateral. Full
liquidation of the debt may be in jeopardy. The ALLL covering subprime loans that are not classified
should be sufficient to absorb estimated losses on outstanding balances over the current operating cycle,
which is typically 12 months. The Board and management are responsible for determining the adequacy
of the ALLL and documenting the methodology that determines the balance of the ALLL.

For capital, the policy states that each subprime lender is responsible for quantifying the amount of
capital needed to offset the additional risk in subprime lending activities. Such lenders are also
responsible for documenting the methodology and analysis supporting the specified level of capital. The
methodology should be tailored to reflect the size, concentration, and risk posed to the institution by the
subprime lending activities. The guidance lists several potential factors to be considered when
determining the appropriate amount of capital and states that since subprime lending possesses more
risk than standard lending, it is expected that the capital levels would be at a minimum, one and a half to
three times greater than what is appropriate for non-prime assets of a similar type. The capital
adequacy analysis should also include stress testing as a tool for estimating unexpected losses in
subprime lending pools. Shock tests of basic assumptions will assist in determining a portfolio’s
susceptibility to changes in market and business conditions.


                                                    92
                                                                                             APPENDIX VI




FDIC Examination Documentation (ED) Module for Subprime Lending

FDIC developed an ED module to be used at examinations of institutions that conduct subprime lending
activities. Topics in the ED module include the following items:

    •   preliminary review, policy considerations, internal controls, audit or independent reviews,
        information and communication systems;

    •   portfolio analysis, allowance for loan and lease losses, servicing and collections, scoring models,
        profitability, and capitalization; and

    •   third parties, securitizations, managerial effectiveness, transaction-level testing, portfolio quality,
        and stress testing of capital adequacy.

Under each section, detail is provided as to the type of work that should be performed in order to
achieve a level of confidence on whether the bank is administering the program effectively.

Credit Card Specialty Bank Examination Guidelines

FDIC issued this guide in May 1997 to aid examiners in the proper evaluation techniques for institutions
with credit card portfolios. Credit card specialty banks have unique characteristics. According to
DSC, this guide is to be used in conjunction with the guidance pertaining to subprime lending.

FFIEC Credit Card Account Management and Loss Allowance Guidance

On January 8, 2003, the FFIEC issued interagency guidance for account management and loss
allowances for credit card lending. According to the guidelines, recent examinations of institutions
engaging in credit card lending have disclosed a wide variety of account management, risk management,
and loss allowance practices, a number of which were deemed inappropriate. As of March 31, 2002,
five FDIC-supervised institutions were heavily involved in subprime credit card receivables.

Federal regulators issued the guidelines to more tightly monitor specialty credit card lenders, especially
those that have increased their subprime lending business. The rules require companies to more
carefully monitor how much credit to extend to customers with too much debt, be more consistent in the
way they declare loans worthless, and maintain stronger reserves against bad loans and customer fees.
The guidelines are aimed at the large specialty credit card companies whose business is issuing credit
and who can incur significant losses when customers default.

The guidance applies to all institutions under the member agencies' supervision that offer credit card
programs. It describes the expectations for prudent risk management practices for credit card activities,
particularly with regard to credit line management, over-limit practices, and workout and forbearance


                                                      93
                                                                                           APPENDIX VI


practices. The guidance also specifically addresses income recognition and loss allowance practices for
credit card lending and states that recent examinations of credit card lenders have revealed a variety of
income recognition and loss allowance practices. Such practices have resulted in inconsistent estimates
of incurred losses and, accordingly, the inconsistent reporting of loss allowances. To address the
account management, risk management, and loss allowance practices for credit card lending, the
guidance provides procedures for:

    •   Credit Line Management,
    •   Over-limit Practices,
    •   Minimum Payment and Negative Amortization,
    •   Workout and Forbearance Practices,
    •   Income Recognition and Loss Allowance Practices, and
    •   Policy Expectations.

ED Modules for Credit Card Lending

Two of FDIC’s ED modules address credit card activities. The first module addresses merchant credit
card lending. It provides the core and expanded analysis procedures to be conducted in the course of
an examination. The impact analysis is also included in the module. The second module addresses
consumer credit card activities and is to be applied to institutions that specialize in credit cards and to
those institutions whose primary business focus is not credit card receivables. Both modules focus on
the examination procedures outlined in the credit card specialty examination guidelines.

The analyses prescribed in the ED modules apply to merchant credit card activities and credit card
activities in general. Specific details concerning all aspects of credit card lending are contained in the
supplemental guidelines for credit card specialty examinations.




                                                     94
                                                                                       APPENDIX VII


           ALLOWANCE FOR LOAN AND LEASE LOSS REVIEW GUIDELINES

As prescribed by FDIC examination documentation (ED) modules, examiners should consider seven
areas in determining appropriate allowances for loan and lease losses (ALLL) in addition to reviewing
the bank’s allowance methodology and applicable Uniform Bank Performance Report (UBPR) ratios as
a check for reasonableness.

To determine an appropriate ALLL level, examiners should:

1. Consider comparing the reported ALLL (after the deduction of all loans, or portions thereof,
   classified loss) against the sum of the following amounts:

    •   50 percent of the portfolio that is classified Doubtful,
    •   15 percent of the portfolio that is classified Substandard, and
    •   for the portions of the portfolio that have not been adversely classified (including those loans
        designated Special Mention), estimated credit losses over the upcoming 12 months (based on
        the institution's average annual rate of net charge-offs experienced over the previous two or
        three years on similar loans, adjusted for current conditions and trends).

2. Determine if the ALLL is sufficient to cover all of the following risks:

    •   Any losses on loans accorded Loss classifications (in whole or in part) that have not yet been
        charged-off.
    •   Estimated probable losses for all loans accorded Doubtful classifications (without partial Loss
        classification).
    •   Estimated probable losses for all remaining adversely classified loans (without partial Loss or
        Doubtful classification).
    •   Other problem loans (either individually or in pools).
    •   Estimated probable losses for the remaining categories of loans in the portfolio.
    •   Supplemental amount for unidentified loan portfolio losses.

3. Consider the bank's loan loss history in aggregate and by loan type.

    •   Calculate the average loan loss history for the past five years using gross loan losses to average
        total loans. (Data available from latest year-end UBPR).
    •   Evaluate any aberrations in a specific year, and make adjustments needed for current conditions
        to arrive at a realistic average.
    •   Consider migration analysis.

4. Consider the average reserve coverage of non-performing loans by state, rating, and charter.




                                                    95
                                                                                      APPENDIX VII


5. Consider the historical average of loan loss reserves to nonperforming loans for all banks in the
   region and nation. (Reserve coverage of nonperforming loans is typically higher for sound loan
   portfolios than those where problems exist.

6. Estimate the potential loss exposure in classified and Special Mention loans.

7. Consider the following factors to determine an appropriate percentage for nonclassified loans:

    •   Degree of Board or committee involvement, oversight, and control.
    •   Expertise, training, and adequacy of loan staff.
    •   Adequacy of loan policy and adherence to policy requirements.
    •   Effectiveness of collection procedures.
    •   Adequacy of renewal and extension policies.
    •   Adequacy of charge-off policies.
    •   Effectiveness of internal loan review function.
    •   Adequacy of appraisal procedures.
    •   Maintenance and analysis of financial information.
    •   Adequacy of documentation (other than financial information).
    •   Capitalization of interest.
    •   Overreliance on collateral values.
    •   Composition of the loan portfolio. (It may be appropriate to use different percentages for
        consumer, residential, and commercial real estate and commercial loans.)
    •   Existence of self-dealing and insider transactions.
    •   Level of classified loans and trend over past few examinations.
    •   Level and trend of internally identified loan problems.
    •   Level and trend of overdue and nonaccrual loans.
    •   General economic considerations (local, state, regional, national).
    •   Growth trends.
    •   Entry into new areas of lending.
    •   Extent of out-of-territory lending.
    •   Adequacy of follow-up systems, etc.
    •   Existence of off-balance sheet items (loan commitments, letters of credit).




                                                   96
                       APPENDIX VIII


CORPORATION COMMENTS




         97
     APPENDIX VIII




98
     APPENDIX VIII




99
      APPENDIX VIII




100
      APPENDIX VIII




101
      APPENDIX VIII




102
      APPENDIX VIII




103
                                                                                                                                                      APPENDIX IX
                                                MANAGEMENT RESPONSES TO RECOMMENDATIONS

This table presents the management responses that have been made on recommendations in our report and the status of recommendations as of the
date of report issuance. The information in this table is based on management’s written response to our report.
                                                                                    Expected
     Rec.                          Corrective Action:                              Completion        Monetary       Resolveda : Dispositionedb:            Open or
    Number                       Taken or Planned/Status                             Date            Benefits       Yes or No     Yes or No                Closedc

                 DSC concurred with the recommendation and will refer
                 the issue to its Chief Accountant for study by
                 September 30, 2003. In addition to possibly developing
        1        examiner guidance, actions may also include referring           June 30, 2004          N/A             Yes                 No               Open
                 certain matters to the appropriate authoritative bodies
                 that establish or maintain applicable accounting or
                 auditing standards.


                 DSC generally concurred with the recommendations and
                 will develop and utilize material, possibly a case study, to
                 present a history of events and lessons learned. Included
                 will be discussions of unique issues presented in this
                 case, various financial analyses deserving of examiner
      2-6                                                                     June 30, 2004             N/A             Yes                 No               Open
                 attention, and supervisory strategies and techniques that
                 may be applied under similar circumstances. At a
                 minimum, issues covered will include higher risk
                 commercial lending, analyses of capital and reserves, and
                 supervisory strategies.

a
    Resolved – (1) Management concurs with the recommendation and the planned corrective action is consistent with the recommendation.
               (2) Management does not concur with the recommendation but planned alternative action is acceptable to the OIG.
               (3) Management agrees to the OIG monetary benefits or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long as
                   management provides an amount.
b
    Dispositioned – The agreed-upon corrective action must be implemented, determined to be effective, and the actual amounts of monetary benefits achieved through
    implementation identified. The OIG is responsible for determining whether the documentation provided by management is adequate to disposition the recommendation.
c
    Once the OIG dispositions the recommendation, it can then be closed.

                                                                                    104
                                                                                         APPENDIX X


                                          GLOSSARY

     Term                                                Definition

                Accounts receivable financing is a specialized area of commercial bank lending in
                which borrowers assign their interests in accounts receivable to the lender as
                collateral. Typical characteristics of accounts receivable borrowers are those
Accounts        businesses that are growing rapidly and need year-round financing in amounts too
Receivable      large to justify unsecured credit, those that are non-seasonal and need year-round
Financing       financing because working capital and profits are insufficient to permit periodic
                cleanups, those whose working capital is inadequate for the volume of sales and type
                of operation, and those whose previous unsecured borrowings are no longer
                warranted because of various credit factors.


Adversely       Assets subject to criticism and/or comment in an examination report. Adversely
Classified      classified assets are allocated on the basis of risk (lowest to highest) to three
Assets          categories: Substandard, Doubtful, and Loss.


                Federally insured depository institutions must maintain an ALLL at a level that is
Allowance For   adequate to absorb the estimated credit losses associated with the loan and lease
Loan And        portfolio (including all binding commitments to lend). To the extent not provided for
Lease Losses    in a separate liability account, the ALLL should also be sufficient to absorb estimated
(ALLL)          credit losses associated with off-balance sheet credit instruments such as standby
                letters of credit.


                Auditor’s Standard Report or Unqualified Opinion: The auditor’s standard
                report states that the financial statements present fairly, in all material respects, an
                entity’s financial position, results of operations, and cash flows in conformity with
                generally accepted accounting principles. This conclusion may be expressed only
                when the auditor has formed such an opinion on the basis of an audit performed in
                accordance with generally accepted auditing standards (GAAS). Certain
Auditor’s       circumstances, while not affecting the auditor's unqualified opinion on the financial
Opinion         statements, may require that the auditor add an explanatory paragraph (or other
                explanatory language) to his report.

                Qualified Opinion: A qualified opinion states that, except for the effects of the
                matter to which the qualification relates, the financial statements present fairly, in all
                material respects, the financial position, results of operations, and cash flows in
                conformity with generally accepted accounting principles (GAAP).



                                                105
                                                                                            APPENDIX X


                    Adverse Opinion: An adverse opinion states that the financial statements do not
                    present fairly the financial position or the results of operations or cash flows in
                    conformity with GAAP. Such an opinion is expressed when, in the auditor's
                    judgment, the financial statements taken as a whole are not presented fairly in
Auditor’s           conformity with GAAP.
Opinion             Disclaimer of Opinion: A disclaimer of opinion states that the auditor does not
(continued)         express an opinion on the financial statements. It is appropriate when the auditor has
                    not performed an audit sufficient in scope to enable him to form an opinion on the
                    financial statements. A disclaimer of opinion should not be expressed because the
                    auditor believes, on the basis of his audit, that there are material departures from
                    GAAP.


                    Federal Financial Institutions Examination Council (FFIEC) Consolidated Reports of
Call Reports        Condition and Income from banks and Office of Thrift Supervision (OTS) Thrift
(Thrift Financial   Financial Reports from savings associations – collectively referred to as Call Reports
Reports and         – are sworn statements of financial condition that are submitted to the FDIC quarterly
Consolidated        in accordance with federal regulatory requirements in Title 12 of the Code of Federal
Reports of          Regulations (12 CFR). Call Reports consist of a balance sheet, income statement,
Condition and       and other supplemental information and provide detailed analyses of balances and
Income)             related activity.


                    Financial institution regulators use the Uniform Financial Institutions Rating System
                    (UFIRS) to evaluate a bank's performance. Six areas of performance are evaluated
                    and given a numerical rating of 1 through 5, with 1 representing the least degree of
                    concern and 5 the greatest degree of concern. The six performance areas identified
                    by the CAMELS acronym are

                        C    Capital adequacy,
CAMELS                  A    Asset quality,
Rating,                 M    Management practices,
Composite               E    Earnings performance,
Rating, and             L    Liquidity position, and
UFIRS Rating            S    Sensitivity to market risk.

                    A composite CAMELS rating is an overall rating given to a bank based on the six
                    components of the CAMELS rating. A rating of 1 through 5 is given. A rating of 1
                    indicates strong performance; 2 reflects satisfactory performance; 3 represents below
                    average performance; 4 refers to marginal performance that could threaten the
                    viability of the institution; and, 5 is considered critical, unsatisfactory performance that
                    threatens the viability of the institution.



                                                    106
                                                                                     APPENDIX X



                A financial institution is expected to maintain capital commensurate with the nature and
                extent of risks to the institution and the ability of management to identify, measure,
                monitor, and control these risks. Capital adequacy, as it relates to quarterly Call
                Reports, can be evaluated to a limited extent based on certain financial information
                that includes amounts used in calculations of an institution's various regulatory capital
Capital
                amounts.
Adequacy
                Part 325 of the FDIC Rules and Regulations, 12 CFR §325.101, et. seq, implements
                section 38 of the FDI Act, 12 USC §1831(o), by establishing a framework for taking
                prompt supervisory actions against insured nonmember banks that are not adequately
                capitalized.


                A formal enforcement action issued by the regulator’s Board of Directors to a bank
Cease and
                or affiliated party to stop an unsafe or unsound practice or violation. A C&D may be
Desist Order
                terminated when the bank’s condition has significantly improved and the action is no
(C&D Order)
                longer needed or the bank has materially complied with its terms.


                A concentration is a significantly large volume of economically related assets that an
                institution has advanced or committed to one person, entity, or affiliated group.
                These assets may in the aggregate present a substantial risk to the safety and
Concentration   soundness of the institution. A concentrations schedule is one of the pages that may
                be included in the Report of Examination. As a general rule, concentrations are listed
                by category according to their aggregate total and are reflected as a percentage of
                Tier 1 Capital.


                Loans for commercial or industrial purposes to business enterprises, whether
                proprietorships, partnerships, or corporations, are commonly described by the term
Commercial      "commercial loans.” Commercial or business loans frequently comprise one of the
Loans           most important assets of a bank. They may be secured or unsecured and for short- or
                long-term maturities. Such loans include working capital advances, term loans, and
                loans to individuals for business purposes




                                              107
                                                                                        APPENDIX X



                   Leasing is a recognized form of term debt financing for fixed assets. While leases
                   differ from loans in some respects, they are similar from a credit viewpoint because
                   the basic considerations are cash flow, repayment capacity, credit history,
                   management, and projections of future operations. Additional considerations for a
                   lease transaction are the type of property and its marketability in the event of default
Direct Lease
                   or termination of the lease. Those latter considerations do not radically alter the
Financing
                   manner in which an examiner evaluates collateral for a loan. The assumption is that the
                   lessee/borrower will generate sufficient funds to liquidate the lease/debt. Sale of
                   leased property/collateral remains a secondary source of repayment and, except for
                   the estimated residual value at the expiration of the lease, will not, in most cases,
                   become a factor in liquidating the advance.


Division of
Resolutions and The division of the FDIC which plans and handles the resolution of failing and failed
Receiverships   FDIC-insured institutions.
(DRR)


DFI – State of
California’s       DFI is responsible for regulating the safety and soundness of state-chartered financial
Department of      institutions to maintain public confidence and facilitate a strong financial services
Financial          system. DFI also licenses financial institutions in the State of California.
Institutions


                Effective July 1, 2002, the FDIC’s Division of Supervision and the Division of
                Compliance and Consumer Affairs were merged to form the new Division of
                Supervision and Consumer Protection (DSC). The DSC promotes the safety and
                soundness of FDIC-supervised institutions, protects consumers’ rights, and promotes
Division of     community investment initiatives by FDIC-supervised insured depository institutions.
Supervision and The mission of DSC is to promote stability and public confidence in the nation's
Consumer        financial system by:
Protection
(DSC)             • examining and supervising insured financial institutions to ensure they operate in a
                     safe and sound manner, that consumers' rights are protected, and that FDIC-
                     supervised institutions invest in their communities, and
                  • providing timely and accurate deposit insurance information to financial
                     institutions and the public.




                                                 108
                                                                                      APPENDIX X



              Enterprise value can be defined as the imputed value of a business. This valuation is
              often based on the anticipated or imputed sale value, market capitalization, or net
              worth of the borrower. The sale value is normally some multiple of sales or cash flow
              based on recent mergers or acquisitions of other firms in the borrower's industry.

              This enterprise value is often relied upon in the underwriting of leveraged loans to
              evaluate the feasibility of a loan request, determine the debt reduction potential of
              planned asset sales, assess a borrower's ability to access the capital markets, and to
Enterprise
              provide a secondary source of repayment. Consideration of enterprise value is
Value
              appropriate in the credit underwriting process. However, enterprise value and other
              intangible values, which can be difficult to determine, are frequently based on
              projections and may be subject to considerable change. Consequently, reliance upon
              them as a secondary source of repayment can be problematic. Because enterprise
              value is commonly derived from the cash flows of a business, it is closely correlated
              with the primary source of repayment. This interdependent relationship between
              primary and secondary repayment sources increases the risk in leveraged financing,
              especially when credit weaknesses develop.


              The FDIC, in conjunction with other federal and state regulatory agencies, examines
              financial institutions to ensure they are conducting business in compliance with
Examination   consumer protection rules and in a way that minimizes risk to their customers and to
Function      the deposit insurance funds. There are five categories of examinations: Community
              Reinvestment Act, Compliance, Information Systems & E-banking, Safety &
              Soundness, and Trust.


              The executive officer of a company or bank is a person who participates or has
              authority to participate (other than in the capacity of a director) in major policymaking
              functions of the company or bank, whether or not: the officer has an official title, the
              title designates the officer an assistant, or the officer is serving without salary or other
Executive     compensation. The chairman of the board, the president, every vice president, the
Officer       cashier, the secretary, and the treasurer of a company or bank are considered
              executive officers, unless the officer is excluded, by resolution of the Board of
              Directors or by the bylaws of the bank or company, from participation (other than in
              the capacity of a director) in major policymaking functions of the bank or company,
              and the officer does not actually participate therein.




                                              109
                                                                                        APPENDIX X



                   The FDIC’s Supervision Program promotes the safety and soundness of FDIC-
                   supervised institutions, protects consumers’ rights, and promotes community
                   investment initiatives by FDIC-supervised insured depository institutions.

                   As supervisor, the FDIC performs safety and soundness examinations of FDIC-
                   supervised institutions to assess their overall financial condition, management practices
                   and policies, and compliance with applicable laws and regulations. Through the
                   examination process, the FDIC also assesses the adequacy of management and
                   internal control systems to identify and control risks. Procedures normally performed
FDIC
                   in completing this assessment may disclose the presence of fraud or insider abuse.
Supervision
Program
                   The FDIC supervises FDIC-insured state-chartered banks that are not members of
                   the Federal Reserve System and are described as state non-member banks. This
                   includes state-licensed insured branches of foreign banks and state-chartered mutual
                   savings banks. The FDIC also has examination authority and special insurance activity
                   authority for state member banks that are supervised by the Board of Governors of
                   the Federal Reserve System (FRB), national banks that are supervised by the Office
                   of the Comptroller of the Currency (OCC), and savings associations that are
                   supervised by the Office of Thrift Supervision (OTS). This authority is exercised in
                   the FDIC’s role as insurer of those institutions.


Federal Deposit
                The Federal Deposit Insurance Corporation’s mission is to maintain the stability of and
Insurance
                public confidence in the nation's financial system. To achieve this goal, the FDIC was
Corporation
                created in 1933 to insure deposits and promote safe and sound banking practices.
(FDIC)


                   The Federal Financial Institutions Examination Council (FFIEC) is a formal
Federal            interagency body empowered to prescribe uniform principles, standards, and report
Financial          forms for the federal examination of financial institutions by the Board of Governors of
Institutions       the Federal Reserve System (FRB), the Federal Deposit Insurance Corporation
Examination        (FDIC), the National Credit Union Administration (NCUA), the Office of the
Council            Comptroller of the Currency (OCC), and the Office of Thrift Supervision (OTS) and
(FFIEC)            to make recommendations to promote uniformity in the supervision of financial
                   institutions.




                                                 110
                                                                                      APPENDIX X



                Floor plan (wholesale) lending is a form of retail goods inventory financing in which
                each loan advance is made against a specific piece of collateral. As each piece of
                collateral is sold by the dealer, the loan advance against that piece of collateral is
                repaid. Items commonly subject to floor plan debt are automobiles, home
Floor Plan
                appliances, furniture, television and stereophonic equipment, boats, mobile homes and
Lending
                other types of merchandise usually sold under a sales finance contract. Floor plan
                loans involve all the basic risks inherent in any form of inventory financing. However,
                because of the banker's inability to exercise full control over the floored items, the
                exposure to loss may be greater than in other similar types of financing.


                Generally Accepted Accounting Principles (GAAP) is the body of principles
Generally       governing the accounting for financial transactions and preparation of financial
Accepted        statements. GAAP is derived from guidance issued by the Financial Accounting
Accounting      Standards Board (FASB) and the American Institute of Certified Public Accountants
Principles      (AICPA) in the form of Accounting Research Bulletins (ARB), Accounting Principles
(GAAP)          Board (APB) Opinions, FASB Statements of Financial Accounting Standards
                (SFAS), and FASB Statements of Financial Accounting Concepts (SFAC).


Generally
Accepted        Generally Accepted Auditing Standards (GAAS) are policies, guidelines, and
Auditing        procedures set forth by the AICPA that an auditor is required to follow in performing
Standards       an audit in order to render an opinion on an organization's financial statements.
(GAAS)


                Statement on Auditing Standards (SAS) 59, The Auditor’s Consideration of an
                Entity’s Ability to Continue as a Going Concern, as amended, requires
Going Concern   independent accountants to evaluate – as part of every financial statement audit –
Determination   whether there is substantial doubt about the ability of the entity to continue as a going
                concern for a reasonable period, not to exceed 1 year beyond the date of the
                financial statements being audited.


                A person who is or is proposed to be a director, officer, organizer, or incorporator of
                an applicant; a shareholder who directly or indirectly controls 10 percent or more of
Insider         any class of the applicant's outstanding voting stock; or the associates or interests of
                any such person. An Institution-affiliated party shall have the same meaning as
                provided in section 3(u) of the Bank Holding Company Act of 1956.




                                               111
                                                                                            APPENDIX X


Insured
                    The term insured depository institution means any bank or savings association the
Depository
                    deposits of which are insured by the FDIC.
Institution


                 Internal control is an integral component of an organization’s management that
Internal Control provides reasonable assurance of achieving effectiveness and efficiency of operations,
                 reliability of financial reporting, and compliance with applicable laws and regulations.


                    Banks must maintain at least the minimum leverage requirements set forth in Part 325
Leverage            of the FDIC Rules and Regulations 12 CFR §325.3. The minimum leverage
Capital             requirement is a ratio of Tier 1 (Core) capital to total assets of not less than 3 percent
                    or greater, depending upon the condition of the institution.


                    Leveraged financing is an important financing vehicle for mergers and acquisitions,
                    business re-capitalizations and refinancings, equity buyouts, and business or product
                    line build-outs and expansions. It is also used to increase shareholder returns and to
                    monetize perceived "enterprise value" or other intangibles. A transaction is
                    considered leveraged when the obligor's post-financing leverage as measured by
Leveraged           debt-to-assets, debt-to-equity, cash flow-to-total debt, or other such standard unique
Financing           to particular industries significantly exceeds industry norms for leverage.
                    Leveraged borrowers typically have a diminished ability to adjust to unexpected
                    events and changes in business conditions because of their higher ratio of total
                    liabilities to capital. Consequently, leveraged financing can have significant implications
                    for a banking organization's overall credit risk and presents unique challenges for its
                    risk management systems.


                    Auditors are required to inform the audit committee (or its equivalent) about
Management          significant deficiencies in the design or operation of the internal control structure that
Letters             come to their attention in the course of an audit. This is generally done in a letter to
                    management, commonly referred to as a management letter.


Memorandum          An informal corrective administrative action from institutions considered to be of
of                  supervisory concern, but which have not deteriorated to the point where they warrant
Understanding       formal administrative action. As a general rule, an MOU is to be considered for all
(MOU)               institutions rated a composite 3.




                                                    112
                                                                                    APPENDIX X



              Non-audit services, according to the Sarbanes-Oxley Act of 2002, are any
Non-Audit     professional services provided to a securities issuer by a registered public accounting
Services      firm, other than those provided to an issuer in connection with an audit or a review of
              the financial statements of an issuer.


              The nominal or face value of a stock or bond certificate or loan. It is expressed as a
Par Value     specific amount marked on the face of the instrument. Par value is not related to
              market value, which is the amount a buyer is willing to pay for an item.


              The institution’s charter determines which federal banking agency is the primary
              federal supervisor of the particular institution. There are four Federal regulators of
              banks and savings and loan institutions:

               • Board of Governors of the Federal Reserve System (Federal Reserve Board or
                 FRB) - Primary Federal regulator responsible for state-chartered commercial
Primary          bank members of the Federal Reserve System.
Federal        • Federal Deposit Insurance Corporation (FDIC) - Primary Federal regulator
Regulator        responsible for state-chartered banks not members of the Federal Reserve
                 System and state chartered savings banks.
               • Office of the Comptroller of the Currency (OCC) - Primary Federal regulator
                 responsible for nationally chartered commercial banks.
               • Office of Thrift Supervision (OTS) - Primary Federal regulator responsible for
                 federally chartered savings and loan associations, federal savings banks and
                 state-chartered savings and loan associations.


              A person that directly or indirectly, or acting through or in concert with one or more
              person, owns, controls or has the power to vote more than 10 percent of any class of
Principal
              voting securities of a member bank or company. Shares owned or controlled by a
Shareholder
              member of an individual's immediate family are considered to be held by the
              individual.




                                             113
                                                                                          APPENDIX X



               Part 325 of the FDIC Rules and Regulations, 12 CFR §325.101, et. seq; implements
               section 38 of the FDI Act, 12 USC §1831(o), by establishing a framework for taking
               prompt supervisory actions against insured nonmember banks that are not adequately
               capitalized. The following codes and categories are used to describe capital adequacy:

                                              Total Risk-           Tier 1 Risk-           Leverage
                Code - Category             Based Capital          Based Capital             Capital
               W Well                      10 percent or         6 percent or          5 percent or
Prompt           Capitalized               more, and             more, and             more.
Corrective
               A Adequately                8 percent or          4 percent or          4* percent or
Action (PCA)
                 Capitalized               more, and             more, and             more.
               U Under-                    Less than 8           Less than 4           Less than 4*
                 capitalized               percent, or           percent, or           percent.
               S Significantly             Less than 6           Less than 3           Less than 3
                 Undercapitalized          percent, or           percent, or           percent.
               C Critically                The institution’s tangible equity is 2 percent or less
                 Undercapitalized          regardless of its other capital ratios.
               * 3 percent if the bank is rated composite 1 under the CAMELS rating system, is not
               experiencing or anticipating significant growth, and has well-diversified risk.


               A construction loan is used to construct a particular project within a specified period
               and should be controlled by supervised disbursement of a predetermined sum of
               money. It is generally secured by a first mortgage or deed of trust and backed by a
               purchase or takeout agreement from a financially responsible permanent lender.
Real Estate
               Construction loans are vulnerable to a wide variety of risks. The major risk arises
Construction
               from the necessity to complete projects within specified cost and time limits. The risk
Loans
               inherent in construction lending can be limited by establishing policies that specify that
               type and extent of bank involvement. Such policies should define procedures for
               controlling disbursements and collateral margins and assuring timely completion of the
               projects and timely repayment of the bank's loans.


               A warning sign that something may not be right. In this report it refers to irregular or
Red Flags
               unusual activity at the bank.




                                                114
                                                                                         APPENDIX X



                 A public accounting firm registered with the Public Company Accounting Oversight
                 Board in accordance with the Sarbanes-Oxley Act of 2002. A public accounting
                 firm is a proprietorship, partnership, incorporated association, corporation, limited
                 liability company, limited liability partnership, or other legal entity that is engaged in
                 the practice of public accounting or preparing or issuing audit reports; and to the
Registered
                 extent so designated by the rules of the Board, any associated person of any such
Public
                 entity.
Accounting
Firm
                 Enactment of the Sarbanes-Oxley Act of 2002, changed the term used to describe
                 accountants in the SEC Act of 1934. Section 10A of the Securities Exchange Act of
                 1934 (15 U.S.C. 78j-1) was amended by the Sarbanes-Oxley Act of 2002 by
                 replacing “an independent public accountant” with “a registered public accounting
                 firm.”


                 The Federal Reserve regulation that restricts the amount of credit banks may extend
Regulation O
                 to their own executive officers, directors, and principal shareholders.


Risk-Based       A supplemental capital standard under 12 CFR §325, Appendix A. II. Under the
Rules and        risk-based framework, a bank’s qualifying total capital base consists of two types of
Capital          capital elements, core capital (Tier 1) and supplementary capital (Tier 2) less certain
Regulations      deductions.


                 The risk-focused examination process attempts to assess an institution's risk by
Risk-Focused     evaluating its processes to identify, measure, monitor, and control risk. The risk-
Examination      focused examination process seeks to strike an appropriate balance between
Process          evaluating the condition of an institution at a certain time and evaluating the soundness
                 of the institution's processes for managing risk.


                 A system of calculating the risk-weighting of assets based on assigning assets and off-
Risk-Weighting
                 balance assets into broad risk categories, 12 CFR §325, Appendix A.II.


                 These periodic, on-premise examinations help assess an institution's financial
Safety and       condition, policies and procedures, and adherence to laws and regulations. These
Soundness        examinations are a vital tool in protecting the financial integrity of the deposit
Examinations     insurance funds and promoting the public confidence in the banking system and
                 individual banks.




                                                 115
                                                                                          APPENDIX X



               Rules and guidance issued by the Auditing Standards Board (ASB). The ASB is the
SAS (Statement senior technical committee of the AICPA designated to develop and issue auditing,
on Auditing    attestation, and quality control standards and guidance. Rule 202 of the AICPA
Standards)     Code of Professional Conduct requires AICPA members who perform professional
               audit and attest services to comply with standards promulgated by the ASB.


                   Statement on Auditing Standards (SAS) 58, Reports on Audited Financial
                   Statements, prescribes the form of the auditor's standard report issued in connection
                   with audits of historical financial statements that are intended to present financial
SAS 58
                   position, results of operations, and cash flows in conformity with generally accepted
                   accounting principles. SAS 58 distinguishes the types of reports, describes the
                   circumstances in which each is appropriate, and provides example reports.


                   Statement on Auditing Standards (SAS) 60, Communication of Internal Control
                   Structure Related Matters Noted in an Audit, requires independent auditors of all
SAS 60
                   companies to report to the audit committee or its equivalent all reportable conditions
                   noted in the audit.


                   Statement on Auditing Standards (SAS) 61, Communication with Audit
                   Committees, requires independent auditors of public companies to directly inform the
SAS 61
                   group with management oversight responsibility of certain audit-related matters other
                   than internal control matters.


                   Section 10(b) of the FDI Act, 12 USC §1820 (b), lists the power of the Board of
Section 10(b) of   Directors to appoint examiners to conduct regular and special examinations of
the Federal        financial institutions. Also, examiners shall have the power, on behalf of the
Deposit            Corporation, to make such examinations of the affairs of any affiliate of any
Insurance Act      depository institution as may be necessary to disclose fully the relationship between
                   the institution and its affiliate and the effect of the relationship on the institution.


Section 10(c) of   Section 10(c) of the FDI Act, 12 USC §1820(c), authorizes the representative of an
the Federal        appropriate Federal banking agency to administer oaths and affirmations and to
Deposit            examine and take and preserve testimony under oath as to any matter in respect to
Insurance Act      the affairs or ownership of any such bank, institution, or affiliate.




                                                  116
                                                                                        APPENDIX X



                  Section 23A of the Federal Reserve Act, 12 USC §371(c), establishes restrictions
Section 23A of
                  on transactions between financial institutions and their affiliates. These include
the Federal
                  restrictions on the dollar amount involved in the transactions and establishes collateral
Reserve Act
                  requirements for certain transactions with affiliates.


                  Section 23B of the Federal Reserve Act, 12 USC §371(c)-I, places restrictions on
                  transactions with affiliates. It requires transactions to be on the same terms and
Section 23B of
                  standards or at least as favorable as those prevailing for comparable transactions with
the Federal
                  a non-affiliate. In the absence of comparable transactions, they must be on terms and
Reserve Act
                  circumstances that in good faith would be offered to or apply to nonaffiliated
                  companies.


                  Any loan and or formal commitment, including any asset such as other real estate,
                  stocks, notes, bonds, and debentures taken for debts previously contracted,
Shared            extended to a borrower by a supervised institution, its subsidiaries, and affiliates
National Credit   which in original amount aggregates $20 million or more and, (1) which is shared by
(SNC)             three or more unaffiliated institutions under a formal lending agreement; or (2) a
                  portion of which is sold to two or more unaffiliated institutions, with the purchasing
                  institution(s) assuming its prorated share of the credit risk.


                  The purchaser of a financial asset from an original creditor has a claim on the original
                  creditor in case the debtor defaults. Specific arrangements to provide recourse arise
Sold With         in a variety of innovative transactions, including various types of securitized assets.
Recourse          Such arrangements can take many forms, including an explicit guarantee that credit
                  losses will be reimbursed or the assets will bereplaced by assets of similar quality or
                  indemnification by a third-party guarantor for any losses.


                  A borrower whose credit is below good credit standards. These borrowers pose a
Subprime
                  greater risk and are characterized by paying debts late, filing for personal bankruptcy,
Borrower
                  and/or having an insufficient credit history.




                                                 117
                                                                                        APPENDIX X



                Syndicated loans represent a substantial portion of commercial and industrial loan
                portfolios. Many large bank portfolios are comprised exclusively of syndicated loans.
                A syndicated loan involves two or more banks contracting with a borrower, typically
                a large or middle market corporation, to provide funds at specified terms under the
                same credit facility. The average commercial syndicated credit is in excess of
Syndicated      $100 million. Syndicated credits differ from participation loans in that lenders in
Lending         syndication participate jointly in the origination process, as opposed to one originator
                selling undivided participation interests to third parties. The syndicated market
                formed to meet basic needs of lenders and borrowers, specifically: raising large
                amounts of money, enabling geographic diversification, satisfying relationship banking,
                obtaining working capital quickly and efficiently, spreading risk for large credits
                among banks, and gaining attractive pricing advantages.


                12 USC § 1841(I) defines a thrift institution as: (a) a domestic building and loan or
Thrift          savings and loan association (b) non-profit cooperative bank without capital stock (c)
Institution     a federal savings bank, or (d) a registered state-charted savings bank and holding
                company.


                Defined in Part 325 of the FDIC Rules and Regulations, 12 CFR §325.2 (A), as:
                  The Sum of:
                 • Common stockholder’s equity (common stock and related surplus, undivided
                   profits, disclosed capital reserves, foreign currency translation adjustments, less
                   net unrealized losses on available-for-sale securities with readily determinable
                   market values);
Tier 1 (Core)
                 • non-cumulative perpetual preferred stock; and
Capital
                 • minority interest in consolidated subsidiaries;
                 Minus:
                 •   Certain intangible assets;
                 •   identified losses;
                 •   investments in securities subsidiaries subject to section 337.4; and
                 •   deferred tax assets in excess of the limit set forth in section 325.5(g).


Tier 1
Leverage        Tier 1 Capital divided by total assets as defined in 12 CFR §225, Appendix D.,II.a.
Capital Ratio




                                                118
                                                                                      APPENDIX X



                   Tier 2 Capital is defined in Part 325 of the FDIC Rules and Regulations,
                   12 CFR §325, Appendix A., I.A.2, and generally consists of:
                    • Allowances for loan and lease losses, up to a maximum of 1.25 percent of risk-
                       weighted assets,
Tier 2
                    • Cumulative perpetual preferred stock, long-term preferred stock and related
(Supplemental)
                       surplus,
Capital
                    • Perpetual preferred stock (dividend is reset periodically),
                    • Hybrid capital instruments,
                    • Term subordinated debt and intermediate-term preferred stock, and
                    • Eligible net unrealized holding gains on equity securities.


Total Risk-
                   The total qualifying capital divided by risk-weighted assets defined by 12 CFR §
Based Capital
                   325.2(w).
Ratio


Uniform Bank
Performance   A report comparing an individual bank or thrift to its peer group.
Report (UBPR)


                   Generally, an unsafe or unsound practice is any action or lack of action that is
Unsafe or
                   contrary to generally accepted standards of prudent operation, the possible
Unsound
                   consequences of which, if continued, would be abnormal risk of loss or damage to an
Practice
                   institution, its shareholders, or the agencies administrating the insurance funds.




                                                119
                                                                             APPENDIX XI




              PREVIOUSLY ISSUED MATERIAL LOSS REVIEW REPORTS




•   The Failure of the Connecticut Bank of Commerce, Stamford, Connecticut
    (Issue date: March 10, 2003)

•   The Failure of Pacific Thrift and Loan Company, Woodland Hills, California
    (Issue date: June 7, 2000)

•   The Failure of BestBank, Boulder, Colorado
    (Issue date: January 22, 1999)

•   The Failure of First Trust Bank, Ontario, California
    (Issue date: May 16, 1997)

•   The Failure of the Bank of Newport, Newport Beach, California
    (Issue date: October 8, 1996)

•   The Failure of Pacific Heritage Bank, Torrance, California
    (Issue date: January 26, 1996)

•   The Failure of The Bank of Hartford, Hartford, Connecticut
    (Issue date: December 1, 1995)

•   The Failure of The Bank of San Pedro, San Pedro, California
    (Issue date: December 21, 1994)

•   The Failure of The Bank of San Diego, San Diego, California
    (Issue date: April 29, 1994)




                                             120
